                 United States Department of Justice
                      Office of the Inspector General
                                        Audit Division




AUDIT REPORT



 FEDERAL BUREAU OF
  INVESTIGATION’S
  MANAGEMENT OF
    INFORMATION
    TECHNOLOGY
    INVESTMENTS




 DECEMBER 2002

      03-09
FEDERAL BUREAU OF INVESTIGATION’S MANAGEMENT
   OF INFORMATION TECHNOLOGY INVESTMENTS


                          EXECUTIVE SUMMARY

       Following the September 11, 2001, terrorist attacks, the Attorney
General and the Director of the Federal Bureau of Investigation (FBI)
made clear that prevention of terrorism is the top priority of the
Department of Justice (DOJ) and the FBI. Effective use of information
technology (IT) is crucial to the FBI’s ability to meet this priority as well
as its other critical responsibilities.

       However, reviews conducted by the Office of the Inspector
General (OIG) and the General Accounting Office (GAO) have found
major weaknesses associated with the FBI’s IT. The FBI has listed
upgrading its information technology as one of its top ten highest
priorities. In June 2002 Congressional testimony, the FBI
acknowledged that its IT infrastructure is severely outdated.

      Because of the importance of the FBI’s management of its IT
systems, we performed this audit to: (1) determine whether the FBI
was effectively managing its IT investments; and (2) assess the FBI’s
IT-related strategic planning and performance measurement activities.1
We also examined the FBI’s efforts to develop enterprise architecture2
and project management capabilities.

       In this audit, we conducted approximately 85 interviews with
70 officials from the FBI, DOJ, GAO, and the Office of Management and
Budget (OMB). The FBI officials interviewed were from the Director’s
office, Information Resources Division, Criminal Justice Information
Services Division, Laboratory Division, Inspection Division, and Finance

       1
        During our audit fieldwork, we initiated work relating to a third objective: to
determine if the FBI has implemented prior information technology related
recommendations directed toward improving information technology. We will issue a
separate report on this objective.
       2
          Enterprise architecture is the organization-wide blueprint that defines an
entity’s functions and systems, including IT systems. It provides a comprehensive
view (through models, narratives, and diagrams) of the interrelationships of an
organization’s operations and structures and how these structures align with the
organization’s mission. The Clinger-Cohen Act of 1996 recognizes the
interrelationship between enterprise architecture and IT investment management by
requiring federal agencies to develop an enterprise architecture.


                                         -i-
Division. Additionally, OIG auditors and analysts traveled to FBI
laboratory facilities in Quantico, VA, and five FBI field offices to
conduct interviews and assess the FBI’s implementation of IT
initiatives. We also reviewed more than 200 documents, including the
FBI’s IT management policies and procedures, project management
guidance, strategic and program plans, IT project proposals and
management plans, budget documentation, organizational structures,
Congressional testimony, and prior OIG and GAO reports.

1. Summary of Audit Findings

      We concluded that the FBI has not effectively managed its IT
investments because it has not fully implemented the management
processes associated with successful IT investments. The foundation
for sound IT investment management (ITIM) includes the following
fundamental elements:

  •   defining and developing IT investment boards;

  •   following a disciplined process of tracking and overseeing each
      project’s cost and schedule milestones over time;

  •   identifying existing IT systems and projects;

  •   identifying the business needs for each IT project; and

  •   using defined processes to select new IT project proposals.

      The FBI failed to implement these critical processes. We found
that the FBI does not have fully functioning IT investment boards that
are engaged in all phases of IT investment management. The FBI was
not following a disciplined process of tracking and overseeing each
project’s cost and schedule milestones. The FBI failed to document a
complete inventory of existing IT systems and projects, and did not
consistently identify the business needs for each IT project. The FBI
did not have a fully established process for selecting new IT project
proposals that considered both existing IT projects and new projects.

      Because the FBI has not fully implemented the critical processes
associated with effective IT investment management, the FBI
continues to spend hundreds of millions of dollars on IT projects
without adequate assurance that these projects will meet their
intended goals.



                                 - ii -
      We concluded that these shortcomings primarily resulted from
the FBI not devoting sufficient management attention in the past to IT
investment management.

      However, FBI management has recognized that its past methods
to manage IT projects have been deficient, and the FBI recently has
committed to changing those practices. In January 2002, the FBI
developed a conceptual model for selecting, controlling, and evaluating
IT investments. The model seeks to define a process that will promote
a Bureau-wide perspective on IT investment management, so that only
IT projects with the best probability of improving mission performance
are selected. Further, the process is intended to provide the methods,
structures, disciplines, and management framework that governs the
way IT projects are controlled and evaluated.

      In addition to developing a conceptual model for a new ITIM
process, in early 2002 the FBI began a pilot test of the new process for
the selection of IT proposals. We found that the FBI made
improvements during the pilot testing of the new selection process.
Pursuant to the new process, the FBI created three IT investment
review boards that reviewed IT proposals for technical compliance and
“mission fit.” These boards, comprised of the FBI Director, FBI
executives and IT managers, selected new IT proposals that will be
considered for inclusion in the Fiscal Year (FY) 2004 budget request.

       While the FBI has made efforts to improve its IT investment
management practices, the FBI must take further actions to ensure
that it can implement the fundamental processes necessary to build an
IT investment foundation, as well as the more mature processes
associated with highly effective IT investment management. These
actions include:

   •   fully developing and documenting its new IT investment
       management process – which is necessary to completely
       implement the activities defined in the FBI’s conceptual model;

   •   requiring increased participation from IT program managers and
       users – which is necessary to ensure senior management
       acceptance and foster understanding and institutionalization of
       the ITIM process; and

   •   further developing the FBI’s project management and enterprise
       architecture functions – which is necessary to execute the



                                  - iii -
       control and evaluate components of the ITIM process as well as
       advance its investment management capability.

       Our audit also reviewed the FBI’s management of Trilogy, the
FBI’s largest and most critical IT project. We found that the lack of
critical IT investment management processes contributed to missed
milestones and led to uncertainties about cost, schedule, and technical
goals. Specifically, despite $78 million in additional funding, the FBI
missed its July 2002 milestone date for completing the physical IT
infrastructure upgrades to field offices, including new computer
hardware and networks.3 FBI officials stated that they are not
expecting the physical infrastructure components of Trilogy to be
completed until March 2003. In addition, the user application
component of Trilogy, recognized by FBI officials as the most
important aspect of the project in terms of improving agent
performance, is at high risk of not being completed within the funding
levels appropriated by Congress. In our judgment, the management
problems associated with Trilogy demonstrate the FBI’s urgent need
for enhanced IT investment management.

      We also concluded that the FBI’s IT strategic planning and IT
performance measurement are inadequate. We found that the FBI's
strategic plan does not include goals for IT investment management,
and the FBI’s strategic plan and performance plan are not consistent
with the DOJ’s annual performance plan.

      The remainder of this executive summary provides more
background and details on our audit findings and recommendations to
help improve the FBI’s management of its IT investments.

2. Background

      The Clinger-Cohen Act of 1996 requires each federal agency to
implement a process for maximizing the value of its IT investments.
This process is intended to ensure that IT projects are being
implemented at acceptable costs and within reasonable time frames,
and that the projects are contributing to enhanced mission
performance. Specifically, the Clinger-Cohen Act requires federal
agencies to: (1) develop an enterprise architecture framework, and




       3
        With the $78 million in additional funding, Trilogy’s total appropriation was
$458 million as of June 2002.


                                        - iv -
(2) follow a “select/control/evaluate” approach to managing IT
investments.

      In May 2000, the GAO developed the IT Investment
Management Framework (Framework) to provide a common
methodology for assessing IT capital planning and investment
management practices at federal agencies. The Framework specifically
describes the organizational processes required to carry out sound IT
investment management.

       The Framework, based on best practices of leading
organizations, is a hierarchical model comprised of five maturity
stages. These maturity stages represent steps toward achieving stable
and mature investment management processes. As agencies advance
through these stages, their capability to effectively manage IT
increases. With the exception of the first stage, each maturity stage is
comprised of critical processes that must be implemented and
institutionalized for the agency to satisfy the requirements of that
stage. These critical processes are further broken down into key
practices an agency should perform to successfully implement each
critical process.

       An agency using these critical processes is in a better position to
successfully invest in IT and use its IT investments to achieve its
priorities. Conversely, an agency that does not have these critical
processes in place is at high risk that its IT projects will fail to support
the achievement of priorities.

      To determine whether the FBI was effectively managing its IT
investments, we utilized the Framework because it is: (1) a
standardized tool for internal and external evaluations of an agency’s
IT investment management process; (2) a consistent and
understandable mechanism for reporting the results of these
assessments; and (3) a road map agencies can use for improving their
IT investment management process.

      In addition, the Government Performance and Results Act of
1993 (Results Act) requires strategic planning and performance
measurement throughout the federal government. The Results Act
seeks to improve the effectiveness, efficiency, and accountability of
federal programs by requiring federal agencies to establish goals for
program performance and measurement. The Results Act requires
agencies to prepare a strategic plan, annual performance plan, and
annual performance report.


                                    -v-
       While IT strategic planning is a function somewhat independent
of IT investment management, these two functions are interrelated
and complementary. The DOJ has recognized the importance of
integrating strategic planning with IT management. In July 2002, the
DOJ released its IT Strategic Plan that included a strategic initiative to
establish and improve investment management processes.

3. The FBI’s Management of IT Investments

      Our audit found that the FBI has not established an IT
investment foundation and therefore is in Stage One maturity
according to the ITIM Framework. Stage One maturity is characterized
by inconsistent, unstructured, and unpredictable investment
processes. Our observations of the FBI’s IT investment processes
found that the FBI’s actual processes are consistent with these
Stage One deficiencies.

      The critical processes necessary to establish an IT investment
foundation include: (1) defining investment review board operations,
(2) developing project-level investment control processes,
(3) identifying IT projects and systems, (4) identifying the business
needs for each IT project, and (5) developing a basic process for
selecting new IT proposals.

       We found that the FBI failed to implement these critical
processes. The FBI did not have a fully established investment review
board operation because the FBI did not provide adequate resources
for operating the IT investment boards. Additionally, we found
insufficient evidence to demonstrate that: (1) organization executives
and line managers supported and carried out IT investment board
decisions and (2) board members understood the investment board’s
policies and procedures and exhibited core competencies in using the
IT investment approach via training, education, or experience.
Specifically, the FBI did not provide ample time to adequately prepare
and train IT board members prior to initiating the pilot test of its
recently developed ITIM process. This resulted in inadequate training
of board members and minimal preparation time to develop IT
proposals. For example, Technical Review Board members had only
three business days to review over 50 IT proposals prior to their first
board meeting.

       Additionally, we found that the FBI is not effectively overseeing
its IT projects. For example, while the FBI has issued project
management guidance, the guidance is not being followed on a


                                   - vi -
consistent basis. Depending on whom we talked to, we obtained
different answers as to which document represented the FBI’s official
project management guidance.

      Without effective oversight of IT projects, FBI officials do not
have adequate assurance that IT projects are being developed on
schedule and within established budgets. According to a former Chief
Information Officer at the FBI, the lack of effective oversight of IT
projects has prevented IT project managers from being held
accountable for cost and schedule overruns and the ultimate
performance of projects. Senior FBI officials also told us that the
Bureau’s budget formulation process focuses only on the acquisition
costs for IT projects and not the full life-cycle costs, especially
operations and maintenance costs.

      We also found that the FBI’s investment review boards are not
aware of all the IT projects and resources for which the boards are
responsible. FBI Divisions maintained some version of an IT inventory
for the projects and systems under their jurisdiction, and there was no
centralized office responsible for maintaining a uniform listing Bureau-
wide. FBI managers told us they were in the process of developing an
IT asset inventory, but at the time of our audit they were unable to
provide an estimated date for completing the inventory.

      FBI personnel told us that staff shortages are the primary cause
for the incomplete IT asset inventory. In our judgment, staff
shortages may be a contributing factor, but the lack of centralized
management over IT investments was the significant reason for this
problem. Until June 2002, the FBI did not have a centralized project
management office to assist the investment boards in overseeing IT
projects. The FBI maintained three separate division-level project
management offices to manage IT projects.

      We also determined that the FBI did not have a fully established
process for selecting IT proposals. FBI officials told us that, prior to
March 2002, individual divisions determined IT needs in a “stovepipe,”
without knowledge of the business needs and priorities of the Bureau
as a whole. The FBI did not have a clearly designated official to
manage the proposal selection process. According to Information
Resources Management Section personnel, the Finance Division
managed the IT selection process. However, according to Finance
Division personnel, the Information Resources Management office was
responsible for managing the proposal selection process.



                                 - vii -
       Without a comprehensive proposal selection process that
includes adequate resources and training, the FBI cannot ensure that it
is selecting the best IT projects that meet mission-critical needs.

      Because the FBI did not fully implement any of the critical
processes associated with Stage Two, the FBI continues to spend
hundreds of millions of dollars on IT projects without having adequate
selection and project management controls in place to ensure that IT
projects will deliver their intended benefits.

       The FBI began pilot testing the select phase of its new ITIM
process in March 2002, and since then has made measurable progress
towards implementing the key practices that comprise the critical
processes – particularly in the area of selecting new proposals for IT
projects. Specifically, at the beginning of our audit in January 2002,
the FBI only was executing 4 of the 38 required key practices;
however, as of June 2002, the FBI was executing 14 of the key
practices.

      With the pilot testing of its new ITIM process, the FBI created an
IT investment process guide containing policies and procedures to
direct board operations, and created and defined three investment
review boards integrating both IT and business knowledge.
Additionally, the FBI has designated an official responsible for
managing the IT project and system identification process and
ensuring that the inventory meets the needs of the investment
management process. Further, during the test pilot of the ITIM
process, the board reviews of IT project proposals provided assurance
that business needs were clearly identified and defined. Also during
the test pilot, we determined that FBI IT investment board members
analyzed and prioritized new IT proposals according to established
selection criteria for the FY 2004 budget cycle.

       Despite the progress made, full implementation of the ITIM
process will require the FBI to (1) fully develop and document its new
ITIM process; (2) require more input and participation from IT
managers and users; and (3) further develop its project management
and enterprise architecture functions. Completion of the initial steps
taken by the FBI will ensure that IT projects are developed within cost
and schedule requirements, and meet performance expectations. The
Trilogy project provides an example of how the non-implementation of
fundamental IT investment management practices can put a project at
risk of not delivering what was promised, within cost and schedule
requirements.


                                 - viii -
4. Trilogy

        We also performed a case study of the FBI’s implementation of
its Trilogy project. We selected Trilogy because it is the FBI’s largest
ongoing IT project and is considered vital to the FBI’s ability to
perform its mission. Trilogy is intended to upgrade the FBI’s:
(1) hardware and software – referred to as the Information
Presentation Component (IPC), (2) communication networks – referred
to as the Transportation Network Component (TNC), and (3) five most
important investigative applications – referred to as the User
Applications Component (UAC). The IPC and TNC upgrades will
provide the physical infrastructure needed to run the applications from
the UAC portion. The UAC portion is intended to upgrade and
consolidate five of the FBI’s 42 investigative applications. Because of
the 37 other investigative applications and approximately 160 non-
investigative applications that Trilogy will not cover, Trilogy is only a
starting point towards upgrading the FBI’s entire IT infrastructure.
According to the FBI, Trilogy is not designed to provide the FBI with
state-of-the-art IT; it is intended to provide the foundation so that the
FBI can eventually attain state-of-the-art IT.

       In November 2000, Congress appropriated $100.7 million for the
first year of the $379.8 million Trilogy project, which was to be funded
over a three-year period (from the date contractors were hired). The
$100.7 million was a combination of new program funding and a
re-direction of base resources. When the FBI requested contractor
support for Trilogy, it combined the IPC and TNC portions for
continuity as both encompass physical IT infrastructure enhancements.
The contractor for the IPC/TNC portions was hired in May 2001, and
the originally scheduled completion date for these components was
May 2004. A different contractor was hired in June 2001 to complete
the UAC portion of Trilogy by June 2004.

      After the terrorist attacks on September 11, 2001, the urgency
of completing Trilogy increased, and the FBI explored options to
accelerate the deployment of all three components of Trilogy. The FBI
informed Congress in February 2002 that, with an additional
$70 million, the FBI could accelerate the deployment of Trilogy. This
acceleration would include completion of the IPC/TNC phase by
July 2002 and rapid deployment of the most critical analytical tools
included as part of the UAC phase.




                                  - ix -
      In January 2002, Congress supplemented Trilogy’s FY 2002
budget with $78 million4 to expedite the deployment of all three
components. This supplemental appropriation increased the total
funding of Trilogy from approximately $380 million to $458 million.

      Even with these additional funds, the FBI missed its July 2002
milestone date for completing the IPC and TNC phases. FBI officials
stated that they are not expecting these components of Trilogy to be
completed until March 2003. In addition, the user application
component of Trilogy, recognized by FBI officials as the most
important aspect of the project in terms of improving agent
performance, is at high risk of not being completed within the funding
levels appropriated by Congress. Further, despite receiving an
additional $78 million from Congress in January 2002, FBI managers
have acknowledged to us that the last phase of UAC will not be
completed any sooner than originally planned (in June 2004).

      In terms of a cost baseline, FBI officials told us that the rapid
procurement and deployment of Trilogy has prevented the project
managers from performing earned value management,5 as promised
to Congress. While FBI officials were confident they know how much
money has been spent on Trilogy to date, and how much funding has
been committed, they have less assurance as to whether Trilogy is on
budget, over budget, or under budget.

       A schedule baseline for Trilogy has never been well-established.
First, FBI officials said they would complete IPC/TNC deployment in
May 2004. Then, they said it could be finished in June 2003. Next,
they said it would be finished by December 2002. After receiving
$78 million of supplemental funding, they said it would be done by
July 2002. Then, they said they could not make the July 2002
deadline and moved it to October 2002. As of June 2002, FBI officials
have said deployment will probably not be complete until March 2003.
Also as of June 2002, the FBI was still in the process of building a
comprehensive schedule of Trilogy milestones.

      Regarding the technical requirements for Trilogy, we were told
that some aspects of Trilogy as submitted to Congress did not turn out
to be technically feasible. For example, FBI officials told us that the

       4
         The $78 million is comprised of the $70 million that FBI requested for
acceleration, plus $8 million for contractor support.
       5
        Earned value management is a project monitoring method that compares
the value of products and services received with funds that have been expended.


                                        -x-
thin-client strategy was not pursued because it was found that this
type of network could not be achieved given the technical
requirements of the FBI.6 Another example is web-enablement of the
Automated Case Support (ACS) system, which was also discontinued
when it was realized that it would require more resources than
anticipated.7 Had a more rigorous proposal selection process been in
place to require sufficient documentation of the technical requirements
and risks of the project, the expending of time and resources on thin-
client technology and web-enablement of ACS may have been
minimized.

       Another technical issue involves the development of the UAC
portion of Trilogy. Because the UAC portion is focused on making
significant changes to, or possibly complete replacements of, five of
the FBI’s investigative systems, documentation for the exact
configuration of these systems is critical to designing the requirements
for UAC. According to a senior FBI official, the FBI must know what it
has before it can define the right solution to fix the problem. Lack of
documentation for the configuration of these five investigative systems
has caused the FBI to engage in a process of reverse engineering,
which is trying to determine the structure and components of the
systems after deployment. Because the FBI has to perform reverse
engineering on the FBI’s five investigative systems, there are
limitations as to how rapidly UAC can be developed and deployed.

       Our observations at five FBI field offices indicated that
deployment of the IT physical infrastructure was still ongoing as of
June 2002. For two field offices, additional installation work remained
to be completed, and for four field offices hundreds of desktop
computers still remained to be delivered. A lack of clear
communication between FBI Headquarters and the field offices
contributed to the confusion over the number of desktop computers to
be delivered and shortages of fiber optic cable. Additionally contractor
maintenance support for the Trilogy architecture was inefficient,
resulting in agents being without computers for weeks at a time.
Improvements in agent and support personnel training, procurement
of trouble-shooting equipment for the Trilogy architecture, and timely


       6
          According to the FBI, a thin-client strategy would utilize application software
that is run from the server computer, and consequently permit desktop computers to
function with few hardware resources such as processors and memory.
       7
         Web-enablement refers to the ability of the software application to interface
with the Internet through a browser, thereby extending information access.


                                         - xi -
completion of FBI unique macros for Microsoft Word will enhance user
utilization of the Trilogy architecture.

      The new Trilogy project executive, hired in March 2002, has
taken a different approach to managing Trilogy. She has emphasized
the importance of having more structured oversight of the project.
She has been developing a comprehensive schedule for all three
components. Additionally, she has indicated that there are limitations
to how fast Trilogy can be deployed, without risking the security of the
system. In our judgment, while these actions taken since March 2002
represent positive changes to Trilogy’s project management function,
the project’s completion time, final cost, and ultimate performance
remain uncertain. Also, we concluded that for the Trilogy project
management function to be effective, it must include oversight from IT
investment review boards to provide much needed monitoring.

5. FBI’s IT Strategic Planning and Performance Measurement

       We also assessed the FBI’s IT strategic planning and
performance measurement. We found that the FBI’s strategic plan
does not include IT investment management goals and the FBI’s
strategic plan and performance plan are not consistent with the DOJ’s
annual performance plan. Also, as of the end of June 2002, the FBI
did not have a current strategic plan dedicated to IT. Instead,
individual FBI divisions had program plans that included the use of IT
within particular programs.

       This occurred because the FBI has not updated its strategic plan
since 1998, and its performance plan does not include the same
strategic objectives, goals, and strategies relating to IT as does the
DOJ's annual performance plan. We believe that the FBI will have
difficulty improving its IT investment management process without
incorporating it into the strategic plan. Additionally, without adequate
strategic planning and performance measurements, there is a
heightened risk that the FBI may not be appropriately allocating
resources to meet the DOJ’s strategic priorities.

       In our judgment, the FBI must change the division-specific IT
focus and implement a Bureau-wide IT strategic plan. The purpose of
the FBI’s ITIM process is to move away from the decentralized IT focus
to a centralized one. As a result, we recommend that the FBI update
its IT strategic plan and performance plans to (1) fully integrate these
plans with the FBI’s ITIM process; and (2) include those performance
goals and indicators defined in the DOJ’s IT Strategic Plan.


                                 - xii -
6. OIG Recommendations

      In this report, we make 30 recommendations that focus on
specific and immediate steps the FBI should take to help improve its IT
investment management. These recommendations include:

  •   Ensure that the FBI continues its efforts to establish a
      comprehensive enterprise architecture that is integrated with the
      ITIM process.

  •   Require the ITIM Program Office to plan for and allocate
      sufficient time for IT investment review board members and
      other ITIM users to execute assigned responsibilities
      competently.

  •   Ensure that members of IT investment boards and other ITIM
      users receive sufficient training to execute assigned
      responsibilities effectively.

  •   Ensure that official project management guidance is used for all
      FBI IT projects through management oversight from the IT
      investment review boards.

  •   Ensure that each IT project has a project management plan,
      approved by the IT investment review boards, that includes cost
      and schedule controls.

  •   Ensure that a complete IT asset inventory is developed, and
      information from the IT asset inventory is made available to, and
      used by, the IT investment review boards as necessary.

  •   Ensure that the FBI develops written policies and procedures for
      identifying the business needs (and the associated users) of each
      IT project.

  •   Ensure that identified users participate in project management
      throughout a project's life-cycle.

  •   Ensure that the policies and procedures of the ITIM process are
      expanded, documented, and made available to ITIM users.

  •   Ensure that the ITIM Program Office and the ITIM contractor
      incorporate the input from various ITIM users through


                                - xiii -
       working group sessions as the ITIM process is being further
       developed and refined.

   •   Ensure that the FBI develops and implements a specific plan
       detailing how and when it will integrate the ITIM process with a
       system development life-cycle methodology.

7. Conclusion

       The underlying practices we assessed are fundamental to any
project management endeavor. However, the FBI has not executed
the majority of these tasks to select and manage its IT resources. For
example, organizational policies were not clearly established to ensure
that critical IT investment policies endure. Additionally, there were no
clearly defined, uniform procedures for project management, tracking
project performance, and taking corrective actions as necessary. Prior
to the development of its ITIM process in early 2002, the FBI did not
give sufficient attention to IT investment management. Since the FBI
developed its ITIM process in early 2002, it has focused more
management attention in this area and has made progress towards
attaining a basic IT investment management foundation. Despite the
progress, the FBI did not fully implement any of the critical processes
necessary to build an IT investment foundation. As a result, the FBI
continues to spend hundreds of millions of dollars on IT projects
without having adequate selection and project management controls in
place to ensure that IT projects will deliver their intended benefits.




                                 - xiv -
                           TABLE OF CONTENTS

INTRODUCTION .............................................................................1
1.   Background ..........................................................................1
2.   The FBI’s Management of IT Infrastructure................................2
3.   Prior Reports on the FBI’s IT and DOJ Oversight of
     Components’ IT .....................................................................4
4.   The FBI’s Current IT Investment Efforts ....................................9
5.   Trilogy: The FBI’s Largest IT Investment................................ 10
6.   Framework for Assessing IT Investment Management ............... 12
7.   The DOJ’s ITIM Guidance ...................................................... 17
8.   The FBI’s Recent Efforts to Implement an ITIM Process ............. 18

OIG FINDINGS AND RECOMMENDATIONS ....................................... 22
1.   The FBI’s Management of IT Investments................................ 22

       A. The FBI’s Progress Toward Attaining a Basic IT
          Investment Management Foundation................................. 22

       B. The FBI’s Ability to Improve its IT Investment
          Practices ....................................................................... 60

       C. Trilogy Case Study .......................................................... 86

2.     The FBI’s IT Strategic Planning and Performance
       Measurement .................................................................... 114

       A. Background on Strategic Planning ................................... 114

       B. Strategic Planning’s Relationship to the ITIM Process......... 116

       C. Results of our Assessment of the FBI’s IT Strategic
          Planning and Performance Measurement.......................... 117

       D. Summary .................................................................... 118

       E.   Recommendation ......................................................... 118

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ........ 119

STATEMENT ON MANAGEMENT CONTROLS .................................... 120

APPENDIX 1: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 121
APPENDIX 2: FLOWCHART OF FBI’S ITIM CONTROL PHASE ............. 125

APPENDIX 3: FLOWCHART OF FBI’S ITIM EVALUATE PHASE ............ 126

APPENDIX 4: JMD’S ASSESSMENT OF THE FBI’S ITIM
            PROCESS ............................................................. 127

APPENDIX 5: GAO’S FIVE STAGES OF ENTERPRISE
            ARCHITECTURE MATURITY...................................... 133

APPENDIX 6: FBI’S ENTERPRISE ARCHITECTURE MATURITY
            SURVEY ............................................................... 135

APPENDIX 7: FBI’S RESPONSE TO THE DRAFT REPORT .................. 136

APPENDIX 8: OIG, AUDIT DIVISION ANALYSES AND
            SUMMARY OF ACTIONS NECESSARY TO
            TO CLOSE REPORT ................................................ 153
                               INTRODUCTION

1. Background

      The Federal Bureau of Investigation (FBI or Bureau) is the
principal investigative arm of the Department of Justice (DOJ). To
execute its responsibilities, the FBI’s Headquarters in Washington, D.C.
provides program direction and support services to 56 field offices,
approximately 400 satellite offices known as resident agencies and
more than 40 foreign liaison posts.

      As of June 2002, the FBI had over 11,000 Special Agents and
over 16,000 other employees who performed professional,
administrative, technical, clerical, craft, trade, or maintenance
operations. The FBI’s budget authority increased 31 percent from
$3.339 billion in FY 2001 to nearly $4.371 billion in FY 2002.8 Of this
budget authority, $714 million was allocated to information technology
(IT) projects in FY 2002 compared to $353 million in FY 2001.

      The terrorist attacks of September 11, 2001, prompted the
Attorney General to make counterterrorism the DOJ’s highest priority.
The DOJ reflected these new priorities in its Strategic Plan for Fiscal
Years 2001 – 2006, which was issued in November 2001. In the
Strategic Plan, the Attorney General recognized that the fight against
terrorism requires the DOJ “to improve the integrity and security of its
computer systems and make more effective use of information
technology.”

       In response to the DOJ’s new priorities following September 11,
2001, the FBI proposed fundamental changes in its strategic priorities
and business practices. In May 2002, the Director of the FBI
announced a major reorganization that dedicates more resources to
the prevention of terrorism.9 Although the core missions of the FBI
remain intact, the proposed changes would transform the Bureau’s
role from reactive to preventive. To accomplish this transition, FBI
officials have repeatedly told Congress that new and improved IT is
required to support a redesigned and refocused FBI. In testimony

      8
         These figures were taken from the DOJ’s website (www.usdoj.gov). They
include a $745 million Counterterrorism Supplemental for FY 2002 and exclude
Federal Retiree and Health Benefit Costs.
      9
          This reorganization was approved by Congress on July 31, 2002.



                                        -1-
before the Senate Judiciary Committee on June 6, 2002, the Director
released the FBI’s top ten priorities in the post-September 11 era, with
the number one priority being protecting the United States from
terrorist attacks. Number ten on the list of priorities is upgrading
technology to successfully perform the FBI’s mission. Clearly, the
FBI’s future ability to prevent terrorism and other crimes depends on
modern information technology and effective management of
technology.

2. The FBI’s Management of IT Infrastructure

      The FBI has three divisions that manage major IT projects: the
Information Resources Division (IRD), the Criminal Justice Information
Services Division (CJIS), and the Laboratory Division. As discussed
below, the FBI is attempting to centralize the management of IT,
rather than manage IT within divisions.

       The IRD provides the day-to-day support services to manage the
information systems of the FBI. The IRD’s responsibilities include
management of all hardware, software, and IT peripheral equipment
located at the FBI’s Headquarters, field offices, and other offsite
locations.

       The IRD has been restructured in recent years to increase the
oversight and jurisdiction of the Chief Information Officer. Until
November 2001, the Chief Information Officer of the FBI was the
Assistant Director of IRD who reported to the Director. However, to
give the Chief Information Officer greater authority over the entire
FBI, the Chief Information Officer was moved out of IRD and into the
Director’s office, pursuant to a restructuring approved by Congress on
November 30, 2001. Additionally, to support the Chief Information
Officer, the Information Resources Management Section10 was moved
out of IRD and into the Chief Information Officer’s office, following
another restructuring in February 2002. Also, in February 2002, the IT
Investment Management Program Office was formed (within the
Information Resources Management Section) and was staffed with one
individual whose responsibility was to manage the FBI’s IT investment
management program. Based on these actions, the FBI recognizes
that centralizing the management of IT requires a Chief Information
Officer to have Bureau-wide oversight and jurisdiction, rather than be
isolated within a division.

      10
        The Information Resources Management Section is responsible for
managing IT investments and enterprise architecture.


                                     -2-
      The CJIS Division uses several significant IT systems to manage
and disseminate relevant criminal justice information to the FBI and
other law enforcement agencies. For example, the
National Crime Information Center 2000 is a nationwide information
system that supports federal, state, and local law enforcement
agencies. Additionally, the CJIS Division is responsible for managing
the Integrated Automated Fingerprint Identification System and the
National Incident-Based Reporting System. To support the
management of these systems, the CJIS Division maintains a
Contract Administration Office, which provides quality assurance,
configuration management, and project management support services
necessary to manage these and other systems under its jurisdiction.

      The Laboratory Division manages several forensic computer
systems that provide forensic and technical services to law
enforcement agencies. A significant system includes the Combined
DNA Index System (CODIS), which provides software and support
services to state and local laboratories to establish databases of
criminals, unsolved crime scenes, and missing persons. A component
of CODIS, the National DNA Index System, shares DNA profiles from
convicted offenders and crime scenes to laboratories throughout the
United States. To manage these systems, the Laboratory Division
maintains its own project management office.

      The FBI has recognized that its IT infrastructure was significantly
outdated and did not effectively support user needs. Although recent
upgrades have changed these numbers, as of September 2000, over
13,000 desktop computers were 4 to 8 years old and could not run
basic software packages, some communication networks were up to
12 years old and were obsolete, and multiple user-applications existed
that were neither web-enabled11 nor user-friendly.12 On June 6, 2002,
the Director stated to the Senate Judiciary Committee:

       You’ve heard me talk about the necessity for upgrading our
       technology. And upgrading our technology means not just
       getting the computers on board, the hard drives. It means
       everybody from top to bottom becoming facile with the

       11
          Web-enablement refers to the ability of the software application to interface
with the Internet through a browser, thereby extending information access.
       12
          According to FBI officials, the FBI acknowledged these needs to Congress in
the late 1990s, in addition to the technology upgrade plan prepared in September
2000.



                                        -3-
       computer, understanding the computer and understanding
       how technology can assist us to do our jobs better. And
       that is somewhat of a transformation for an organization
       such as the FBI, which is years behind where it should be,
       in terms of having the technological infrastructure.

3. Prior Reports on the FBI’s IT and DOJ Oversight of
   Components’ IT

      Reports issued by the Office of the Inspector General (OIG) over
the past 12 years have highlighted many IT inefficiencies at the FBI.
In 1990, the OIG issued a report entitled, “The FBI’s Automatic Data
Processing General Controls.” This report found
11 major internal control weaknesses, many of which are still
applicable today. Specifically the report stated that:

   •   the FBI’s phased implementation of its 10-year Long Range
       Automation Strategy, scheduled for completion in 1990, was
       severely behind schedule and may not be accomplished;

   •   the FBI’s Information Resources Management program was
       fragmented and ineffective, and the FBI’s Information Resources
       Management official did not have effective organization-wide
       authority;

   •   the FBI had not developed and implemented a data architecture;

   •   the FBI had not adequately involved top management in FBI
       Headquarters or the field offices in systems development
       through an Executive Review Committee; and

   •   the FBI’s major mainframe investigative systems were labor
       intensive, complex, untimely, and non-user friendly and few
       Special Agents used these systems.

      Regarding the first weakness, the FBI’s IT infrastructure is still
severely outdated, as we previously mentioned. Regarding the second
weakness, the FBI has recently restructured the IRD and Information
Resources Management Section to reduce the fragmented
management structure that existed among the three divisions
responsible for managing IT. Regarding the third weakness, as
discussed later in the report, the FBI is still developing an enterprise
architecture framework, which includes the technical or data
architecture. Regarding the fourth weakness, as discussed later in the


                                  -4-
report, the FBI did not have formally established IT investment review
boards or committees until March 2002. Regarding the fifth weakness,
the FBI’s major investigative systems remain labor intensive, complex,
non-user friendly, and many Special Agents still do not use these
systems.

      The OIG’s July 1999 special report on the handling of intelligence
information related to the DOJ’s campaign finance task force13 stated
that FBI personnel were not well versed in the Automated Case
Support (ACS) system14 and other databases. Additionally, a
November 1999 report on the death of a federal inmate, Kenneth
Michael Trentadue, noted deficiencies in uploading key evidence into
the ACS.

       A March 2002 report entitled, “An Investigation of the Belated
Production of Documents in the Oklahoma City Bombing Case,”
analyzed the causes for the belated production of many documents in
the Oklahoma City bombing case. This report concluded that the ACS
system is extraordinarily difficult to use, has significant deficiencies,
and is not the vehicle for moving the FBI into the 21st century. The
report noted that inefficiencies and complexities with the ACS
combined with the lack of a true information management system
were contributing factors in the FBI’s failure to provide hundreds of
investigative documents to the defendants in the Oklahoma City
Bombing Case. These reports illustrate that the FBI has not given
sufficient attention to correcting its deficiencies in information
management and the ACS.

       In May 2002, pursuant to the FY 2002 Government Information
Security Reform Act, the OIG issued a report on the FBI’s
administrative and investigative mainframe systems. This report
identified continued vulnerabilities with management, operational, and
technical controls. Significant vulnerabilities were noted in the
following areas:




      13
       The report, “Handling of FBI Intelligence Information Related to the Justice
Department’s Campaign Finance Investigation,” was issued in July 1999.
       14
         The ACS is the FBI’s primary investigative computer application that
uploads and stores case files electronically.



                                       -5-
   •   security policies, procedures, standards, and guidelines;

   •   physical controls;

   •   system and network backup and restoration controls;

   •   password management;

   •   logon management;

   •   account integrity management;

   •   system auditing management; and

   •   system patches.

       The report stated that these vulnerabilities occurred because the
DOJ and FBI security management had not enforced compliance with
existing security policies, developed a complete set of policies to
effectively secure the administrative and investigative mainframes, or
held FBI personnel responsible for timely correction of recurring
findings. Further, the report indicated that FBI management has been
slow to correct identified weaknesses and implement corrective action.
Therefore, many of these deficiencies repeat year after year in
subsequent audits.

      In March 2002, the Commission for the Review of FBI Security
Programs issued a report titled, “A Review of FBI Security Programs.”
This Commission, chaired by former FBI Director William H. Webster,
was established to investigate the espionage of a FBI Supervisory
Special Agent, Robert Hanssen.15 The report identified a wide range of
problems affecting the FBI’s computer systems and information
security policies, including the following:

   •   Classified information had been moved into systems not
       properly accredited for its protection.




       15
           According to the report, over a period of 22 years, Robert Hanssen gave
the Soviet Union and Russia vast quantities of documents and computer diskettes
filled with national security information of incalculable value.



                                        -6-
   •   Until recently, the FBI had not begun to certify and accredit most
       of its computer systems, including many classified systems.

   •   Inadequate physical protections placed electronically stored
       information at risk of compromise.

   •   The FBI’s approach to system design has been deficient. It has
       failed to ascertain the security requirements of the “owners” of
       information on its systems and identify the threats and
       vulnerabilities that must be countered.

   •   Classified information stored on some of the FBI’s most widely
       utilized systems was not adequately protected because computer
       users lacked sufficient guidance about critical security features.

   •   Some FBI inspectors had insufficient resources to perform
       required audits. When audits were performed, audit logs
       were reviewed sporadically, if at all.

According to the report, these findings resulted from the FBI’s lack of
attention to IT security in developing and managing computer
systems.16

      Additionally, the General Accounting Office (GAO) has issued
several reports and related testimony that highlight deficiencies with
the FBI’s IT. In June 2002, the Comptroller General provided the
following testimony before a subcommittee of the United States House
of Representatives Appropriations Committee:

       Communications has been a longstanding problem for the
       FBI. This problem has included antiquated computer
       hardware and software, including the lack of a fully
       functional e-mail system. These deficiencies serve to
       significantly hamper the FBI’s ability to share important
       and time sensitive information with the rest of the FBI
       across other intelligence and law enforcement agencies.
       We [the GAO] do not believe the FBI will be able to
       successfully change its mission and effectively transform
       itself without significantly upgrading its communications



       16
         Although the focus of our audit does not assess the FBI’s IT security
practices, the two prior reports mentioned above indicate that the FBI’s effective use
of IT must address information assurance as part of an overall IT governance model.


                                        -7-
      and information technology capabilities. This is critical,
      and it will take time and money to successfully address.17

      In a review of the DOJ’s Campaign Finance Task Force, the GAO
reported in May 2002 that the FBI lacked an adequate information
system that could manage and interrelate the evidence that had been
gathered in relation to the Task Force’s investigations.18 Also, as part
of a government-wide assessment of federal agencies, the GAO
reported in February 2002 that the FBI needed to fully establish the
management foundation that is necessary to successfully develop,
implement, and maintain an enterprise architecture.19

      The deficiencies in IT management are not solely attributable to
the FBI itself, but are also attributable in part to DOJ actions. In
December 2000, the GAO issued a report on the Immigration and
Naturalization Service’s (INS) investment management capability.20
This report stated that the DOJ was not guiding and overseeing the
INS’s IT investment management (ITIM) approach. The report
highlighted the DOJ’s responsibility, as required by the Clinger-Cohen
Act of 1996, to ensure that its components implement an effective
ITIM process. According to the report, the DOJ had not provided the
INS, or any other component, sufficient direction, guidance, and
oversight of ITIM activities. Further, the report stated:

      While Justice [the Department of Justice] issued guidance
      in January 2000 describing its high-level investment
      management process, the guidance does not address the
      need or requirements for Justice’s components to
      implement an IT investment management process.
      Specifically, this guidance does not instruct the
      components to establish IT investment management
      processes nor does it establish expectations for doing so.
      Until Justice issues its policy and guidance and begins
      monitoring its components’ progress, it has no assurance

      17
         This testimony, titled “FBI REORGANIZATION: Initial Steps Encouraging
but Broad Transformation Needed” (GAO-02-865T), was released on June 21, 2002.
      18
         This report, titled “CAMPAIGN FINANCE TASK FORCE: Problems and
Disagreements Initially Hampered Justice’s Investigation” (GAO/GGD-00-101BR),
was released on May 31, 2000.
      19
           This GAO report is discussed later in this report.
      20
       “INFORMATON TECHNOLOGY: INS Needs to Strengthen Its Investment
Management Capability” (GAO-01-146) was issued by the GAO in December 2000.


                                          -8-
      that it has the necessary investment management
      processes in place to maximize the value of its IT
      investments and manage the risks associated with the
      investments.

       The DOJ issued ITIM guidance in August 2001 and required the
components to develop an ITIM process by January 2002. This
guidance, and the FBI’s ITIM process, are further discussed later in
this introduction.

4. The FBI’s Current IT Investment Efforts

      In a statement before the House Subcommittee on
Appropriations in March 2002, FBI Director Mueller stated: “Without
question, we all believe [information infrastructure] is the number one
problem confronting the FBI today, recognize that for a number of
reasons the situation developed over time, and know that in the future
a better approach to technology upgrades must be used.”

       In the FBI Information Technology Upgrade Plan (FITUP),
prepared and submitted to Congress in September 2000, the Bureau
stated that a lack of funding was the cause for not making meaningful
upgrades to its IT infrastructure since 1994. Congress responded to
this concern by appropriating a total of approximately $2.2 billion for
FBI IT projects and systems for FYs 1997 to 2002.21 The FBI received
$335.6 million of this amount in January 2002 from the Emergency
Supplemental Appropriations Act for information technology. The
following table summarizes the funds appropriated for FBI IT
investments since FY 1997.




      21
         This appropriation includes operation and maintenance costs of existing IT
systems, enhancements to existing IT systems, and funding for new IT projects. The
appropriation also includes personnel costs for managing the IT projects and
systems.


                                      -9-
   Funds Appropriated for FBI IT Investments Since FY 1997


                                       Total IT Investments
                    Fiscal Year            (in millions)
                         2002                     $714.0
                         2001                     $352.8
                         2000                     $293.0
                         1999                     $332.0
                         1998                     $241.2
                         1997                     $309.2
                        Total                   $2,242.2

                     Source: Exhibit 53s22 prepared by the FBI

      The FBI has several critical initiatives underway to upgrade its
infrastructure and investigation applications. Additionally, the FBI has
undertaken a major hiring initiative to recruit private sector IT experts
who can assist in designing and managing the sizable IT projects
recently funded by Congress. For example, the FBI’s last two Chief
Information Officers were hired from the private sector. Also, in
March 2002, the FBI announced the hiring of a project executive from
the private sector to manage Trilogy. Further, in June 2002, the FBI
announced the hiring of an executive from the private sector to
become the new Executive Assistant Director for Administration.

5. Trilogy: The FBI’s Largest IT Investment

      Currently, the FBI’s largest IT project designed to improve IT
infrastructure and office automation is the Trilogy project, formerly
known as the FITUP. In September 2000, the FITUP was established
to enhance the investigative support for FBI agents. The FITUP noted
the following IT needs:




       22
           The Exhibit 53 for each fiscal year lists funds appropriated for major IT
projects. The FBI prepares the Exhibit 53 and submits it to the DOJ, which submits
it to the Office of Management and Budget (OMB). Total IT investments include
operation and maintenance costs of existing IT systems, enhancements to existing IT
systems, and funding for new IT projects. These investment costs also include
personnel costs associated with managing IT projects and systems.


                                      - 10 -
   •   getting all case files into electronic databases (since the ACS is
       not consistently used);

   •   making IT more user friendly for agents;

   •   providing access to all databases via one search engine; and

   •   providing reliable, high-speed flexible communications.

      To address the above needs, the FITUP, renamed to Trilogy, is
intended to upgrade the FBI’s: (1) hardware and software – referred
to as the Information Presentation Component (IPC),
(2) communication networks – referred to as the Transportation
Network Component (TNC), and (3) five most important investigative
applications – referred to as the User Applications Component (UAC).
The IPC and TNC upgrades will provide the physical infrastructure
needed to run the applications from the UAC portion of Trilogy. The
UAC portion is intended to upgrade and consolidate five of the FBI’s
42 investigative applications. Because there are 37 other investigative
applications and approximately 160 non-investigative applications that
Trilogy will not address, Trilogy is only a starting point towards
upgrading the FBI’s entire IT infrastructure.

       In November 2000, Congress appropriated $100.7 million for the
first year of the $379.8 million Trilogy project, which was to be funded
over a three-year period (from the date contractors were hired). The
$100.7 million was a combination of new program funding and a
re-direction of base resources. The FBI combined the IPC and TNC
portions for continuity when it requested contractor support, since
both encompass physical IT infrastructure enhancements. The
contractor for the IPC/TNC portions was hired in May 2001. As a
result, the originally scheduled completion date for these initiatives
was May 2004. A separate contractor was hired in June 2001 to
complete the UAC portion of Trilogy by June 2004.

      After the terrorist attacks on September 11, 2001, the
importance of giving FBI agents and analysts the technological tools
necessary to perform their duties was heightened in the eyes of
Congress, the Attorney General, and the Director. Because the goal of
Trilogy is to address many of the technological needs of the FBI,
successful completion of the project in the shortest amount of time
possible was viewed as increasingly critical to the FBI’s fight against
terrorism. Rather than wait three years for the benefits of Trilogy,
Congress fully funded the FBI’s original request of $379.8 million and


                                   - 11 -
provided an additional $78 million in January 2002 to speed up its
deployment.23 With the supplemental funding, the FBI indicated to
Congress that it would complete the deployment of hardware
(including new desktop computers), networks, and software by
July 2002. Additionally, the FBI would seek to accelerate upgrades to
the five user applications. However, as discussed later in this report,
the FBI did not meet its July 2002 milestone and is not expecting to
complete the deployment of hardware, software, and networks until
March 2003.

       Although we believe the FBI must have sufficient resources to
upgrade its technology through Trilogy and other projects, it must also
have the management processes in place to effectively utilize those
resources. With the recent influx of funding to the FBI, Congress
expects the FBI to make significant strides in upgrading its IT
infrastructure. But we believe the FBI will be successful in doing so
only if it has effective IT management control processes in place.
Later in this report, we provide an assessment of the FBI’s
management of Trilogy.

6. Framework for Assessing IT Investment Management

      Several recent management reforms have required federal
agencies to improve their management processes for selecting and
managing IT investments. In particular, the Clinger-Cohen Act of
1996 requires the head of each agency to implement a process for
maximizing the value of the agency's IT investments and for assessing
and managing the risks of its acquisitions. A key goal of the
Clinger-Cohen Act is for agencies to have processes in place to ensure
that IT projects are being implemented at acceptable costs and within
reasonable time frames, and that the projects are contributing to
tangible, observable improvements in mission performance.

      The Clinger-Cohen Act defines requirements for capital planning
and control of IT investments and mandates a select/control/evaluate
approach that federal agencies must follow. The following graphic
describes the fundamental phases of this IT investment approach.




      23
        The $78 million was part of the $745 million received from the Emergency
Supplemental Appropriations Act.


                                     - 12 -
       Fundamental Phases of the IT Investment Approach



               ?
       How do you know
       you have selected
       the best projects?               Select • Screen
                                               • Rank
                                        Phase • Select
                                                                         ?
                                                                    How are you
                      Evaluate                                      ensuring
                      Phase                               Control   that projects
                                                                     deliver
                            • Conduct       DATA          Phase     benefits?
                              reviews
                                                      • Monitor
                            • Make adjustments
                                                      progress
                            • Apply lessons
                                                      • Take
             ?                learned
                                                      corrective
       Are the systems                                  actions
       delivering what
       you expected?



      Source: GAO



      According to a GAO report, while almost all federal agencies
have created some type of IT investment management process, none
has implemented stable processes that address all three phases of the
select/control/evaluate approach.24 One barrier to implementing
stable IT investment processes has been the lack of specific guidance
regarding what processes are required to build a stable, reliable IT
investment management organization. The select/control/evaluate
approach provides sound advice, but it does not provide a
comprehensive discussion of the organizational processes involved.

      To address this concern, in May 2000 the GAO developed the
IT Investment Management Framework (Framework) to provide a
common methodology for discussing and assessing IT capital planning
and investment management practices at federal agencies. The
Framework enhances previous federal IT investment management
guidance by embedding the select/control/evaluate approach within a
framework that explicitly describes the organizational processes
required to carry out good IT investment management.


      24
        “Information Technology Investment Management: An Overview of GAO’s
Assessment Framework” (GAO/AIMD-00-155) was issued in May 2000.


                                             - 13 -
      The Framework, based on best practices of leading
organizations, is a hierarchical model comprising of five maturity
stages. These maturity stages represent steps toward achieving stable
and mature investment management processes. Each stage builds
upon the lower stages and enhances the organization's ability to
manage its investments. As agencies advance through these stages,
the agencies’ capability to effectively manage IT increases. The
following graphic describes the five maturity stages of the Framework.

             The Five Maturity Stages of the ITIM Framework
                          Maturity Stages
  Enterprise                                                           Description
 and Strategic
    Focus                          Stage 5
                                                      Investment benchmarking and IT-enabled
                            Leveraging IT for         change management techniques are deployed
                           Strategic Outcomes         to strategically shape business outcomes.

                                 Stage 4
                                                      Process evaluation techniques focus on
                           Improving the              improving the performance and management
                        Investment Process            of the organization's IT investment portfolio.

                            Stage 3                   Comprehensive IT investment portfolio selection
                                                      and control techniques are in place that
                     Developing a Complete            incorporate benefit and risk criteria linked to
                      Investment Portfolio            mission goals and strategies.

                          Stage 2                     Repeatable investment control techniques are in
                        Building the                  place and the key foundation capabilities have
                                                      been implemented.
                   Investment Foundation

                       Stage 1                        There is little awareness of investment
                                                      management techniques. IT management
  Project-       Creating Investment
                                                      processes are ad hoc, project-centric, and
  Centric            Awareness                        have widely variable outcomes.



        Source: GAO

       With the exception of the first stage, each maturity stage is
composed of critical processes that must be implemented and
institutionalized for the organization to satisfy the requirements of that
stage. These critical processes are further broken down into key
practices that describe the types of activities that an agency should be
engaged in to successfully implement each critical process. An
organization that has these critical processes in place is in a better
position to successfully invest in IT. The following graphic describes
the Framework’s five stages and associated critical processes.




                                             - 14 -
      The ITIM Framework’s Stages of Maturity with Critical
                         Processes

      M aturity S tages
                                              C ritical Processes
               Stage 5
            Leveraging IT      z   Investm ent P rocess B enchm arking
             for Strategic     z   IT-D riven S trategic B usiness C hange
              O utcom es
              Stage 4          z   P ost-Im plem entation R eview s and Feedback
           Im proving the      z   Portfolio P erform ance E valuation and Im provem ent
                               z   S ystem s and Technology Succession M anagem ent
            Investm ent
              Process
                               z   A uthority A lignm ent of IT Investm ent B oards
             Stage 3           z   Portfolio S election C riteria D efinition
           D eveloping         z   Investm ent A nalysis
           a C om plete        z   P ortfolio D evelopm ent
       Investm ent Portfolio   z   P ortfolio P erform ance O versight
          Stage 2
        Building the           z   IT Investm ent B oard O peration
        Investm ent            z   IT Project O versight
        Foundation             z   IT A sset Tracking
                               z   B usiness N eeds Identification for IT P rojects
        Stage 1                z   P roposal S election
       C reating
      Investm ent                  IT Spending w ithout D isciplined Investm ent
      Aw areness                   Processes

      Source: GAO

       As established by the Framework, each critical process contains
five core elements that indicate whether the implementation and
institutionalization of a process can be effective and repeated. The
five core elements are:

  •   Purpose: This element is the primary reason for engaging in
      the critical process and states the desired outcome for the
      critical process.

  •   Organizational commitment: This element comprises
      management actions that ensure that the critical process is
      established and will endure. Key practices typically involve
      establishing organizational policies and engaging senior
      management sponsorship.

  •   Prerequisites: These elements are the conditions that must
      exist within an organization to successfully implement a critical
      process. These conditions typically involve allocating resources,
      establishing organizational structures, and providing training.



                                       - 15 -
  •   Activities: These elements are the key practices necessary to
      implement a critical process. An activity occurs over time and
      has recognizable results. Key practices typically involve
      establishing procedures, performing and tracking the work, and
      taking corrective actions as necessary.

  •   Evidence of performance: This element comprises artifacts,
      documents, or other evidence that supports a contention that
      the key practices within a critical process have been or are being
      implemented. This core element typically consists of the
      collection and verification of physical, documentary, or
      testimonial evidence and often involves reviews by objective
      parties.

      With the exception of the “purpose” core element, each of the
other core elements contains key practices. The key practices are the
attributes and activities that contribute most to the effective
implementation and institutionalization of a critical process. The
following graphic summarizes the interrelationships of components in
an ITIM critical process.




                                 - 16 -
                     Components of an ITIM Critical Process


                                  Purpose
                                  This is the primary reason for engaging in the critical process
                                  and states the desired outcome for the critical process.




  Prerequisites                             Activities                                     Evidence of
  These are the conditions that must        These are the key practices                    Performance
  exist within an organization to           necessary to implement a critical              These are artifacts, documents, or
  successfully implement a critical         process. An activity occurs over time          other evidence that support a
  process. This core element                and has recognizable results. Key              contention that the key practices
  typically involves allocating             practices within this core element             within a critical process have or are
  resources, establishing                   typically involve establishing                 being implemented. This core
  organizational structures, and            procedures, performing and tracking            element typically consists of the
  providing training.                       the work, and taking corrective                collection and verification of
                                            actions as necessary.                          physical, documentary, or
                                                                                           testimonial evidence and typically
                                                                                           involves reviews by objective
                                                                                           parties.



                                Organizational Commitment
                                These are management actions that ensure that the critical
                                process is established and will endure. Key practices within
                                this core element typically involve establishing
                                organizational policies and engaging senior management
                                sponsorship.




       Source: GAO

7. The DOJ’s ITIM Guidance

      In August 2001, the DOJ’s Justice Management Division (JMD)
issued the Guide to the Department of Justice Information Technology
Investment Management Process (Guide). In response to various
regulations and guidelines issued in the last several years (including
the Clinger-Cohen Act, Executive Order 13011, and the
Office of Management and Budget (OMB) Circular A-130), the DOJ
issued the Guide to fulfill its obligation and responsibility to make
measurable improvements in mission performance and service delivery
to the public through the strategic application of IT.

      The Guide uses the select/control/evaluate methodology to
implement the strategic and performance directives of the
Clinger-Cohen Act and other statutory provisions affecting IT
investments. The Guide is intended to promote a process that builds
on existing structures to provide maximum benefit across the entire
DOJ and with other federal agencies. This process allows the DOJ to
focus IT management on the strategic missions of the DOJ. Further, it


                                                         - 17 -
promotes an investment review process that drives budget formulation
and execution for information systems, and restructures the way the
DOJ performs its functions before investing in IT. In addition, this
process provides the methods, structures, disciplines, and
management framework that govern the way IT is deployed
throughout the DOJ. The Guide applies to all IT projects from all DOJ
components.

       The Guide requires each component to:

   •   designate a component Chief Information Officer consistent with
       the DOJ’s ITIM policy;

   •   establish an Executive Review Board that will approve the entire
       component IT portfolio and oversee the decisions made about
       specific investments; and

   •   establish a component ITIM process that incorporates the DOJ’s
       ITIM process, but is customized to function within the
       component’s unique environment.

     Further, by January 2002 each component was required to
submit to the DOJ an ITIM plan incorporating the above stipulations.

8. The FBI’s Recent Efforts to Implement an ITIM Process

      In an effort to improve its IT investment management practices
and comply with DOJ and other statutory regulations, the FBI
developed the “ITIM Model and Transition Plan” (Plan) with support
from a contractor. The initial draft of the Plan was completed and
submitted to JMD in January 2002. The FBI has retained this
contractor to assist in the ongoing implementation of the ITIM process.
The FBI estimates total costs for developing its ITIM process will be in
excess of $4 million through FY 2003.

      The purpose of the Plan is to establish and define the FBI’s
Stage Two25 methodology and build the foundation for enhanced IT
investment management. It identifies the gaps between the FBI’s
current IT investment processes and the required IT management
practices for Stage Two maturity.


       25
        “Stage Two” refers to Stage Two of the Framework, Building the IT
Investment Foundation.



                                     - 18 -
      The following excerpts from the FBI’s Plan provide an overview
of how the FBI’s select, control, and evaluate processes for IT
investment management are intended to operate upon
implementation.26

       Select

       In the Select phase, potential projects will be initiated by
       the project sponsor via the development of a preliminary
       feasibility analysis (concept paper), followed by the
       development of a more-robust business case analyses
       (OMB Exhibit 300). The project proposal package will be
       submitted to the Technical Review Board27 to be assessed
       for any technical risks and then submitted to the Project
       Oversight Committee28 for a business review. The Project
       Oversight Committee will assemble the multiple requests
       and prioritize these requests against predefined selection
       criteria. A “candidate” fiscal project portfolio will then be
       developed and presented to the Executive Review Board29
       for final evaluation and approval, and ultimately for
       submission to the fiscal budget process.

       Control

       In the Control phase, the current fiscal year IT portfolio
       will be tracked by the functional project management
       office and individual project teams. Monthly status reports
       will be created and presented to the Project Oversight
       Committee, who will work to mitigate any project related
       risks. Projects with exceptions to the baseline plans will be
       subsequently presented to the Executive Review Board for

       26
         See Appendices 2 and 3, respectively, for flowcharts on the Plan’s control
and evaluate processes.
       27
          According to the Plan, the Technical Review Board must be established to
review each proposed ITIM initiative for enterprise architecture compliance, IT
security compliance, and other technical risks.
       28
         According to the Plan, the Project Oversight Committee must be established
to perform the program management and oversight duties of the ITIM process, such
as making recommendations to the Executive Review Board on selecting IT proposals
and disposing of IT projects.
       29
        According to the Plan, the Executive Review Board must be established to
make the final IT investment decisions.


                                       - 19 -
       decisions about budget, scope, timeline and/or projected
       outcomes. During the control phase, a project will be able
       to receive approval to: proceed “as is,” proceed with
       modified funding levels and/or modified functionality, or be
       terminated.

       Evaluate

       In the Evaluate phase, IT investments that are in the
       operations and maintenance mode will be monitored by
       the Executive Review Board to ensure that expected
       benefits are being realized. Periodic program reviews will
       be conducted, wherein each IT investment will be
       evaluated against predefined performance metrics and
       criteria. Based on the reviews, decisions will be made
       about: future phases of existing projects; and the current
       policies and procedures governing the entire IT investment
       management, the systems development life-cycle, and
       other related processes. Advocacy arguments (to modify
       existing management practices and procedures) are also
       constructed during this phase, if applicable.

       JMD officially approved the FBI’s Plan in May 2002, although
officials from the IRD told us that in February 2002 they received
verbal approval to initiate their ITIM process.30 The May 2002
approval letter states that the FBI ITIM process conforms to the
guidelines defined by the GAO, OMB, and DOJ. Further, it states that
the Plan is clear and comprehensive in its statement of the ITIM policy
and its definition of organizational roles, responsibilities, and
deliverables. Additional JMD comments, as well as our own
independent assessment of the Plan, are discussed later in this report.

      The FBI started its ITIM process in February 2002 by appointing
the three oversight review boards discussed above (the Technical
Review Board, the Project Oversight Committee, and the Executive
Review Board). Also, in February 2002 the FBI held training seminars
for each division to introduce the concepts of the Plan. In March 2002,
the FBI began pilot testing the select phase of the Plan for FY 2004
proposed IT project enhancements. In May 2002, the pilot test of the


       30
         JMD officials told us that the delay in providing written approval of the FBI’s
ITIM process was because JMD did not have a Chief Information Officer early in
2002.



                                        - 20 -
select phase was completed and the ITIM contractor issued the, “Post
Implementation Review: FBI ITIM Pilot.”

      The Plan recognizes that as the FBI’s ITIM process moves
through the maturity stages, other key components of IT
infrastructure must evolve to optimize the IT investment function.
These components include an IT strategic plan, an enterprise
architecture framework, and project management. According to the
Framework, an effective IT function will include these components and
mature IT investment management processes are dependent on the
components being in place.




                                - 21 -
        OIG FINDINGS AND RECOMMENDATIONS

1. The FBI’s Management of IT Investments

     The FBI is not effectively selecting, controlling, and
     evaluating its IT investments because it has not fully
     implemented any of the critical processes necessary for
     successful IT investment management. In the past, the
     FBI has not given sufficient attention to information
     technology investment management. As a result, the FBI
     continues to spend hundreds of millions of dollars on IT
     projects without having adequate selection and project
     management controls in place to ensure that IT projects
     will meet intended goals. However, since the FBI
     developed its ITIM Model and Transition Plan in
     January 2002, it has focused more management attention
     in this area and has made progress towards attaining a
     basic IT investment management foundation. Much of the
     progress has been in the “select” phase of the Plan, which
     was pilot tested in the Spring of 2002.

     The ability of the FBI to completely implement the
     “control” and “evaluate” phases of the Plan, and achieve
     mature IT investment processes that can lead to enhanced
     mission performance, will require the FBI to increase its
     efforts in: (1) fully developing and documenting its new
     ITIM process; (2) requiring more input and participation
     from ITIM managers and users; and (3) further developing
     its project management and enterprise architecture
     functions. While the FBI recognizes many of these needs
     and has taken initial steps to address the needs, further
     action in these areas is needed to ensure that IT projects
     are developed within cost and schedule requirements, and
     meet performance expectations. The Trilogy project
     provides an example of how the non-implementation of
     fundamental IT investment management practices can put
     a project at risk of not delivering, within cost and schedule
     requirements, what was promised.

A. The FBI’s Progress Toward Attaining a Basic IT
   Investment Management Foundation

      Although the FBI made measurable progress in improving its IT
investment capability since it initiated a new ITIM process in early


                                - 22 -
2002, the FBI still lacks a complete foundation to build its IT
investment maturity processes, and therefore is still in Stage One
maturity.31 In the past, the FBI has not given sufficient management
attention to IT investments. Because of the lack of management
attention in the past, the FBI failed to implement the critical processes
necessary to build an IT investment foundation. These critical
processes include: (1) IT investment review board operation, (2) IT
project oversight, (3) IT system and project identification and tracking,
(4) business needs identification for IT projects, and (5) IT proposal
selection.

(1) Importance of Attaining a Basic IT Investment
    Management Foundation

       The primary purpose for attaining a basic IT investment
management capability (Stage Two maturity) is to build the foundation
for repeatable, successful IT project-level investment control and
selection processes. Effective control processes over IT projects
ensure that deviations from cost and schedule baselines can be
identified and corrected. Selection processes ensure that the FBI has
an effective methodology for approving only IT projects that are
consistent with its needs and goals. According to the Framework, an
organization can only achieve Stage Two maturity if it fully implements
the following five critical processes:

       1. defining investment review board operations,

       2. developing a basic process for selecting new IT
          proposals,

       3. developing project-level investment control processes,

       4. identifying IT projects and systems, and

       5. identifying the business needs for each IT project.

       To implement these critical processes, the FBI must execute a
total of 38 key practices as defined in the Framework, or have
alternative practices in place that are designed to achieve the same
outcome.

       31
         Stage One maturity is the lowest level of maturity designated by the GAO
ITIM Framework. According to the Framework, an organization is in Stage One
maturity when it has not fully implemented the five critical processes associated with
Stage Two maturity.


                                       - 23 -
       At the start of our audit in January 2002, FBI officials told us
that the Bureau was in the process of developing its new ITIM process.
Although its ITIM process was still in the development stages, FBI
officials told us that the FBI was executing certain key practices from
Stage Two of the Framework. Additionally, the FBI officials said in
March 2002 that they would pilot test ITIM processes pertaining to the
selection of new IT proposals for the FY 2004 budget cycle. Further,
the Plan establishes the FBI’s goal to fully attain Stage Two maturity
for the FY 2005 budget cycle that starts in March of 2003, thereby
establishing the foundation for enhanced investment capability.

(2) Summary of the FBI’s Progress Toward Attaining Stage
    Two Maturity

      Based on the FBI’s responses to the self-assessment32 (and our
validation of those responses), the FBI did not yet have in place any of
the five critical processes associated with Stage Two maturity.
However, since the FBI began pilot testing the select phase of its Plan
in March 2002, it has made progress towards implementing the 38 key
practices comprising the five critical processes - particularly in the area
of selecting new proposals for IT projects. Specifically, at the
beginning of our audit in January 2002, the FBI was only executing
4 of the 38 required key practices; however, as of June 2002, the FBI
was executing 14 of the key practices. The following table provides a
summary of the FBI’s progress toward implementing the key practices
required for each critical process.




      32
        To facilitate our assessment of the FBI’s IT investment maturity, the FBI
completed a self-assessment regarding the key practices from the Framework that it
was executing, or planning to execute, upon implementation of its new ITIM process.


                                      - 24 -
         FBI Progress Toward Attaining Stage Two Maturity

                                                        Key         Key
                                                     Practices   Practices
                       Status of                     Executed    Executed
                     Implementing        Total Key    Prior to     as of
   Critical             Critical         Practices     March       June
   Process             Process           Required      2002        2002

1. IT Investment
   Board
   Operation         Not Implemented            6        0           2

2. IT Project
   Oversight         Not Implemented            11       1           2

3. IT Project
   Identification    Not Implemented            7        1           2
4. Business
   Needs
   Identification
   for IT Projects   Not Implemented            8        2           3


                     Not Yet
                     Implemented,
5. Proposal          but Substantial
   Selection         Progress Made              6        0           5

Total                                           38      4           14

        Source: OIG analyses

       For the remainder of section A of this finding, we provide
detailed narratives of the FBI’s progress toward implementing each of
the five critical processes. We also provide specific recommendations
for expediting implementation of the critical processes and establishing
more timely Stage Two maturity.

       Each critical process contains core elements that provide the
common framework for the process. For example, the organizational
commitment element addresses the management actions that ensure
the critical process is established and will endure; the prerequisites
element addresses the conditions that must exist within an
organization to successfully implement a critical process; and the
activities element consists of the key practices necessary to implement
a critical process. The key practices are the tasks within a core


                                       - 25 -
element that must be performed by an organization to effectively
implement and institutionalize a critical process.

(3) Critical Process #1: IT Investment Review Board Operation

      Depending on its size, structure, and culture, an organization
may have more than one IT investment review board. The purpose of
such boards is to ensure that basic policies for selecting, controlling,
and evaluating IT investments are developed, institutionalized, and
consistently followed throughout the organization. To establish a fully
functioning investment review board, the FBI must execute the
following six key practices:

      1. create an IT investment process guide containing policies
         and procedures to direct board operations;

      2. require executives and line managers to support and
         carry out board decisions;

      3. allocate adequate resources for operating each board;

      4. define board membership, policies and procedures, roles and
         responsibilities;

      5. create and define board membership to integrate both IT and
         business knowledge; and

      6. require the IT investment boards to follow the written
         policies and procedures as defined in the process guide.

     The following table summarizes the FBI’s progress toward
implementing fully functioning investment review boards.




                                 - 26 -
      FBI Progress Toward Implementing Fully Functioning
        Investment Review Boards (Critical Process #1)

                                               Key Practice     Key Practice
                                                Execution        Execution
                                              Status Prior to   Status as of
             Key Practice                      March 2002        June 2002
 Organizational Commitment 1. An
 organization-specific IT investment
 process guide is created to direct each
 board’s operations.                          Not Executed      Executed
 Organizational Commitment 2.
 Organization executives and line
 managers support and carry out IT
 investment board decisions.                  Not Executed      Not Executed
 Prerequisite 1. Adequate resources are
 provided for operating each IT
 investment board.                            Not Executed      Not Executed
 Prerequisite 2. Board members
 understand the investment board’s
 policies and procedures and exhibit core
 competencies in using the IT investment
 approach via training, education, or
 experience.                                  Not Executed      Not Executed
 Activity 1. Each IT investment board is
 created and defined with board
 membership integrating both IT and
 business knowledge.                          Not Executed      Executed
 Activity 2. Each IT investment board
 operates according to written policies and
 procedures in the organization-specific
 IT investment process guide.                 Not Executed      Not Executed

      Source: OIG analyses

a. The FBI Has Executed Two of the Six Key Practices
   Associated with IT Investment Board Operation

       We determined that the FBI executed two of the six key
practices associated with implementing this critical process.
Specifically, the FBI created an IT investment process guide containing
policies and procedures to direct board operations (Organizational
Commitment 1), and it created and defined three investment review
boards integrating both IT and business knowledge (Activity 1).




                                       - 27 -
      Regarding the IT investment process guide (Organizational
Commitment 1), in January 2002 the FBI issued its IT Investment
Model and Transition Plan33 containing required guide elements
prescribed by the Framework including:

   •   specifics about the roles of key people within the FBI investment
       process;

   •   an outline of the significant events and decision points within the
       processes;

   •   an identification of the external and environmental factors that
       will influence the processes; and

   •   the manner in which IT investment-related processes will be
       coordinated with other organizational plans and processes.

      Regarding the investment review boards (Activity 1), in
June 2002 the Director approved board charters for each of the three
investment review boards (the Executive Review Board, the
Project Oversight Committee, and the Technical Review Board) that
defined board membership and the responsibilities of board members.

   •   The Executive Review Board is comprised of the FBI Director (as
       Chairperson), the Chief Information Officer, the FBI’s four
       Executive Assistant Directors (EADs),34 a Special Agent in
       Charge committee member, the Assistant Director of the Finance
       Division, and the Strategic Planning Manager.

       This Board’s primary responsibility will be to evaluate and
       approve projects in the candidate fiscal project portfolios and
       forward approved projects to the fiscal budget process. This
       Board will also determine whether problematic projects should
       proceed “as is,” proceed with modified funding levels and/or
       modified functionality, or be terminated.

   •   The Project Oversight Committee includes: the Chief
       Information Officer (as Chairperson), the Assistant Director from

       33
         The Plan was issued in draft form because it is the intent of the FBI to
modify and supplement the Plan as the ITIM process is being pilot tested.
       34
         The EADs are for: (1) Criminal Investigations, (2) Counterterrorism and
Counterintelligence, (3) Law Enforcement Services, and (4) Administration.



                                        - 28 -
       each division, a member from the Office of General Counsel, the
       Chief Contracting Officer, and the Strategic Planning Manager.

       Once the Technical Review Board completes its assessment, the
       Project Review Board then performs a business review of the
       proposed projects, prioritizes these proposals against predefined
       selection criteria, and develops a “candidate” fiscal project
       portfolio for presentation to the Executive Review Board. The
       committee also reviews monthly status reports for ongoing
       projects to mitigate project related risks. Projects with
       exceptions to baseline plans will be presented to the Executive
       Review Board for corrective action.

   •   The Technical Review Board is comprised of: the Section Chief,
       Information Resources Management Office (as Chairperson); the
       Assistant Director of IRD; the IRD’s section chiefs; and
       representatives from the Laboratory Division, CJIS Division, and
       Security Division. This board’s primary responsibility will be to
       assess technical risks for proposed projects.

      The boards actually began functioning as early as March 2002, in
conjunction with the FBI’s pilot testing of ITIM processes pertaining to
the selection of new IT proposals for the FY 2004 budget cycle.
Although board membership consists mostly of FBI managers who do
not have extensive IT knowledge,35 the use of subject matter experts
and reliance on the Enterprise Architecture Technical Committee36 can
compensate for a lack of IT knowledge.

b. The FBI Must Execute Four of the Six Key Practices
   Associated with IT Investment Board Operation

      Although progress has been made, the FBI does not have fully
functioning IT investment boards because it still must execute four of
the six key practices associated with this critical process. Specifically,
the FBI must ensure that:



       35
         Based on our interviews with FBI managers from the IRD, CJIS, and
Inspection Divisions, most of the members on the investment boards are former agents
with no specialized expertise, training, or competencies in IT.
       36
          The Enterprise Architecture Technical Committee was created to provide
technical expertise to the Technical Review Board. Members of this committee are
comprised of IT specialists familiar with enterprise architecture, configuration
management, and quality assurance.


                                      - 29 -
   •   organization executives and line managers support and carry out
       IT investment board decisions (Organizational Commitment 2);

   •   adequate resources are provided for operating each IT
       investment board (Prerequisite 1);

   •   board members understand the investment board’s policies and
       procedures and exhibit core competencies in using the IT
       investment approach via training, education, or experience
       (Prerequisite 2); and

   •   each IT investment board operates according to written policies
       and procedures contained in the investment process guide
       (Activity 2).

       Regarding Organizational Commitment 2 and Activity 2, the
approved charters for the investment review boards have been in
effect since June 2002. Consequently, the FBI did not have sufficient
data for us to assess whether managers and support staff effectively
carried out board decisions and whether the boards operated according
to the written policies and procedures contained in the Plan and board
charters.

       Regarding Prerequisites 1 and 2, in our judgment the FBI did not
adequately plan sufficient time to ensure the IT investment boards
operated effectively. Specifically, the FBI did not provide ample time
between the initial draft of its Plan (January 25, 2002) and the
March 2002 pilot testing of the select phase to adequately prepare and
train IT board members. The DOJ originally instructed each
component to begin developing an ITIM process in January 2001.37 In
June 2001, the DOJ required each component to complete and submit
to JMD an ITIM process and transition plan by the end of 2001.38 The
DOJ also required each component to initiate the ITIM process for the
FY 2004 budget cycle, which for the FBI began in March 2002.
Consequently, the FBI had only one full month between the issuance
of the Plan in late January 2002 and the initiation of the select phase
of its ITIM process in early March 2002.


       37
        This instruction originated from DOJ Order 2880.1A, policy on Information
Technology Investment Management, issued in January 2001.
       38
          This instruction originated from a DOJ memorandum dated
June 28, 2001. This memorandum required each component to have an ITIM
transition plan that will allow implementation for the FY 2004 budget cycle.


                                      - 30 -
       The ITIM Program Office Manager told us that the former FBI
Chief Financial Officer would not approve the use of a contractor to
assist in the development of the ITIM process earlier in the year.
According to the former Chief Financial Officer, she had concerns that
federal contracting regulations prohibited the FBI from using a
contractor to perform a service that involves budget planning.
However, following her transfer to another division in December 2001,
the Information Resources Management Section received authorization
to hire a contractor to assist with the development and implementation
of the ITIM process.

       We believe that without an ITIM contractor the FBI still had the
opportunity to begin planning its ITIM process (including the training
of board members) early in 2001. In fact, had the FBI better
coordinated other ongoing efforts to develop processes that
complement IT investment management, the FBI could have made
significant strides in initiating its ITIM process during 2001 without
expending additional resources. As discussed in section B of this
finding, the FBI did not sufficiently incorporate (a) its enterprise
architecture function (which was under development in 2001) and
(b) the Project Management Process (issued in draft form in
October 2001) into the development of its ITIM process. Enterprise
architecture and project management not only complement the ITIM
process, but also facilitate the maturation of ITIM. As discussed in
section B of this finding, the FBI did not effectively utilize its internal
resources when it developed its ITIM process through the use of a
contractor because the FBI did not adequately consider the
complementary, and potentially duplicative efforts that were already
underway.

      Not providing ample time resulted in inadequate training of
board members and minimal preparation time to develop IT proposals.
For example, Technical Review Board members had only 3 business
days to review over 50 IT proposals prior to their first board meeting.
FBI officials recognized these implementation issues in the Post-
Implementation Review of the select phase pilot test.

      In preparing board members for their duties, the FBI has thus
far only provided one overview training session for board members
and other users in the ITIM process. Additionally, while FBI officials
have told us more ITIM training will be forthcoming, they have not
provided us with any specific training plans for the future. Further,
members of the Technical Review Board told us that board members,
especially the Assistant Directors and EADs, do not have extensive


                                   - 31 -
knowledge in managing IT and must rely heavily on knowledgeable
staff and other subject matter experts.

       For the ITIM process to become institutionalized, the FBI must
have a better training program. According to the Framework, board
members should understand the board’s policies, roles, rules, and
activities and be capable of carrying out their responsibilities
competently. Education and training for members is needed in areas
such as economic evaluation techniques, capital budgeting methods,
and performance measurement strategies. The FBI’s Post-
Implementation Review of the select phase pilot testing recommends
“role-specific” training sessions for the following ITIM roles: (1) ITIM
Liaison representatives,39 (2) Executive Review Board members,
(3) Program Oversight Review Board members, (4) Technical Review
Board members, and (5) ITIM stakeholders. It further recommends
continuation of the overview training sessions previously provided,
plus training for ITIM specific tools, such as the concept paper
(containing the preliminary feasibility analysis), the OMB Exhibit 300
(containing the business case analyses), and IT proposal summaries.

       FBI officials told us that time constraints were the main cause for
not executing the four key practices identified above. As a result,
there was insufficient time to introduce ITIM concepts to board
members and other ITIM users. As mentioned above, the DOJ
required each component to develop and begin implementation of an
ITIM process for the FY 2004 budget cycle, which for the FBI begins in
March 2002. Although FBI officials were aware of the requirement to
initiate and adopt an ITIM process in January 2001, it was not until
December 2001 that it began to develop its ITIM process. Had the FBI
initiated more timely action to develop its ITIM process, it would have
had significantly more time to prepare and train ITIM board members
and other users. Without sufficient training and allocation of time to
perform required tasks, the investment review boards cannot carry out
their responsibilities to effectively select, control and evaluate projects.




       39
          The FBI’s ITIM process defines the ITIM Liaison Representative as an
individual from a particular division/business unit that facilitates workflow
and communications between that division/business unit and the ITIM
program office.



                                       - 32 -
c. Recommendations

          We recommend that the Director of the FBI:

1.       Require the ITIM Program Office to plan for and take more timely
         action to allow board members and other ITIM users to execute
         assigned responsibilities competently (Prerequisite 1).

2.       Ensure that all members of IT investment boards receive sufficient
         education and training to execute assigned responsibilities
         effectively. We suggest that for each of the investment boards the
         FBI: (a) identify the core competencies required of members in
         using the IT investment approach, and (b) develop appropriate
         education and training development plans to ensure members
         acquire the required core competencies (Prerequisite 2).

(4) Critical Process #2: IT Project Oversight

       The purpose of this critical process is to ensure that the FBI’s
investment review boards and project development teams provide
effective oversight for its IT projects throughout all phases of the
project life-cycle. IT investment boards generally review each
project’s progress toward predicted cost and schedule expectations as
well as anticipated benefits and risk exposure. The board members
also employ early warning systems that enable them to take corrective
actions at the first signs of cost, schedule, and performance slippages.
Individual project development teams are responsible for meeting
project milestones within the expected cost and schedule parameters.

          Effective project oversight requires, among other things:

     •    having written policies and procedures for project management;

     •    developing and maintaining an approved project management
          plan for each project;

     •    having written policies and procedures for oversight of IT
          projects;

     •    making up-to-date cost and schedule data for projects available
          to the investment review boards;




                                     - 33 -
   •   reviewing each project’s performance by comparing actual cost
       and schedule data to expectations regularly; and

   •   ensuring that corrective actions for each under-performing
       project are defined, implemented, and tracked until the desired
       outcome is achieved.

       We concluded that the FBI is not effectively overseeing its
ongoing IT projects. While the FBI maintained project management
guidance and had three IT investment review boards in operation since
March 2002, these activities have not adequately supported the FBI’s
IT project oversight function. Our testing of the key practices
associated with this critical process indicates that the FBI is executing
only two out of the eleven key practices required to implement this
critical process. The following table summarizes FBI progress toward
implementing IT project oversight.




                                 - 34 -
   FBI Progress Toward Implementing IT Project Oversight
                   (Critical Process #2)

                                           Key Practice     Key Practice
                                            Execution        Execution
                                          Status Prior to   Status as of
           Key Practice                    March 2002        June 2002
Organizational Commitment 1. The
organization has written policies and
procedures for project management.        Executed          Executed
Organizational Commitment 2. The
organization has written policies and
procedures for management oversight
of IT projects.                           Not Executed      Not Executed
Prerequisite 1. Adequate resources
are provided to assist the boards in
overseeing IT projects.                   Not Executed      Not Executed
Prerequisite 2. Each IT project has
and maintains an approved project
management plan that includes cost
and schedule controls.                    Not Executed      Not Executed
Prerequisite 3. An IT investment
review board is operating.                Not Executed      Executed
Prerequisite 4. Information from the
IT asset inventory is used by the IT
investment board as applicable.           Not Executed      Not Executed
Activity 1. Each project's up-to-date
cost and schedule data are provided to
the appropriate IT investment board.      Not Executed      Not Executed
Activity 2. Using established criteria,
the IT investment board oversees each
IT project's performance regularly by
comparing actual cost and schedule
data to expectations.                     Not Executed      Not Executed
Activity 3. The IT investment board
performs special reviews of projects
that have not met predetermined
performance standards.                    Not Executed      Not Executed
Activity 4. Appropriate corrective
actions for each under-performing
project are defined, documented, and
agreed to by the IT investment board
and the project manager.                  Not Executed      Not Executed
Activity 5. Corrective actions are
implemented and tracked until the
desired outcome is achieved.              Not Executed      Not Executed

  Source: OIG analyses




                                    - 35 -
a. The FBI Has Executed Two of the Eleven Key Practices
   Associated with IT Project Oversight

       While the FBI has project management guidance (and is
therefore executing the key practice relating to the existence of project
management methodology), the guidance is not being followed on a
consistent basis. In fact, depending on whom we talked to, we
obtained different answers as to which document represented the FBI’s
official project management guidance.

      For example, although IRD managers were aware that the DOJ’s
System Development Life-Cycle is the FBI’s official project
management methodology, they acknowledged that it is not
consistently applied. Laboratory Division management officials told us
that they do not follow the DOJ’s System Development Life-Cycle
methodology, but rather have adopted their own project management
system based on one used at the Department of Defense because it
better meets their needs. CJIS Division management officials told us
that although its Contract Administration Office is responsible for
project management functions, they were not following any specific
project methodology.

      Other FBI personnel from the Information Resources
Management Section told us the Project Management Process,
developed by the FBI’s Inspection Division, was the FBI’s project
management guidance. However, Inspection Division personnel
indicated to us that the Project Management Process was still pending
approval from the Director, as of June 2002. As a result, there
appeared to be confusion among FBI officials as to what the official
project management guidance was. As of June 2002, the Project
Management Process had not been approved, nor was it being used to
manage IT projects.

      As previously discussed in the prior report section pertaining to
the investment review board critical process, the FBI established three
IT investment review boards in March 2002 (the Executive Review
Board, the Project Oversight Committee, and the Technical Review
Board). Although the investment review boards are operating, the
boards have not yet been involved in project oversight. As the ITIM
process continues to evolve, project oversight by these boards should
increase accordingly.




                                 - 36 -
b. The FBI Must Execute Nine of the Eleven Key Practices
   Associated with IT Project Oversight

      Based on our analyses, the FBI does not have effective IT
project oversight because it has not yet executed nine out of the
eleven key practices associated with this critical process. Specifically,
the FBI must ensure that:

   •   written policies and procedures are developed for management
       oversight of IT projects (Organizational Commitment 2);

   •   adequate resources are provided to assist the investment boards
       in overseeing IT projects (Prerequisite 1);

   •   an approved project management plan is prepared for each IT
       project that includes cost and schedule controls (Prerequisite 2);

   •   information from the IT asset inventory is used by the IT
       investment boards as applicable (Prerequisite 4);

   •   each project's up-to-date cost and schedule data are provided to
       the appropriate IT investment board (Activity 1);

   •   using established criteria, the IT investment boards oversee each
       IT project's performance regularly by comparing actual cost and
       schedule data to expectations (Activity 2);

   •   the IT investment boards perform special reviews of projects
       that have not met predetermined performance standards
       (Activity 3);

   •   appropriate corrective actions for each under-performing project
       are defined, documented, and agreed to by the IT investment
       boards and the project manager (Activity 4); and

   •   corrective actions are implemented and tracked until the desired
       outcome is achieved (Activity 5).

      Regarding Organizational Commitment 2, the FBI has not
developed written policies and procedures for management oversight
of IT projects. While the Plan provides a conceptual basis for board
oversight of IT projects and the board charters define the boards’
responsibilities, the FBI does not have the specific policies and
procedures in place for overseeing and controlling projects. FBI


                                  - 37 -
officials have acknowledged to us that the Plan was never intended to
represent the complete and final policies and procedures for
management oversight of IT projects. The Plan states that it is a fluid
document that will need to be modified and supplemented as the pilot
test is performed. As a result, FBI officials recognize that additional
policies and procedures must be developed. As of June 2002, FBI
officials have told us they are in the process of developing these
specific policies and procedures for the control phase of the ITIM pilot
test.

      Regarding Prerequisite 1 (providing adequate resources to the
boards), we concluded that this key practice has not been executed
because as of June 2002, the FBI did not have a functioning project
management office to assist the boards in overseeing IT projects. The
Plan calls for a functioning project management office to assist the
boards, especially the Project Oversight Committee, and consequently
is a necessary resource for IT project oversight. As of June 2002, the
FBI has not yet utilized its project management function to assist the
Project Oversight Committee in IT investment decision-making.

       The functioning project management office represents a critical
resource to the Project Oversight Committee and thus to IT project
oversight. In our judgment, the functioning project management
office needs to have jurisdiction over IT projects throughout the
Bureau, rather than limit its responsibilities to division-specific
projects. Until June 2002, the FBI lacked a functioning project
management office that had jurisdiction over IT projects throughout
the Bureau. Rather than having a centralized project management
office, independent of individual divisions, the FBI maintained three
separate division-level project management offices to manage IT
projects. These three separate project management functions were
maintained in the IRD, CJIS, and Laboratory Divisions, contributing to
inefficiencies in project coordination and the risk of “stove piping”
projects. Because of its importance in supporting the ITIM process,
the subject of establishing and maintaining a centralized project
management office is further discussed later in this report.

      Regarding Prerequisite 2, we determined that each IT project
does not have an approved project management plan that includes
cost and schedule controls. Personnel from the IRD project
management office told us that generally IT projects with high visibility
have project management plans that include cost and schedule
controls. However, other lower visibility projects have less rigid
controls in place. This condition developed because the IRD project


                                 - 38 -
management office did not uniformly enforce the development of
project management plans by all IT project managers. In our
judgment, projects under the IRD’s discretion have not been
adequately controlled. Although personnel from the CJIS and
Laboratory Divisions indicated that IT projects under their respective
divisions did have management plans with cost and schedule controls,
without a functioning board that approves and monitors these project
management plans FBI managers have no assurance that IT projects
are effectively managed in accordance with uniform standards.

      Regarding Prerequisite 4, the FBI has not yet developed an IT
asset inventory; consequently, the FBI’s investment review boards are
not aware of all the IT projects and resources for which the boards are
responsible. FBI managers told us they were in the process of
developing an IT asset inventory. However, at the time of our audit
they were unable to provide an estimated date for completing the
inventory. Unless the investment review board members are fully
cognizant of the IT projects and resources for which they are
responsible, the boards cannot exercise effective oversight of ongoing
IT projects. Additional details pertaining to the FBI’s plans to finalize
the IT inventory are provided later in this report.

       Finally, since the IT investment review boards were not involved
in overseeing IT projects as of June 2002, we concluded that none of
the five remaining key practices activities have been executed. These
five key practices are the basic activities that investment review
boards must implement to effectively oversee IT projects during the
control phase. The FBI provided us documentation indicating that the
Project Oversight Committee (the primary IT investment review board
responsible for overseeing IT projects) met in June 2002 to discuss the
FBI’s intent to pilot test the control phase of the Plan by September
2002. The documentation stated that the FBI was still working on
designing the specific procedures associated with the control phase,
including integrating the ITIM process with the project management
office. Additionally, the FBI has only provided us with summary
information on when and how the control phase of the ITIM process
will be rolled out. The information lacks specific details needed to
effectively implement this critical process.

      FBI personnel told us that the lack of established IT investment
review boards (prior to March 2002) was the main cause for ineffective
project oversight. Additionally, they stated that the control phase of
the ITIM process would be pilot tested by September 2002. However,
the FBI has not been able to provide us with a specific timeline as to:


                                 - 39 -
(1) how the pilot test will be executed, and (2) details as to how the
ITIM process will interface with a project management methodology.
These issues are further discussed in Section B of this finding.

       Without effective oversight of IT projects, FBI officials do not
have adequate assurance that IT projects are being developed on
schedule and within established budgets. As described in the following
paragraphs, the lack of effective IT project oversight has contributed
to the FBI’s problems in managing IT projects, including a lack of
accountability for cost and schedule overruns, a lack of consideration
for full life-cycle costs, and lost credibility with Congress.

       According to a former Chief Information Officer at the FBI, the
lack of effective oversight of IT projects (as a result of not having IT
investment review boards and a centralized project management
office) have prevented IT project managers from being held
accountable for cost and schedule overruns and the ultimate
performance of projects. For example, the former Chief Information
Officer told us that the CJIS Division completed the Integrated
Automated Fingerprint Identification System and the National Crime
Information Center 2000 years behind schedule and millions of dollars
over budget. He also told us that management changes in the
CJIS Division have not occurred, despite these overruns.

      Senior FBI officials also told us that the Bureau’s budget
formulation process focuses only on the acquisition costs for IT
projects and not the full life-cycle costs, especially operations and
maintenance costs. For example, an assessment performed by the
FBI’s Inspection Division on the Trilogy project40 noted that the life-
cycle cost estimate is inadequate and only focuses on the term of the
contract, not the life of the project. FBI personnel told us that a lack
of consideration for full project costs is not limited to Trilogy, but also
applies to other IT projects. Without accountability for significant
deviations from project baselines, there is a lack of incentives for
project managers to adequately control and evaluate projects.

      According to FBI officials, the FBI’s inability to effectively
complete IT projects within budget and schedule reduced the FBI’s
credibility in the eyes of Congress. The lack of credibility contributed
to delays in the FBI receiving Congressional funding to upgrade its IT
infrastructure. This subject, along with how Trilogy may be adversely
affected because of uncertainties in determining projected costs and

      40
           The Trilogy project is discussed in greater detail in section C of this finding.


                                          - 40 -
scheduled completion dates for project milestones, is further discussed
in section C of this finding.

c. Recommendations

      We recommend that the Director of the FBI ensure:

3. Official project management guidance is consistently followed by all
   FBI IT project managers.

4. Written policies and procedures are developed for management
   oversight of IT projects for use by the investment review boards
   (Organizational Commitment 2).

5. IT Investment Review Boards are supported by a centralized
   project management office that operates in accordance with ITIM
   policies and procedures (Prerequisite 1).

6. Each IT project has a project management plan, approved by the
   Project Oversight Committee, that includes cost and schedule
   controls (Prerequisite 2).

7. Information being developed in the IT asset inventory is made
   available to, and used by, the boards (Prerequisite 4).

8. Execution of the five key practices consisting of the activities
   necessary for the investment review boards to maintain effective
   oversight of IT projects during the critical control phase. These
   five key practices consist of:

  •   Providing each project's up-to-date cost and schedule data to the
      appropriate IT investment board (Activity 1).

  •   Establishing criteria for the boards to review each IT project’s
      performance by comparing actual cost and schedule data to
      expectations (Activity 2).

  •   Performing special reviews of projects that have not met
      predetermined performance standards (Activity 3).

  •   Defining, documenting, and agreeing to corrective actions for
      each under-performing project by the appropriate IT investment
      board and the project manager (Activity 4).



                                 - 41 -
   •   Tracking and implementing corrective actions until the desired
       outcome is achieved (Activity 5).

(5) Critical Process #3: IT Project and System Identification

       For the FBI to make effective IT investment decisions, it must
have at its disposal information about existing IT investments as well
as the proposed investments being considered. The purpose of this
critical process is to provide the IT investment boards the information
required to fully evaluate the impacts and opportunities created by
both the proposed and current IT investments. The key practices of
this process require the FBI to identify and track the IT projects and
systems within the organization to create a comprehensive inventory.
According to the Framework, effective identification of IT projects and
systems requires:

   •   identifying specific information about each IT project and system
       in an inventory, according to written procedures;

   •   updating information in the inventory as changes to projects and
       systems occur;

   •   making information from the inventory available to users as
       needed; and

   •   assigning responsibility for managing the IT system identification
       process.

       While the FBI has taken steps to identify its IT projects and
systems in an IT asset inventory, it still does not have a complete IT
asset inventory that is being using by the IT investment review boards
for investment management purposes. As part of an enterprise
architecture data repository, the FBI is developing a comprehensive
inventory of its IT projects and systems. In addition, FBI officials have
told us that the enterprise architecture office is primarily responsible
for developing and maintaining the data repository. However, the data
repository has not been completed, nor have board members used its
contents during the select phase of the ITIM process that took place
during the Spring of 2002. The FBI’s enterprise architecture function
is further discussed in section B of this finding. The following table
summarizes the key practice ratings for the IT project and system
identification critical process.




                                  - 42 -
   FBI Progress Toward Identifying IT Projects and Systems
                    (Critical Process #3)

                                            Key Practice      Key Practice
                                             Execution         Execution
                                           Status Prior to    Status as of
           Key Practice                     March 2002         June 2002
Organizational Commitment 1.
The organization has written policies
and procedures for identifying its IT
projects and systems and collecting an
inventory that includes information
about the IT projects and systems
that is relevant to the investment
management process.                        Executed          Executed
Organizational Commitment 2.
An official is assigned responsibility
for managing the IT project and
system identification process and
ensuring the inventory meets the
needs of the investment management
process.                                   Not Executed      Executed
Prerequisite 1. Adequate resources
are provided for identifying IT projects
and systems and collecting relevant
information into an inventory.             Not Executed      Not Executed
Activity 1. The organization's IT
projects and systems are identified
and specific information about these
projects is collected in an inventory.     Not Executed      Not Executed
Activity 2. Changes to IT projects
 and systems are identified and
 changed information is collected in the
 inventory.                                Not Executed      Not Executed
Activity 3. Information from the
 inventory is available on demand to
 decision-makers and other affected
 parties.                                  Not Executed      Not Executed
Activity 4. The IT project and system
 inventory and its information records
 are maintained to contribute to future
 investment selections and
 assessments.                              Not Executed      Not Executed

     Source: OIG analyses




                                      - 43 -
a. The FBI has Executed Two of the Seven Key Practices
   Associated With Identifying IT Projects and Systems

       Based on our analyses, we determined that the FBI has executed
two of the seven key practices associated with this critical process.
Specifically, the FBI has developed written policies and procedures for
identifying its IT projects and systems in an inventory that includes
information relevant to the investment management process
(Organizational Commitment 1). Additionally, the FBI has designated
an official responsible for managing the IT project and system
identification process and ensuring that the inventory meets the needs
of the investment management process (Organizational
Commitment 2).

       Regarding Organizational Commitment 1, we determined that
the FBI has developed adequate written policies and procedures for:
(a) identifying its IT projects and systems and (b) collecting
information relevant to the investment management process on each
project and system. Prior to December 2001, the FBI did not have
written policies and procedures for identifying IT projects and systems.
The FBI did, however, provide us with an electronic communication
dated December 3, 2001 from the enterprise architecture staff that
was distributed Bureau-wide requesting management from each
division to provide information on its IT systems. The information
obtained from the divisions is used by the enterprise architecture staff
to develop the data repository of IT systems.

      Regarding Organizational Commitment 2, the FBI has designated
the Chief Architect of the enterprise architecture office with
responsibility for managing the IT project and system identification
process and ensuring that the inventory, when completed, meets the
needs of the investment management process and ITIM managers and
users. The Chief Architect currently reports to the Information
Resource Management Section Chief, who reports to the Chief
Information Officer.

b. The FBI Must Execute Five of the Seven Key Practices
   Associated with Identifying IT Projects and Systems

       Although the FBI has made recent progress in identifying IT
projects and systems, the FBI does not have a comprehensive IT
project and system identification process because it still has not
executed five out of the seven key practices associated with this
critical process. Specifically, the FBI must ensure that:


                                 - 44 -
   •   adequate resources are provided for identifying IT projects and
       systems and collecting relevant information into an inventory
       (Prerequisite 1);

   •   the organization's IT projects and systems are identified and
       specific information about these projects and systems is
       collected in an inventory (Activity 1);

   •   changes to IT projects and systems are identified and changed
       information is collected in the inventory (Activity 2);

   •   information from the inventory is available on demand to
       decision-makers and other affected parties (Activity 3); and

   •   the IT project and system inventory and its information records
       are maintained to contribute to future investment selections and
       assessments (Activity 4).

       Regarding Prerequisite 1, FBI managers told us that the FBI has
not allocated adequate resources to ensure timely and successful
completion of the IT project and system identification critical process.
FBI managers from the Information Resources Management Section
told us that they do not have sufficient staffing to support the ITIM
process, including the enterprise architecture function. The enterprise
architecture office within the Information Resources Management
Section plays a key role in the ITIM process as it assists the Technical
Review Board and maintains the data repository information on IT
systems and projects. Further, personnel who we interviewed from
the enterprise architecture office told us that limited staffing was a
factor in not having the data repository completed.41

        Regarding the remaining four key practices, none of those
practices can be executed until the FBI completes the creation of its IT
asset inventory. More importantly, the IT asset inventory will have
little value to the FBI if it is not used when making IT investment
decisions. Prior attempts at compiling an inventory of IT projects were
used to satisfy Congressional and DOJ requests, rather than to assist
the IT investment management process. For example, the FBI




       41
          Our judgments regarding staffing issues within the enterprise architecture
office are discussed in more detail later in this report.


                                       - 45 -
prepared a partial list of its information technology projects to comply
with a Congressional request in August 2000.

      FBI officials informed us that they anticipate the investment
review boards will use the completed inventories to contribute to
future investment selections and assessments. The Plan states that
the FBI must establish a complete IT portfolio set as the ITIM process
matures. Further, FBI personnel told us that the enterprise
architecture data repository, when complete, will be available to
decision-makers and other ITIM users via the FBI’s Intranet.
However, we have not been provided with a specific timeframe for
when the FBI expects to have a completed inventory.

      FBI personnel told us that the primary cause of not having a
completed IT asset inventory and actively using it in the ITIM process
is because of staffing shortages. While that may be a contributing
factor, we concluded that the lack of centralized management over IT
investments was also a limiting factor. As a result, certain divisions
maintained some version of an IT inventory for the projects and
systems under their jurisdiction, and there was no centralized office
responsible for maintaining a uniform listing Bureau-wide.

      Without a complete IT asset inventory in the ITIM process, FBI
management and board members do not have adequate assurance
that accurate, timely, and complete information on existing IT projects
and systems is available to them. As a result, there is a risk that new
IT proposals selected overlap with one of the 200 or so existing FBI
applications. While the recently established review boards helped to
mitigate this risk for the FY 2004 budget selection process, we believe
that an IT asset inventory must be used by the boards to optimize the
use of the FBI’s resources.

c. Recommendations

    We recommend that the Director of the FBI:

9. Establish a deadline for completing the creation of the FBI IT
   inventory and ensure progress toward completion is monitored
   (Activity 1).




                                 - 46 -
10. Implement processes to ensure:

       a.        subsequent changes to IT projects and systems are identified
                 and documented in the inventory (Activity 2);

       b.        information from the inventory is available on demand to
                 decision-makers and other affected parties (Activity 3); and

       c.        the IT project and system inventory and its information
                 records are maintained to contribute to future investment
                 selections and assessments (Activity 4).

(6) Critical Process #4: Business Needs Identification

       This critical process establishes the mechanism for identifying
the business needs and the associated users that drive each IT
project. This critical process links the organization’s business
objectives with its IT strategy and creates the partnership between the
users and the IT providers. According to the Framework, effective
identification of business needs requires:

   •        defining the organization’s business needs and goals;

   •        identifying users who will participate throughout the life-cycle of
            each project;

   •        defining business needs for each IT project; and

   •        training IT staff in business needs identification.

       While the FBI has made progress in identifying business needs
for IT projects, it has not yet executed all the key practices necessary
to implement this critical process. Prior to pilot testing the select
phase of its ITIM process in March 2002, the FBI had been identifying
users for each IT project in the Exhibit 300.42 Since pilot testing the
select phase of the ITIM process beginning in March 2002, the FBI has
used a concept paper along with the Exhibit 300 to identify and define
business needs. In addition, the FBI has defined its general business
needs and goals in its strategic plan, which is further discussed later in
this report. However, as previously mentioned, the FBI has not

            42
          An Exhibit 300 is a capital asset plan that must be prepared for major
projects and is submitted to the DOJ and OMB.


                                         - 47 -
identified all of its IT projects in an asset inventory; consequently,
progress in implementing this critical process is contingent upon
completing the FBI IT inventory. Also, we were not provided evidence
indicating that identified users participate in project management
throughout a project's life-cycle. The following table summarizes the
key practice ratings for the business needs identification critical
process.

  FBI Progress Toward Identifying its Business Needs
                   (Critical Process #4)

                                                  Key Practice Key Practice
                                                   Execution      Execution
                                                 Status Prior to Status as of
              Key Practice                        March 2002      June 2002
Organizational Commitment 1. The
organization has written policies and
procedures for identifying the business needs
(and the associated users) of each IT project.   Not Executed    Not Executed
Prerequisite 1. Adequate resources are
provided for identifying business needs and
associated users.                                Not Executed    Not Executed
Prerequisite 2. The organization has defined
business needs or stated mission goals.          Executed        Executed
Prerequisite 3. IT staff are trained in
business needs identification.                   Not Executed    Not Executed
Prerequisite 4. All IT projects are identified
in the IT asset inventory.                       Not Executed    Not Executed
Activity 1. The business needs for each IT
project are clearly identified and defined.      Not Executed    Executed
Activity 2. Specific users are identified for
each IT project.                                 Executed        Executed
Activity 3. Identified users participate in
project management throughout a project's
life-cycle.                                      Not Executed    Not Executed

      Source: OIG analyses

a. The FBI has Executed Three of the Eight Key Practices
   Required to Identify its Business Needs and Associated
   Users

      We determined that the FBI has executed three of the eight key
practices associated with this critical process. Specifically, the FBI has
defined its business needs or stated mission goals (Prerequisite 2); the
business needs for identified IT projects are clearly identified and




                                      - 48 -
defined (Activity 1); and specific users are identified for each IT
project (Activity 2).

      Regarding Prerequisite 2, we determined that the FBI has
defined business needs or stated mission goals. The FBI has stated
mission goals in its strategic plan. The FBI’s strategic plan has not
been updated since 1998, but the Director has revised the priorities of
the Bureau since the terrorist attacks on September 11, 2001.
Further, the FBI is currently in the process of developing an enterprise
architecture framework, which will link the FBI’s strategic plan to its
business needs.

       Regarding Activity 1, we determined that the business needs for
each IT project are clearly identified and defined in the Exhibit 300.
Prior to the initiation of the ITIM pilot test in March 2002, the FBI did
not have adequate management controls in place to ensure that the
business needs for each project were accurately developed in the
Exhibit 300. With the ITIM process, the board reviews of the concept
papers and Exhibit 300s provided assurance that these business needs
were clearly identified and defined. In instances where the business
needs were vague, the boards, especially the Technical Review Board,
returned the concept papers and Exhibit 300s to the project sponsor
for re-work. This re-work demonstrates that board review of these IT
proposals was an effective control over the business needs
identification process. Our review of Exhibit 300s that were ultimately
recommended to the Executive Review Board for inclusion in the
FY 2004 budget cycle confirmed that business needs were clearly
identified and defined.

       Regarding Activity 2, the FBI identified specific users for each IT
project. Based on our reviews of several Exhibit 300s both before and
after the initiation of the ITIM process in March 2002, we determined
that the users for the IT project were identified and documented.

b. The FBI Must Execute Five of the Eight Key Practices
   Required to Identify its business Needs and Associated
   Users

      Although progress has been made in identifying its business
needs and associated users, the FBI has yet to execute five of the
eight key practices associated with this critical process. Specifically,
the FBI must ensure that:




                                  - 49 -
   •   it has formalized written policies and procedures for identifying
       the business needs (and the associated users) of each IT project
       (Organizational Commitment 1);

   •   adequate resources are provided for identifying business needs
       and associated users (Prerequisite 1);

   •   IT staff are trained in business needs identification
       (Prerequisite 3);

   •   all IT projects are identified in the IT asset inventory
       (Prerequisite 4); and

   •   identified users participate in project management throughout
       the project life-cycle (Activity 3).

       Regarding Organizational Commitment 1, we determined that
the FBI does not have written policies and procedures for identifying
the business needs (and the associated users) of each IT project. The
FBI has been defining business needs for IT projects in the
Exhibits 300 and related concept papers. The Post-Implementation
Review acknowledges that the FBI needs more formally developed
policies and procedures to support the ITIM process. By formalizing
these procedures in writing, the FBI reduces the risk that it will neglect
to perform this practice in the future.

       Regarding Prerequisites 1 and 3, FBI officials told us that
adequate resources were not allocated to identifying business needs
and associated users. Specifically, FBI officials from the Information
Resources Management Section told us that there has not been
sufficient resources dedicated to the ITIM process, including the
training of ITIM users. The importance of training ITIM users in the
many facets of the ITIM process cannot be underestimated. Part of
the required ITIM training must include the business needs
identification process. Examples of training in this critical process
include organizational requirements for ongoing education, rotation of
ITIM users through supported business units, and relevant conference
attendance. As previously mentioned, many ITIM users have only
received one training session on the FBI’s ITIM process. Additionally,
the FBI has not provided us with specific plans for future training
sessions that include business needs identification. As a result, these
key practices have not been executed.




                                   - 50 -
       The ITIM training that occurred in February 2002 provided only
an overview of the ITIM process, rather than role-specific training that
addressed the business needs identification. The Post-Implementation
Review stated that re-work of Exhibit 300s and concept papers were
required after these products were submitted to the ITIM program
office. This re-work was necessary because there was not a clear
alignment between the IT proposal and the FBI’s strategic goals.
Better training that included business needs identification may have
reduced some of the re-work. Further, a more clearly defined
enterprise architecture framework would have increased the IT staff’s
knowledge in business needs identification.

      Regarding Prerequisite 4, as previously mentioned, the FBI has
not completed its IT asset inventory. Identifying all projects in an IT
asset inventory is a fundamental step in having a fully developed
business needs identification process. The availability of this inventory
assists board members in recommending IT projects that support one
or more business needs or mission goals.

       Regarding Activity 3, FBI officials have acknowledged that
identified users do not consistently participate throughout the project’s
life-cycle. FBI officials informed us that not keeping IT system users
actively involved in the creation and implementation of IT projects is a
major factor in the development of multiple IT systems (including
ACS) that do not effectively meet user needs. When we asked the
former Chief Information Officer for other examples of systems that do
not effectively meet user needs, his response was “pick one.” Clearly,
this is a significant need that must be addressed by the ITIM process.
The DOJ’s System Development Life-Cycle requires user participation
throughout the life-cycle, but as we previously noted in this finding,
the System Development Life-Cycle is not used by the FBI on a
consistent basis. Board oversight of project teams should be required
to ensure that users are engaged throughout the project’s life-cycle.

      FBI officials told us that there has not been ample time since the
implementation of the Plan to adequately train its IT staff and board
members in business needs identification. A complete explanation as
to why the FBI did not have ample time for training was previously
discussed in section A.3 of this finding.

       Although FBI officials have told us that additional training for IT
staff and board members is expected to occur sometime in the future,
we were not provided evidence that shows there will be any training
specifically related to business needs identification. Further, we have


                                  - 51 -
not been provided with a timetable as to when this training will take
place. In addition, an effective business needs identification process
requires an organization to have a comprehensive IT portfolio and
enterprise architecture, neither of which the FBI currently has. Our
assessment of the FBI’s efforts to implement a basic enterprise
architecture is discussed later in this report.

       Without a comprehensive business needs identification process,
FBI management and board members do not have adequate assurance
that they are selecting IT projects that align with mission needs and
priorities. Additionally, projects under development are at risk of not
meeting the needs of users, as has been the case with ACS and other
FBI systems.

c.       Recommendations

         We recommend that the Director of the FBI ensures:

11. Written policies and procedures are developed for identifying the
    business needs (and the associated users) of each IT project
    (Organizational Commitment 1).

12. Adequate resources are allocated to train ITIM users in identifying
    business needs and associated users (Prerequisites 1 and 3).

13. Identified users participate in project management throughout a
    project's life-cycle (Activity 3).

(7) Critical Process #5: IT Proposal Selection

       The proposal selection critical process establishes a structured
methodology for selecting new IT proposals. The FBI should have this
critical process fully implemented to ensure that it selects the most
meritorious IT proposals to meet its mission critical needs. According
to the Framework, this critical process requires:

     •   designating an official to manage the proposal selection process;

     •   using a structured process to develop new proposals;

     •   making funding decisions based on an established process; and

     •   analyzing and ranking new IT proposals against criteria that
         includes cost and schedule data.


                                   - 52 -
The following table summarizes the key practice ratings for the
proposal selection critical process.

   FBI Progress Toward Establishing an IT Proposal Selection
                 Process (Critical Process #5)

                                             Key Practice     Key Practice
                                              Execution        Execution
                                            Status Prior to   Status as of
            Key Practice                     March 2002        June 2002
 Organizational Commitment 1.
 Executives and managers are committed
 to follow an established selection
 process.                                   Not Executed      Executed
 Organizational Commitment 2. An
 official is designated to manage the
 proposal selection process.                Not Executed      Executed
 Prerequisite 1. Adequate resources
 are provided for proposal selection
 activities.                                Not Executed      Not Executed
 Activity 1. The organization uses a
 structured process to develop new IT
 proposals.                                 Not Executed      Executed
 Activity 2. Executives analyze and
 prioritize new IT proposals according to
 established selection criteria.            Not Executed      Executed
 Activity 3. Executives make funding
 decisions for new IT proposals according
 to an established process.                 Not Executed      Executed

       Source: OIG analyses

a. The FBI Has Executed Five of the Six Key Practices
   Associated With Establishing an IT Proposal Selection
   Process

      As previously discussed, the FBI pilot tested its ITIM proposal
process in March 2002. The Plan outlined a conceptual framework for
selecting projects, while subsequent documents further defined the
process. We determined that the FBI has executed five of the six key
practices associated with this critical process. The five key practice
are:

   •   FBI managers are committed to follow an established selection
       process (Organizational Commitment 1);



                                     - 53 -
   •   an official is designated to manage the proposal selection
       process (Organizational Commitment 2);

   •   the FBI uses a structured process to develop new IT proposals
       (Activity 1);

   •   FBI managers analyze and prioritize new IT proposals according
       to established selection criteria (Activity 2); and

   •   executives make funding decisions for new IT proposals
       according to an established process (Activity 3).

      Regarding Organizational Commitment 1 and Activity 1, we
concluded that in pilot testing its proposal selection process in
March 2002, FBI managers were committed to and followed an
established selection process for the FY 2004 budget cycle.

       Prior to the initiation of the ITIM process in March 2002, the FBI
did not have an established process for selecting IT proposals. Several
FBI officials told us that individual divisions determined their IT needs
in a “stovepipe,” without knowledge of the business needs and
priorities of the Bureau as a whole. Once each division decided on its
IT request, the request was forwarded to the Information Resources
Management Section for a “technical” review. This review, performed
by the Information Resources Management Section Chief, was
designed to ensure that the request was consistent with the FBI’s
existing IT infrastructure. However, without an established enterprise
architecture, the review could not adequately provide assurance that
the proposal aligned with the FBI’s business needs and priorities.

      Once approved by the Information Resources Management
Section Chief, the request was then forwarded to the Finance Division
to determine if similar requests for budget enhancements were
previously denied by Congress. Requests approved by the Finance
Division were forwarded to a committee comprised of executive
managers for final evaluation and selection. However, personnel from
the Finance Division told us that it was not uncommon for the IRD,
Laboratory, and CJIS Divisions to submit requests for IT projects that
were duplicative but were approved anyway. This indicates that the
Information Resources Management Section did not adequately
perform its role in overseeing IT proposals. Additionally, according to
FBI officials, the committee of executive managers did not have a
formalized charter, follow approved polices or procedures, or maintain



                                  - 54 -
documentation detailing committee activities. Therefore, the process
was not standardized or repeatable.

      With the initiation of the ITIM process in March 2002, the FBI
established a proposal selection process for the FY 2004 budget cycle.
IT proposals were developed by the project sponsor with a preliminary
feasibility analysis, referred to as a concept paper. The concept paper
was submitted to the Enterprise Architecture Technical Committee for
a preliminary technical review, and then forwarded to the
Technical Review Board with a recommendation as to whether the
project should be approved. Upon the Technical Review Board’s
approval, the project sponsor was asked to prepare a more
comprehensive business case analysis, which was documented in the
Exhibit 300. The project proposal package, which includes the concept
paper and Exhibit 300, was then submitted to the Project Oversight
Committee for a business review. The Project Oversight
Committee assembled the multiple requests and recommended a list
of projects for the Executive Review Board’s review. The
Executive Review Board selected projects for the FY 2004 budget
cycle. Because this process was documented in the Plan, and
enhanced with training materials, we concluded that the FBI effectively
established a selection process. The following flowchart outlines the
FBI's proposal selection process.




                                - 55 -
                           FLOWCHART OF FBI’S ITIM SELECT PHASE




                             IDEAfor
                            IT Initiative



                                                                                     Review for business                           TRB reviews
                        Project originator                                            alignment & vision                        Business Case and
                       develops a Concept                                                with the POC                              Updates CP
                             Paper                                                                          Revised CP              Dashboard
                                                                        Completed                           Dashboard
                                                            Stop         Concept
                                                                          Paper
           Partial                                                                                                    Business
          Concept                                                                    Concept                           Case
           Paper                                                                      Paper                         (Exhibit 300)
                                                                                    Dashboard
                       Project Sponsor fine
                      tunes Concept Paper                                                   Worth                                     POC review &
                       with support from IT                                              next level of                              prioritization of all
                                                               Stop          No
                       and Finance Teams                                                 investment?                                 Business Cases
                                                                                                              Project
                                                                                                            Summaries
          Completed
           Concept                                                                                                        Project
            Paper                                                                                                        Rankings
                                                                                                Yes
                           Division
                                               Rework




                                                                                                                               Submit prioritized list
                      management reviews
                                                                                                                               to ERB for review &
                        Concept Paper                                                  Project originator
                                                                                                                                    approval
                                                                                      develops Business
                                                                                      Case (Exhibit 300)



         Stop         No     Approve?

                                                        Project originator          Division management         Stop          No Approve?
                                                        modifies Business             reviews Business
          Completed
           Concept                                      Case (Exhibit 300)           Case (Exhibit 300)
            Paper                  Yes
                                                                                                                                            Yes


                       Review for project,
                                                                                                                                     Submit budget
                       technical, financial,
                                                                                                                                     enhancement
                         and security risk
                                                                   No                     Approve?                                      request
                       rating with the TRB
          Completed
           Concept
            Paper
                       Concept
                        Paper
                      Dashboard
                       (partial)




     Source: FBI’s training materials for the ITIM process as of
     February 2002.

      Regarding Organizational Commitment 2, prior to the initiation of
the select phase of its ITIM process in March 2002, the FBI did not
have a clearly designated official to manage the proposal selection
process. According to Information Resources Management Section
personnel, the Finance Division managed the IT selection process.
However, according to Finance Division personnel, the Information
Resources Management office was responsible for managing the
proposal selection process. With the onset of the ITIM process in
March 2002, the FBI’s Chief Information Officer appointed the ITIM


                                                                          - 56 -
Program Manager to manage the proposal selection process. This
official reports to the Information Resources Management Section
Chief, who reports to the Chief Information Officer.

      Regarding Activity 2, we determined that FBI IT investment
board members analyzed and prioritized new IT proposals according to
established selection criteria for the FY 2004 budget cycle. Projects
were prioritized according to three separate areas: (1) mission fit;
(2) technical criteria (including risk management and architectural
assessments); and (3) financial criteria (including performance
measures, cost/benefit analyses, and acquisition strategy).

      Regarding Activity 3, the three IT investment review boards
made funding decisions for new IT proposals according to a process
established for the FY 2004 budget cycle. The Executive Review
Board, chaired by the Director, had the final authority for making IT
funding requests to the DOJ. The Executive Review Board members
based their decisions upon recommendations made by the Technical
Review Board and the Project Oversight Committee. Based on the use
of an established process, this key practice has been executed.

b. The FBI Must Execute One Key Practice Associated With
   Establishing an IT Proposal Selection Process

      Although the FBI has made substantial progress in establishing
an IT proposal selection process for the FY 2004 budget cycle, in our
judgment it has yet to allocate adequate resources for comprehensive
proposal selection activities. Our conclusion is based upon the
following observations.

   •   The FBI pilot tested the selection process only for proposed
       budget enhancements for FY 2004 and not for projects already
       included in the base funding for IT.43 As a result, the selection
       process was not comprehensive because it did not include all
       FY 2004 funding for IT.

   •   Project sponsors had insufficient time to adequately document
       proposals in the concept paper and Exhibit 300. According to
       the FBI’s Post-Implementation Review of the pilot test, project
       sponsors had as little as three days to develop concept papers


       43
          Funding for IT projects comes from both base funding and enhancements.
Base funding is usually the prior fiscal year’s budget allocation. Enhancements are
additions to the prior fiscal year’s base that are sought to fulfill certain priorities.


                                         - 57 -
      and Exhibit 300s used in the IT proposal selection process. FBI
      officials told us that it can take over a month to adequately
      prepare a comprehensive business case analysis (Exhibit 300).
      As a result of the time constraints, the Post-Implementation
      Review stated that concept papers, Exhibit 300s, and IT proposal
      summaries were submitted with gaps and omissions in areas
      such as: (1) aligning proposed activity with the FBI’s strategic
      goals, (2) technical details, (3) acquisition and performance
      management approaches, (4) resource requirements and
      commitments, (5) expected levels of return-on-investment, and
      (6) security.

  •   According to the Post-Implementation Review of the pilot test,
      the boards and project sponsors did not maximize the use of
      subject matter experts to facilitate the proposal selection
      process. Additionally, according to the Post-Implementation
      Review, project owners did not adequately consult with internal
      staff in various divisions when preparing their IT proposals.

  •   Finally, the ITIM Program Manager, appointed in February 2002,
      was not provided any staff to assist her (other than contractor
      support). FBI officials stated to us in the self-assessment that
      the insufficient staffing is the number one challenge to
      implementing the ITIM process. Additionally, according to the
      Post-Implementation Review, the ITIM Program Office did not
      have sufficient staffing to sustain the ITIM process. Specifically,
      the Post-Implementation Review recommends two additional
      full-time employees to be added immediately, with an eventual
      goal of having at least six full-time employees in the ITIM
      Program Office. ITIM staffing is necessary to facilitate
      communications between the boards, project owners, and
      divisions. Clearly, adequate staffing for the ITIM Program Office
      is essential to successfully implement the ITIM process.

       Without a comprehensive proposal selection process that
includes adequate resources and training, the FBI cannot ensure that it
is selecting the best IT projects that meet mission-critical needs.




                                 - 58 -
c.   Recommendations

     We recommend that the Director of the FBI ensures:

14. The ITIM process applies to all IT project proposals, including
    proposals that are funded through the FBI’s base funding.

15. Sufficient staffing is provided to the ITIM Program Office, as
    recommended in the Post-Implementation Review.

(8) Overriding Cause for the Lack of an FBI IT Investment
    Management Foundation

       Although the GAO ITIM Framework was originally published in
May 2000, the underlying key practices needed to implement each
critical process are, in essence, tasks that are fundamental to any
project management endeavor. Some of these tasks include the
prerequisite conditions that must be in place in an organization to
successfully implement critical processes. These tasks involve
allocating resources, establishing organizational structures, and
providing training. Another group of tasks include the organizational
commitments that ensure critical processes will endure. These tasks
involve establishing organizational policies and engaging senior
management sponsorship. A third group of tasks include the activities
necessary to implement the critical processes. These tasks involve
establishing procedures, performing and tracking the work, and taking
corrective actions as necessary.

       Although these tasks are fundamental to effective project
management, the majority of these tasks had not been executed by
the FBI to select and manage its IT resources. Prior to the
development of its ITIM process in early 2002, the FBI did not give
sufficient attention to IT investment management. Organizational
policies were not clearly established to ensure that critical IT
investment policies endure. Additionally, there were no clearly
defined, uniform procedures for project management, tracking project
performance, and taking corrective actions as necessary.

      Because the FBI did not fully implement any of the critical
processes associated with Stage Two, the FBI continues to spend
hundreds of millions of dollars on IT projects without having adequate
selection and project management controls in place to ensure that IT
projects will deliver their intended benefits. However, the FBI has
made progress in improving its IT investment process since it initiated


                                 - 59 -
a new ITIM process in early in 2002. Although further action is
required, the launching of the ITIM process represents improvement in
the FBI’s ability to mitigate the risks that IT projects will not deliver
their intended benefits. Whether the FBI can achieve further
improvement depends on whether the Plan addresses the remaining
key practices not being executed as well as the FBI’s ability to
completely implement the Plan and fully establish its ITIM process.

B. The FBI’s Ability to Improve its IT Investment Practices

       As previously noted, the FBI lacks a foundation necessary to
build its IT investment capabilities, and therefore, is in Stage One
maturity. However, in January 2002, the FBI developed an ITIM plan
to build a foundation for selecting, controlling, and evaluating IT
investments. Additionally, during the course of our audit fieldwork
(from January 2002 to June 2002), the FBI initiated its ITIM process,
as defined by the Plan. Consequently, the FBI made progress towards
implementing the Plan, especially in the area of IT proposal selection.

      Because the FBI was only in the beginning stages of
implementing the Plan during our audit fieldwork, we assessed the
FBI’s ability to progress through the more advanced stages of the
framework necessary to improve its IT investment maturity. Our
assessment of the FBI’s ability to improve its IT investment
management consisted of the following four areas:

      1.   the Plan’s coverage of Stage Two key practice activities
           that were not being executed during our fieldwork –
           necessary to determine adequacy of the Plan;

      2. the amount of participation from ITIM users in developing
         the ITIM process – necessary to determine buy-in to the
         process;

      3. the support from the project management function –
         necessary to execute the control and evaluate phases of
         the ITIM process; and

      4. the support from the enterprise architecture function –
         necessary to advance through the maturity stages of the
         Framework.

      Our evaluation of these four areas, documented in the following
sections, includes both the FBI’s strengths and weaknesses in each


                                  - 60 -
area. In our judgment, the FBI’s efforts in these areas are critical to
its ability to maximize the effectiveness of its ITIM process, and
ultimately improve mission performance.

(1) The Plan’s Coverage of Stage Two Key Practice Activities
    That Were Not Being Executed During Our Fieldwork

      The FBI’s IT Investment Management Model and Transition Plan
addresses the select, control, and evaluate key practice activities
necessary to build an IT investment foundation. However, the Plan
requires further development to ensure effective implementation.
Because the Plan was intended to be a conceptual framework, it was
not written to fully describe the specific policies and procedures of the
select, control, and evaluate phases of the ITIM process. Without
further development of the ITIM process, the FBI will have difficulty
making additional progress in improving its IT investment
management practices, especially in the control and evaluate phases.

a.   Importance of the Plan’s Coverage of Stage Two Key
     Practice Activities

      Because the Plan stated that its purpose is to establish and
define the FBI’s Stage Two methodology necessary to build an IT
investment foundation, we examined the Plan’s coverage of Stage Two
key practice activities. The FBI was pilot testing the select phase of
the ITIM process during our audit fieldwork. As previously noted, we
determined that the FBI executed 14 of 38 Stage Two key practices,
mainly in the area of proposal selection. Of the 24 key practices that
were not executed, 11 specifically related to activities associated with
the control and evaluate phases of the ITIM process. Although the FBI
had made little progress in executing activities from the control and
evaluate phases of the Plan during our fieldwork, we examined the
Plan to determine whether it adequately addressed the 11 Stage Two
key practices activities associated with the control and evaluate phases
that were not being executed. The ability of the FBI to achieve Stage
Two maturity is dependent, in part, on the adequacy of the Plan.

      In JMD’s assessment of the Plan, JMD rated the Plan against
elements it considered necessary to comply with GAO, OMB, and DOJ
guidelines. JMD’s assessment indicated that the Plan complied with
the criteria used.44 Additionally, JMD’s assessment stated that
although the Plan does not fully address a few items, such as the exact

      44
           JMD’s assessment of the Plan is contained in Appendix 4 of this report.


                                        - 61 -
criteria that will be used to select and evaluate investments, it does
provide a schedule for completing these items.

      Our assessment of the Plan focused on whether it addressed the
Stage Two maturity key practices in the GAO ITIM Framework and our
conclusions are consistent with those from JMD.

b. Results of Our Assessment of the Plan’s Coverage of Stage
   Two Key Practice Activities Associated with the Control and
   Evaluate Phases

       In our judgment, the FBI’s IT Investment Management Model
and Transition Plan addresses the 11 Stage Two key practice activities,
on a conceptual level, that were not being executed during our
fieldwork. Because the key practice activities are addressed
conceptually, further development is needed to clearly define these
activities and to determine how these activities can be implemented.

       Our analyses (previously documented in this report) indicated
that the FBI was not executing one or more key practice activities in
each of the following Stage Two critical processes: (1) IT investment
board operation; (2) IT project oversight; (3) IT project and system
identification; and (4) business needs identification. As previously
discussed, 11 of the key practice activities necessary to implement
these four critical processes relate to the control and evaluate phases
of the Plan. The tables below describe how the Plan addresses the key
practice activities that we determined were not being executed during
our audit testing.




                                 - 62 -
               IT Investment Board Critical Process
 Key Practice Activity Not Executed      How the Plan Addresses the Activity
Activity 2: Each IT investment board     While the Plan does not provide the
operates according to written policies   specific written policies and procedures
and procedures in the organization-      that the investment boards must
specific IT investment process guide.    follow, it does indicate that further
                                         development of these policies and
                                         procedures are necessary.
                                         Additionally, the Post-Implementation
                                         Review of the select phase of the ITIM
                                         pilot test recommends that additional
                                         policies and procedures be developed
                                         in a document that is independent of
                                         the Plan. Once the FBI’s ITIM policies
                                         are completely developed, this key
                                         practice can be executed when the FBI
                                         rolls-out the control and evaluate
                                         phases of the ITIM process.


     Source: OIG analyses




                                    - 63 -
                 IT Project Oversight Critical Process

 Key Practice Activity Not Executed        How the Plan Addresses the Activity
Activity 1: Each project's up-to-date       The Plan stipulates that the
cost and schedule data are provided to the functioning project management
appropriate IT investment board.            office will review status reports on
                                            cost, schedule, and performance
                                            measures. The project management
                                            office will then forward selected
                                            reports to the boards for review.
Activity 2: Using established criteria, the The Plan states that the Project
IT investment board oversees each IT        Oversight Committee will ensure that
project's performance regularly by          selected projects are meeting
comparing actual cost and schedule data     performance measurement objectives,
to expectations.                            risks are being appropriately
                                            managed, budgets and schedules are
                                            on track, and resource levels are
                                            adequate.
Activity 3: The IT investment board           According to the Plan, the Project
performs special reviews of projects that     Oversight Committee will perform
have not met predetermined performance        special reviews of projects whose
standards.                                    status reports are not meeting
                                              predetermined performance standards.


Activity 4: Appropriate corrective actions    The Plan states that the Project
for each under-performing project are         Oversight Committee will review a
defined, documented, and agreed to by         portfolio status report to determine if
the IT investment board and the project       quick corrective actions can be
manager.                                      executed to get under-performing
                                              projects back on track. When this is
                                              not possible, appropriate
                                              recommendations will be made to the
                                              Executive Review Board.
Activity 5: Corrective actions are            The Plan gives the Project Oversight
implemented and tracked until the             Committee the responsibility to
desired outcome is achieved.                  ensure that corrective actions are
                                              implemented.

      Source: OIG analyses




                                     - 64 -
      IT Project and System Identification Critical Process

  Key Practice Activity Not Executed       How the Plan Addresses the Activity
Activity 1: The organization's IT projects The Plan states that an IT investment
and systems are identified and specific     portfolio will be built for development
information about these projects and        projects as the ITIM process is being
systems is collected in an inventory.       pilot tested. An IT portfolio is expected
                                            to be completed for the full-blown ITIM
                                            roll-out during the FY 2005 budget
                                            cycle.
Activity 2: Changes to IT projects and      FBI personnel told us that while there
systems are identified and change           is not a written procedure to
information is collected in the inventory.  document changes to IT projects and
                                            systems, a policy will be developed
                                            when the IT asset inventory is
                                            complete. The IT asset inventory will
                                            then be updated as changes are
                                            made to IT projects and systems.
Activity 3: Information from the            FBI personnel stated that the IT asset
inventory is available on demand to         inventory, when complete, will be
decision-makers and other affected          maintained on the FBI’s Intranet, so
parties.                                    that relevant information will be
                                            available on demand to decision-
                                            makers and other affected parties.

Activity 4: The IT project and system          FBI personnel stated that the IT asset
inventory and its information records are      inventory and IT portfolio, when
maintained to contribute to future             complete, will be updated continually
investment selections and assessments.         to become an archive of information
                                               to be used for future investment
                                               selections and evaluations.



     Source: OIG analyses




                                      - 65 -
            Business Needs Identification Critical Process
  Key Practice Activity Not Executed         How the Plan Addresses the Activity
 Activity 3: Identified users participate in  The Plan states that it is crucial for
 project management throughout a              project team members (which must
 project's life-cycle.                        include identified users of the project)
                                              to work closely together throughout
                                              the project’s life-cycle. These project
                                              teams support the functional project
                                              management office and Project
                                              Oversight Committee.


       Source: OIG analyses

       With the pilot testing of the select phase, the FBI further
developed and refined the proposal selection process and provided
training on proposal selection to ITIM users. The training materials
supplemented and supported the documentation in the Plan to more
clearly define the roles of ITIM users, such as IT investment review
board members, project sponsors, and ITIM liaison representatives.

      Even with these additional materials, the Post-Implementation
Review of the select phase of the Plan (performed by the ITIM
contractor) recommended that the FBI significantly expand its
documentation of polices and procedures relating to the ITIM process
by:

   •   explicitly defining the ITIM Program Office’s roles and
       responsibilities so that resources can be concentrated on
       enabling and facilitating the process as well as supporting the
       development of process input;

   •   developing and documenting detailed policy, processes, and
       procedures in a stand-alone document independent of the Plan;

   •   developing a formal ITIM training program that includes focused
       training on the roles of various ITIM users, including board
       members and ITIM liaison representatives;

   •   developing a formal communications plan to ensure all ITIM
       users are provided with visibility and timely feedback from the
       ITIM process; and




                                       - 66 -
   •    refining and expanding ITIM tools necessary to sustain the
        process, including an “IT investment proposal tracking
        management tool.”45

      The FBI recognized that the Plan was never intended to
represent its final policies and procedures for its ITIM process. The
Plan states that it provides a conceptual framework for achieving
Stage Two maturity, and will evolve as the FBI’s ITIM process
advances to higher levels of maturity.

       Without further development and refinement of the ITIM
process, the FBI will have difficulty making additional progress in
improving its IT investment management practices. Because the goal
of Stage Two maturity is to build standardized methodologies for
selecting and controlling IT investments, the FBI must have adequate
documentation of these methodologies to make them repeatable and
institutionalized. The Post-Implementation Review, prepared by the
ITIM contractor, acknowledged the necessity for further developing
and refining the Plan. In our judgment, the FBI must implement the
recommendations set forth in the Post-Implementation Review prior to
taking further action in pilot testing the control and evaluate phases of
the ITIM process.

c. Recommendation

       We recommend that the Director of the FBI ensure:

16. The recommendations set forth in the Post-Implementation
    Review relating to expanding the policies and procedures of the
    ITIM process are implemented.

(2) The Amount of Participation from ITIM Users in Developing
    the ITIM Process

     In our judgment, the Plan was written with minimal input
and coordination from relevant ITIM users. The main reason cited by




        45
         According to the Post-Implementation Review, this tool would formally
track and document the entire life-cycle of an IT investment proposal from the time
the ITIM Program Office receives a concept paper to the time the final disposition is
made.



                                       - 67 -
IRD officials46 for the limited participation from ITIM users was
insufficient time allotted to develop the Plan. As a result, the
institutionalization and buy-in47 of the ITIM process may have been
hampered.

a.    Importance of ITIM User Participation in Developing the
      ITIM Process

      Good management practices dictate that organizations involve
relevant stakeholders when attempting to implement a new
management process. This involvement aids in the institutionalization
of the process. Institutionalization of the ITIM process is a key goal of
the Plan, which states: “[The ITIM] process applies to ALL information
technology projects, from ALL business units, from ALL funding
sources, whether they be new, in development or operational.”

       Because of the broad applicability of the ITIM process, in our
judgment the FBI should have involved representatives from
throughout the Bureau when developing the Plan. In particular,
individuals from the three divisions that manage major IT projects
(the IRD, CJIS, and Laboratory Divisions) should have had substantial
input into the creation of the Plan. Further, the Inspection Division’s
Major Project Management Oversight Unit (MPMOU) has a
responsibility to oversee major projects in the Bureau, including IT
projects, and thus should also have been involved in creating the Plan.

b. Results of Our Assessment of ITIM User Participation in
   Developing the ITIM Process

       We found that relevant ITIM users from the IRD, CJIS Division,
Laboratory Division, and Inspection Division were not given significant
input into how the Plan was developed. Our interviews with IRD
personnel indicated that the FBI gave the ITIM contractor the primary
responsibility to write the Plan, without requiring significant
participation from ITIM users in developing the initial draft of the Plan.

       46
          The Information Resources Management Section, maintained within the IRD
until February 2002, was directed to oversee the development of the FBI’s ITIM
process. In February 2002, the Information Resources Management Section was
moved from the IRD to the Office of the Director. The ITIM Program Office was then
formed within the Information Resources Management Section to oversee the ITIM
process.
       47
          According to the Framework, institutionalization and buy-in of the ITIM
process is signified by ITIM users supporting and executing ITIM process activities.



                                       - 68 -
Additionally, we determined that while the contractor interviewed
numerous individuals from the IRD, it only interviewed two people
from the Inspection Division, one person from the CJIS Division, and
none from the Laboratory Division.48 Further, as we discuss below,
the enterprise architecture office (part of the IRD until February 2002)
was not given adequate input into the development of the ITIM
process. Also, the interviews that did occur outside of IRD mainly
focused on the individuals’ current responsibilities for managing IT
investments, rather than their insights into how the new ITIM process
could be shaped to best meet the needs of the Bureau. The following
paragraphs provide the perspectives of ITIM users from the IRD,
CJIS Division, Laboratory Division, and the Inspection Division.

       Personnel from the enterprise architecture office told us that
because the FBI’s ITIM process had been developing concurrently with
the enterprise architecture function, there should have been more
coordination between the ITIM contractor and enterprise architecture
office to increase effectiveness and reduce duplication of effort. For
example, the enterprise architecture office drafted charters for a
three-tiered IT investment review board structure, similar to what was
ultimately written by the ITIM contractor. Additionally, the enterprise
architecture office was preparing initiatives to improve the FBI’s IT
investment management practices. While the enterprise architecture
office was drafting board charters and other processes designed to
improve the FBI’s IT investment management practices, the ITIM
contractor, supervised by the ITIM Program Office, wrote the Plan
without incorporating the work already accomplished by the enterprise
architecture office.

       Additionally, an individual from the enterprise architecture office
told us that although he believed the ITIM process represents a
positive step for the FBI, it must incorporate more involvement from
the enterprise architecture function to ensure success of the process.
He further stated that the IT investment review boards must rely more
on the vast knowledge, expertise, and talents of FBI IT personnel prior
to making decisions.

      Further, according to a manager in the Information Resource
Management Section, the Enterprise Architecture Technical
Committee, which supports the Technical Review Board, has not been
given the responsibility to ensure that IT proposals align with the

       48
          The ITIM Program Office has the ultimate responsibility for directing the
actions of the ITIM contractor.


                                        - 69 -
mission of the FBI. The responsibilities of the Technical Review Board,
as defined in the Plan, are focused on reviewing the technical risks of
IT projects. These technical risks include compliance with the
“technical architecture” or configuration management of the FBI,
rather than the business architecture which shows how the business
processes work together to satisfy the mission. The Plan and board
charters assigned this responsibility to the Project Oversight
Committee. In our judgment, because the responsibilities of the
enterprise architecture office comprise both the technical and business
architecture, the Enterprise Architecture Technical Committee should
not only be responsible for assessing compliance with the technical
architecture, but should also be responsible for assessing compliance
with the business architecture. This added responsibility would
provide greater assurance to FBI executives that IT proposals selected
will enhance the Bureau’s capability in achieving its mission.

      An official from the CJIS Division told us that he was interviewed
by representatives from the ITIM contractor on one occasion to
determine what role the CJIS Division had in managing IT projects.
However, he was not consulted on how the FBI’s ITIM process should
be created. He stated the only opportunity he had to comment on the
Plan was after it was written in January 2002. His belief was that the
ITIM Program Office was relying solely on the contractor to write the
Plan, rather than building a Plan that has the input and buy-in from all
FBI divisions.

       While this official from the CJIS Division said to us that the Plan
was an improvement over the FBI’s current process for managing IT
investments, he was not convinced that the process could be
effectively implemented without addressing other pressing issues, such
as the need for: (1) standardized methodologies in configuration
management, quality assurance, and IT security; (2) improved support
of contractors that work on IT systems; and (3) more representation
of individuals with IT technical expertise on the IT investment review
boards.

       An official from the Laboratory Division’s project management
office told us that he first became aware of the Plan when training was
announced for the new ITIM process in February 2002. Another
official from the Laboratory Division told us that to his knowledge, no
one from the Laboratory Division was consulted by the ITIM contractor
prior to the preparation of the Plan. He told us that the Laboratory
Division’s current process was working fine and not in need of change.



                                  - 70 -
      Additionally, Inspection Division personnel, including individuals
from the MPMOU, told us (as of June 2002) they were only consulted
by the ITIM contractor as to how they acquired IT, not for their project
oversight role.

        An official from the Information Resources Management Section
cited the insufficient amount of time allotted to prepare the Plan as the
main cause for the limited involvement from ITIM users. As we
previously mentioned, the FBI waited until December 2001 to engage
the ITIM contractor to develop the Plan, despite learning of the DOJ’s
requirements to prepare a plan in January 2001. The ITIM Program
Office Manager stated that the former Chief Financial Officer did not
initially approve the use of an outside contractor to develop the Plan,
causing a delay in hiring the contractor. The former Chief Financial
Officer confirmed to us that there were initial concerns in using an
outside contractor to develop a management process that affects how
the IT budget is allocated and spent. Because the DOJ required
initiation of the ITIM process during the FY 2004 budget cycle (which
for the FBI begins in March), there was limited time between the
development of the Plan (December 2001) and the initiation of the ITIM
process (March 2002). In fact, the FBI only gave the contractor
approximately two weeks to write the Plan because of the impending
deadline to submit the Plan to JMD. As a result, FBI personnel told us
that the ITIM contractor did not have ample time to include more ITIM
users in the Plan’s development.

       While FBI officials from the Information Resources Management
Section acknowledged the ITIM contractor’s time constraints in
developing the Plan, they also stated that the Plan is only a draft, and
will be modified as the ITIM process is pilot tested. Additionally,
because the three IT investment review boards established by the ITIM
process include representatives from the major divisions that manage
IT projects, officials from the Information Resources Management
Section told us that there is significant opportunity for input into
refining the ITIM process as it is being pilot tested.

       Despite the Information Resource Management Section’s position
that the pilot test provides ample opportunity for input into refining the
ITIM process, in our judgment, the ITIM Program Office, along with the
ITIM contractor, continues to develop the ITIM process without
incorporating sufficient input from relevant stakeholders. For example,
a manager from the enterprise architecture office stated to us in
July 2002 that the ITIM Program Office had not requested his
participation during development of the control phase of the ITIM


                                  - 71 -
process. This individual told us the enterprise architecture function
should have a role in enhancing the control and evaluate phases of the
ITIM process, but has not had the opportunity to demonstrate this role.
Additionally, the process for the development of the control phase has
not substantially changed from the select phase: the ITIM contractor,
supervised by the ITIM Program Office, writes the policies and
procedures which are then pilot tested by the ITIM users. In our
judgment, this approach is not conducive to a process whose success
depends on institutionalization and buy-in from ITIM users.

c. Summary

       In our judgment, the lack of involvement by relevant ITIM users
inhibits management buy-in to the ITIM process. If there had been
more participation in the development of the Plan, some of the
concerns stated above by key ITIM users might have been mitigated.
The FBI must address these concerns to facilitate the
institutionalization and buy-in the of the ITIM process, and ultimately
improve its effectiveness.

d. Recommendations

      We recommend that the Director of the FBI ensure:

17. The ITIM Program Office and the ITIM contractor incorporate the
    input from various ITIM users, including those from the
    enterprise architecture office, the CJIS Division, the Laboratory
    Division, and the Inspection Division as the control and evaluate
    phases of the ITIM process are being developed and refined. This
    input should be solicited through working group sessions
    scheduled on a periodic basis.

18. The ITIM process is modified so that the Technical Review Board
    and Enterprise Architecture Technical Committee perform a
    business architecture compliance review of IT project proposals to
    ensure these proposals support the mission of the FBI.

(3) The Project Management Function’s Support of the ITIM
    Process

      The FBI’s project management function needs improvement to
adequately support the ITIM process, especially in the control and
evaluate phases of the process. The FBI recognizes the importance of
upgrading the project management function. In particular, the Plan


                                 - 72 -
states that the project management office must fulfill a critical role in
supporting the Project Oversight Committee. In addition to the Plan,
the FBI has taken other steps towards improving its project
management function. Specifically, in June 2002, the FBI announced
plans to create an Office of Programs Management. The Office of
Programs Management will serve as a centralized project management
office49 that FBI officials from this office and the Information Resources
Management section expect to play a key role in implementing the
ITIM process. Despite the progress being made, the FBI still has
critical areas to address, such as integrating a project management
methodology with its ITIM process.

a.   Relationship Between Project Management and ITIM

       Numerous legislative mandates, including the Results Act and
the Clinger-Cohen Act, require federal agencies to establish and
maintain processes for managing systems throughout their life-cycle.
These legislative mandates indicate that basic project management
practices are essential if an organization is to ensure that its IT
projects have established cost, schedule, and technical performance
baselines that are monitored throughout the project’s life-cycle.
Additionally, project management is fundamental to supporting an
ITIM process. In particular, the control phase of an ITIM process
requires an organization to have a project management function. For
example, IT project oversight, which encompasses basic project
management practices, must be implemented for an organization to
achieve Stage Two maturity. However, the Framework does not by
itself provide a comprehensive model for how an organization should
develop its project management function.

      According to the Framework, an ITIM process is not a substitute
for good project management. While an ITIM process takes an
enterprise-wide focus, good project-level management forms the
foundation for successful IT investments.

       In our judgment, for the FBI’s project management function to
effectively support its ITIM process, the Bureau must have: (1) a fully
operational centralized project management office whose
responsibilities are directly integrated with the ITIM process, and
(2) a standardized project management methodology that is

       49
          In this context, a centralized project management office is independent of
any division. As a result, the Project Management Executive, who heads the Office
of Programs Management, reports to the Director.



                                       - 73 -
integrated with the ITIM process. Because of the importance of these
efforts, we assessed the FBI’s progress in integrating these areas with
its ITIM process.

b. Importance of a Centralized Project Management Office

      The Plan recommends that project teams be staffed from a
“pool” of managers and developers maintained in the project
management office. These project teams would not be dedicated to
solely one division, function, or application; instead, these teams
would work on all types of IT projects across the Bureau. According to
the Plan, this approach has many benefits, including:

     •    critical IT skills are available across all projects;

     •    personnel have more opportunities to work in multiple
          environments, which creates a richer, more interesting job
          environment;

     •    expertise across projects enhances and encourages the use of
          best practices; and

     •    managers are better able to assess IT personnel as they perform
          in multiple project environments.

      We concur with the Plan’s recommendations. Although the Plan
does not specifically state that the project management office should
be centralized (independent of any division), in our judgment, such a
structure is most conducive to attaining the benefits listed above.

      In addition to the above benefits, a centralized project
management office can ensure that IT project teams are following a
standardized project management methodology that is integrated with
the ITIM process. In our judgment, this added control is especially
important to the FBI since we previously concluded that the FBI’s three
main divisions that manage IT projects (the IRD, CJIS, and Laboratory
Divisions) have not been consistently using a standardized project
management methodology.

c.       Importance of a Standardized Project Management
         Methodology

    The DOJ recognized the importance of integrating project
management with the ITIM process. In January 2001, it issued DOJ


                                       - 74 -
Order 2880.3 to require components to manage IT investments in a
way that demonstrates good stewardship, complies with applicable
laws, and accomplishes the agency’s diverse mission. Among its
policies, the Order required each DOJ component to establish an ITIM
process that is integrated with a structured system development life-
cycle methodology. While the FBI is mandated to use the DOJ’s
System Development Life-Cycle methodology, we previously stated in
this report that it has not been used consistently.

d. Results of Our Assessment of the FBI’s Progress in
   Integrating its ITIM Process with the Responsibilities of a
   Centralized Project Management Office

      As discussed below, we concluded that the FBI has recently
made progress in integrating its ITIM process with the responsibilities
of a centralized project management office. Not only does the FBI
recognize the importance of this integration, but it has taken major
steps towards incorporating the ITIM process with the responsibilities
of a centralized project management office. This progress was
evidenced by: (1) how the Plan defined the role of the project
management function, and (2) the FBI’s recent efforts to establish a
centralized project management office.

      The Plan recommends centralization of IT investment
management through the use of IT investment review boards that
have Bureau-wide oversight. Of the FBI’s three IT investment review
boards, the Project Oversight Committee has the primary responsibility
for controlling IT projects. Additionally, the Plan calls for a project
management office, a subcommittee of the Project Oversight
Committee, to have discretion in managing IT projects Bureau-wide.

      Specifically, the Plan defines how the primary responsibilities of
the project management office must be integrated with the activities
of the ITIM process, particularly during the control and evaluate
phases. These responsibilities include:

   •   ensuring that resources, funding, and schedule timeframes are
       reasonable for each individual project;

   •   determining what staff and funding are needed for a project, and
       assigning staff and funding accordingly;




                                 - 75 -
   •   providing advice and counsel to internal project teams in the
       execution of ITIM activities;

   •   providing a consistent set of project management tools and
       processes for ITIM projects;

   •   providing tools to project team members, such as Gantt charts,
       Pertt charts, and Microsoft Project;

   •   providing governing responsibility and oversight to day-to-day
       project managers; and

   •   determining whether project goals are achieved on time, on
       budget, and as designed.

       We were told in June 2002 that the Director of the FBI approved
the creation of a centralized project management office, whose chief
executive would report to the Director.50 This project management
office, which would be independent of all other FBI divisions, would
have the primary responsibility of managing projects in the Bureau.
These projects would include, but not be limited to, information
technology. The proposed mission for this new office is: “To assist the
FBI in effectively managing, implementing, and deploying high-
priority, complex and high risk development projects of high dollar
value to successfully support the FBI’s operational mission.” To
achieve this mission, this office will be:

   •   developing a repeatable process for the efforts described in the
       mission statement (defined above) and for training a skilled
       corps of FBI project management subject matter experts;

   •   advising on program management and acquisition-planning
       related organizational issues, proposals, and strategies;

   •   providing direct project management support in developing the
       crucial technology infrastructure for FBI investigation operations;
       and

   •   coordinating organizational resource allocation and management
       services and supporting the FBI’s mission and priorities.


       50
          The FBI is calling this office the “Office of Programs Management.” As
planned by the FBI, this office will be under the Director’s office and independent of
any division.


                                        - 76 -
      In addition, the Office of Programs Management has the
following core functions for which it will ultimately be responsible:
(1) system engineering, (2) schedule, (3) budget, (4) risks,
(5) contract management, (6) certification and accreditation of IT
systems, (7) configuration management, and (8) quality assurance.

       In our judgment, the creation of the Office of Programs
Management represents a critical first step towards centralizing the
project management function and improving its effectiveness.
Additionally, officials from the Information Resources Management
Section and the Office of Programs Management have told us that they
are working together to facilitate the integration of the responsibilities
of the eight core functions listed above. The ITIM process needs the
full support of the Office of Programs Management to implement the
control and evaluate phases of the Plan. Therefore, in our judgment,
the FBI should continue its efforts to integrate the responsibilities of
the Office of Programs Management with the ITIM process.
Specifically, a plan should be developed that outlines activities that
must be performed to complete the integration, along with reasonable
suspense dates. Additionally, this plan should provide the criteria and
thresholds that the Office of Programs Management will use to select
IT projects for review.

e. Results of Our Assessment of the FBI’s Progress in
   Integrating its ITIM Process with a Standardized Project
   Management Methodology

       We concluded that the FBI has not taken the necessary actions
to integrate the ITIM process with a standardized project management
methodology. While officials from the Information Resources
Management Section have acknowledged to us that the ITIM process
needs to be integrated with a standardized project management
methodology, they have not taken sufficient action to ensure that
these processes are integrated in a timely manner. This conclusion is
evidenced by the Information Resources Management Section’s lack of
coordination with the Inspection Division’s Major Project Management
Oversight Unit (MPMOU), as previously reported in this section.
Additionally, as discussed in the following paragraphs, the FBI risks
duplicating efforts in managing IT projects if it implements the control
and evaluate phases of the ITIM process without integrating these
phases first with a standardized project management methodology.




                                  - 77 -
      To improve the FBI’s ability to manage projects, including IT
projects, the prior FBI Director requested that the MPMOU establish a
standardized project management methodology for Bureau-wide use.
In October 2001, the MPMOU completed the Project Management
Process and submitted it to executive management for approval. The
Project Management Process, which incorporates the DOJ’s System
Development Life-Cycle methodology, provides a framework that
encompasses all phases of a project’s life-cycle, including planning,
developing, support, and disposal.

      Personnel from the MPMOU stated to us that the Project
Management Process provides a mechanism to fulfill certain
requirements of the ITIM process. Specifically, personnel from the
MPMOU told us that the project management process facilitates the
ITIM process by:

  •   providing documentation to support investment decisions that
      span the life-cycle of the IT investment;

  •   providing a select, control, evaluate approach to managing
      validated IT needs;

  •   providing quantifiable measurements for monitoring cost,
      schedule, and performance baselines and processes for
      identifying baseline breaches;

  •   providing an executive oversight forum for monitoring the
      management of IT investments; and

  •   acknowledging the interdependencies between cross-cutting
      processes.

      According to MPMOU personnel, given their knowledge of the
FBI’s requirement to develop an ITIM process, they made repeated
attempts beginning in 2001 to work with individuals from the
Information Resources Management Section to develop these
processes concurrently.

      In November 2001, personnel from the MPMOU prepared a
presentation entitled “Project Management Process Compatibility with
the ITIM Process” to show appropriate individuals from the IRD the
similarities between the two processes. However, according to MPMOU
personnel, individuals from the IRD who were managing the
development of the ITIM process never gave MPMOU the opportunity


                                - 78 -
to make their presentation. In April 2002, after the development and
initiation of the ITIM process, the MPMOU sent an electronic
communication to the Director’s office explaining the need to integrate
these processes. The electronic communication stated that integration
of these processes would improve efficiencies, streamline reporting
and paperwork requirements, and improve the FBI’s compliance with
applicable regulations, including DOJ Order 2880.3. As of
June 2002, no additional action had been taken by the Information
Resources Management Section to integrate these processes.

       Despite the efforts by the MPMOU to integrate the two
processes, the Information Resources Management Section (with the
support of the ITIM contractor) developed and began implementation
of the FBI’s IT Investment Model and Transition Plan without
attempting to integrate it with the Project Management Process. Until
the FBI integrates these two processes, the FBI will not be in
compliance with DOJ Order 2880.3. Additionally, the FBI will be
unable to effectively implement the control phase and evaluate phases
of the ITIM process. Further, the FBI risks inefficient use of resources
as a result of the duplication of efforts that could occur if the FBI fails
to integrate these processes. FBI officials from the Information
Resources Management Section have acknowledged to us that they
must integrate the control and evaluate phases of the ITIM process
with a standardized project management methodology. Despite their
recognition of this need, as of June 2002 they did not have the details
of how or when this will occur.

f. Summary

       Although the FBI has taken a critical first step in (1) centralizing
its project management structure, and (2) incorporating the
responsibilities of the Office of Programs Management with the ITIM
process, the FBI must take further action in integrating its ITIM
process with a standardized project management methodology.
Without this further action, the FBI’s project management function will
not adequately support the ITIM process. Consequently, the FBI risks
ineffective execution of its control and evaluate phases as well as
inefficient use of resources in managing its IT investments.




                                  - 79 -
g. Recommendations

      We recommend that the Director of the FBI ensure:

19.   The FBI prepares a plan that specifically details how the project
      management office will support the ITIM process. This plan
      should include the project management office’s criteria and
      thresholds for: (a) selecting IT projects to manage, and
      (b) identifying projects that the Project Oversight Committee will
      review.

20.   The FBI develops and implements a specific plan detailing how
      and when it will integrate the ITIM process with a system
      development life-cycle methodology such as the Project
      Management Process.

(4) The Enterprise Architecture Function’s Support of the ITIM
    Process

      The FBI’s enterprise architecture function needs improvement to
adequately support the ITIM process. The FBI has taken a critical first
step in establishing an enterprise architecture framework with a
limited amount of time and resources dedicated to this effort. Despite
the progress being made, the lack of a fully developed enterprise
architecture framework will hamper the FBI’s ability to advance
through the ITIM maturity framework.

a.    Importance of Having Support from the Enterprise
      Architecture Function

      Enterprise architecture is the organization-wide blueprint that
defines an entity’s functions and systems, including IT systems. It
provides a comprehensive view (through models, narratives, and
diagrams) of the interrelationships of an organization’s operations and
structures and how these structures align with the organization’s
mission. The Clinger-Cohen Act of 1996 recognizes the
interrelationship between enterprise architecture and IT investment
management by requiring federal agencies to develop an enterprise
architecture.




                                 - 80 -
     In a review of enterprise architecture use in the federal
government, the GAO stated in its February 2002 report:51

      The architecture describes the enterprise’s operations in
      both (1) logical terms, such as interrelated business
      processes and business rules, information needs and flows,
      and work locations and users, and (2) technical terms,
      such as hardware, software, data, communications, and
      security attributes and performance standards. It provides
      these perspectives both for the enterprise’s current or
      “as is” environment and for its target or “to be”
      environment, as well as a transition plan for moving from
      the “as is” to the “to be” environment. Enterprise
      architecture development, implementation, and
      maintenance is a basic tenet of effective IT management.
      Managed properly, these architectures can clarify and help
      optimize the interdependencies and interrelationships
      among an organization’s business operations and the
      underlying IT infrastructure and applications that support
      these operations. Employed in concert with other
      important IT management controls, such as portfolio based
      capital planning and investment control practices,
      enterprise architecture frameworks can greatly increase
      the chances that organizations’ operational and IT
      environments will be configured in such a way as to
      optimize mission performance. Our experience with
      federal agencies has shown that attempting to modernize
      information technology environments without an enterprise
      architecture to guide and constrain investments often
      results in systems that are duplicative, not well integrated,
      unnecessarily costly to maintain and interface, and
      ineffective in supporting mission goals.




      51
         See “INFORMATION TECHNOLOGY: Enterprise Architecture Use Across the
Federal Government Can Be Improved” (GAO-02-6).



                                   - 81 -
      According to the Framework, achieving IT investment maturity
depends not only on implementing the ITIM critical processes, but also
on other good management attributes such as the effective use of
human capital, training, enterprise architecture, and software
management. Specifically, an established enterprise architecture
supports the ITIM process by facilitating an organization’s
advancement through the maturity stages of the Framework.

      Achieving Stage Two maturity requires an organization to,
among other things: (1) identify its IT projects and systems;
(2) identify its business and user needs; and (3) select IT projects that
align with those business and user needs. An organization’s enterprise
architecture would assist in the implementation of this critical
processes by identifying the needs between the entity’s current IT
systems and processes and its target or future IT system environment.

      Achieving Stage Three maturity52 is dependent on a functioning
enterprise architecture framework. The Plan states that to advance to
Stage Three maturity, the FBI will a need a formal enterprise
architecture committee to assess the IT portfolio for enterprise
architecture compliance.

      Achieving Stage Four maturity requires further integration of the
enterprise architecture function with the ITIM process.53 The Plan
states that the FBI will have to completely integrate its enterprise
architecture framework to enhance the management of its IT portfolio.

      To respond to the importance of developing and overseeing
enterprise architecture management in the Federal government, the
GAO developed a maturity framework for enterprise architecture
management that can be used in determining agencies’ development,
implementation, and maintenance of these architectures. The
maturity framework, developed in 2001, is based on the core elements
necessary for an organization to achieve effective enterprise
architecture management. These core elements are arranged into a

      52
        According to the Framework, Stage Three maturity is managing IT
investments as a complete portfolio.
      53
           According to the Framework, Stage Four maturity is improving the
investment process through process evaluation techniques that focus on
enhancing the performance and management of the organization’s IT investment
portfolio.



                                    - 82 -
series of five hierarchical stages based on the implicit dependencies
among these elements. This framework is consistent with other
maturity frameworks, including the ITIM framework. The framework’s
five stages of enterprise architecture management maturity are
described in Appendix 5 of this report.

       To assess the status of federal agencies’ efforts to develop,
implement, and maintain enterprise architectures, the GAO surveyed
116 agencies (including the FBI) in 2001 using a questionnaire that
was based on the core elements of the enterprise architecture maturity
framework. The GAO published the results of this survey in its
February 2002 report on enterprise architecture (“INFORMATION
TECHNOLOGY: Enterprise Architecture Use Across the Federal
Government Can Be Improved”). The GAO indicated in the report that
of the 116 agencies surveyed, 98 reported meeting the minimum
criteria necessary for Stages One or Two — creating enterprise
architecture awareness or building an enterprise architecture
management foundation. In contrast, only five agencies reported
satisfying the practices that GAO stated are needed to effectively
manage enterprise architecture activities (Stages Four or Five).

      The results of the GAO survey, completed by the FBI in
July 2001, indicated that the FBI is in Stage One of the enterprise
architecture maturity framework.54 According to the GAO, Stage One
maturity is characterized by either no plans to develop and use an
enterprise architecture, or plans and actions that do not yet
demonstrate an awareness of the value of having and using one.
While stage one agencies may have initiated some enterprise
architecture core elements, these agencies’ efforts are inconsistent
and unstructured, and do not provide the management foundation
necessary for successful enterprise architecture development.

      Specifically, the GAO reported that the FBI needed to fully
establish the management foundation that is necessary to begin
developing, implementing, and maintaining an enterprise architecture.
While the FBI implemented most of the core elements associated with
establishing the management foundation, it had not yet established a
steering committee or group that has responsibility for directing and
overseeing the development of the architecture.




     54
          The FBI’s survey results are depicted in Appendix 6 of this report.



                                        - 83 -
      In addition, the GAO indicated that although establishing the
management foundation is an essential first step, important further
steps still need to be taken for the FBI to fully implement the set of
practices associated with effective enterprise architecture
management. These include having a written and approved policy for
developing and maintaining the enterprise architecture and requiring
that IT investments comply with the architecture.

       We determined that the FBI’s enterprise architecture function
does not adequately support its ITIM process. Although the enterprise
architecture office has provided support to the ITIM process during the
pilot test of the select phase, this support needs to be enhanced. Our
conclusion is based on the FBI not having a fully established enterprise
architecture.

b. Results of Our Assessment of the FBI’s Progress Towards
   Fully Establishing an Enterprise Architecture

      We concluded that although the FBI has not fully established an
enterprise architecture, it is taking important steps to establish one.
Specifically, personnel from the enterprise architecture office told us
that a baseline architecture is being developed in a data repository,
which will ultimately be maintained on the FBI’s Intranet. This data
repository, when complete, will describe how all of the FBI’s IT
systems align with the business processes of the Bureau. Additionally,
the enterprise architecture office is developing a technical reference
model that will outline the technical architecture of the Bureau’s IT
systems. Also, this office is creating a commercial off-the-shelf
roadmap of all commercially available hardware and software that will
comply with the FBI’s technical architecture.

       Despite the limited staffing of the enterprise architecture office,
this office has made progress towards building a foundation for an
enterprise architecture function.55 Given the importance of enterprise
architecture to ensure successful IT investment management, coupled
with the size and complexity of the FBI’s IT infrastructure, we
concluded that additional staffing and management attention to this
area is warranted.



       55
          As of July 2002, the FBI had two full-time employees solely focused on
enterprise architecture. We were told by officials in the Information Resource
Management Section that there were two vacant positions for the enterprise
architecture office that were expected to be filled.


                                       - 84 -
      Despite the progress of the enterprise architecture office, not
having a fully established enterprise architecture framework hampers
the ITIM process. As we previously mentioned, the ITIM process
depends on enterprise architecture functions to fulfill critical processes
in the Framework. An organization’s enterprise architecture would
assist in the implementation of each of these critical processes, none
of which the FBI has implemented as of June 2002. The following
paragraph describes several causes for the FBI not having a fully
developed enterprise architecture framework that adequately supports
the ITIM process.

       Personnel from the FBI’s enterprise architecture office told us
that the FBI has only recently paid significant attention to developing
an enterprise architecture. According to the GAO, the FBI’s lack of
attention to enterprise architecture is not much different from other
federal agencies. Historically, agency executives have not fully
understood the value of enterprise architectures. Therefore, these
tools have lacked the executive sponsorship necessary to become a
funding priority. In addition, human capital expertise in this area has
been scarce at federal agencies. As a result, the risk is heightened
that federal agencies will proceed with investment decisions without
the benefit of this architectural context and will end up with systems
that limit mission performance, often after a significant and unwise use
of funds. Specifically, the GAO stated in its June 2002 testimony:
“The successful development and implementation of an enterprise
architecture, an essential ingredient of an IT transformation effort for
any organization and even more important for an organization as
complex as the FBI, will require, among other things, sustained
commitment by top management, adequate resources, and time.”

c.   Summary

      Because the FBI does not have a fully developed enterprise
architecture, the FBI will have difficulty in achieving more mature IT
investment processes such as managing its IT investments as a
complete portfolio and improving the investment process through
post-implementation reviews.

d.   Recommendation

      We recommend that the Director of the FBI ensure:

21. The FBI continues its efforts to establish a comprehensive
    enterprise architecture. The FBI must also develop and


                                  - 85 -
       implement a specific plan to integrate the ITIM and enterprise
       architecture processes, even as these processes are being further
       refined and developed.

(5) Summary of the FBI’s Ability to Improve its IT Investment
    Practices

       We determined that the FBI must take additional actions to
improve its IT investment practices. Not only will these actions
facilitate the building of an IT investment foundation (Stage Two
maturity), but these actions will also be essential for any advancement
beyond Stage Two. In summary, the FBI must:

   •   fully develop and document the FBI’s policy and procedures for
       IT investment management, especially in the control and
       evaluate phases;

   •   increase the participation of ITIM users in developing and
       refining the ITIM process as the pilot test continues;

   •   integrate a standardized project management methodology with
       the ITIM process; and

   •   continue to develop an enterprise architecture framework.

      The FBI’s efforts in these areas are crucial for it to successfully
improve its IT investment maturity, and ultimately enhance mission
performance.

C. Trilogy Case Study

       To determine how the FBI’s IT investment management
practices affected a major IT project, we performed a case study of
the FBI’s Trilogy project. In section A of this finding, we concluded
that the FBI was not fully implementing any of the critical processes
necessary for successful IT investment management, including the
most fundamental critical processes that are associated with the
Framework’s Stage Two maturity. Because our analysis in Section A of
this finding was made on an organizational level, in our case study we
assessed how the FBI’s non-implementation of Stage Two critical
processes affected an individual project. Next, we examined the FBI’s
internal assessments of Trilogy. Finally, we assessed the FBI’s
ongoing deployment of new computer hardware, software, and
networks to its field offices.


                                  - 86 -
       We selected Trilogy for our case study because it is currently the
FBI’s largest ongoing IT project, with $458 million in total
appropriations as of June 2002. Trilogy’s purpose is to upgrade the
FBI’s: (1) hardware and software or Information Presentation
Component (IPC), (2) communication networks or Transportation
Network Component (TNC), and (3) five most important investigative
applications or User Applications Component (UAC). The IPC and TNC
upgrades will provide the physical infrastructure needed to run the
applications from the UAC portion. The UAC portion is intended to
upgrade and consolidate 5 of the FBI’s 42 investigative applications.
Because there are 37 other investigative applications and
approximately 160 non-investigative applications that Trilogy will not
include, Trilogy is only a starting point toward upgrading the FBI’s
entire IT infrastructure.

       When discussing the state of the FBI’s IT systems and the
benefits Trilogy could bring, one Special Agent-In-Charge told us that
“Trilogy must improve the FBI’s IT systems. There is just no other
way that agents can continue operating with such limited abilities.” A
senior FBI official stated to the Senate Judiciary Committee in
July 2002 that agents must go through 12 screens just to upload one
document in ACS. She further stated that the process is even more
difficult because “there’s no mouse, there’s no icon, there’s no year
2000 look to it, it’s all very keyboard intensive.” While FBI officials
stated that Trilogy is not intended to provide the FBI with a state-of-
the-art IT system, it lays the technological foundation so that an
effective information system can be built. The implementation of
Trilogy is vital to enhancing the FBI IT infrastructure, and
consequently to the FBI’s mission performance.

(1) Evolution of the Trilogy Project

      During the 1990’s, the FBI recognized that its IT infrastructure
was aging and in need of modernization. Since 1997, the FBI has
proposed to Congress several projects intended to improve its IT
infrastructure and office automation.

        First, the Information Sharing Initiative (ISI), a four-year project
with an anticipated cost of about $400 million, was presented to
Congress in 1997. The project’s purpose was to upgrade the FBI’s
critical hardware, software, and communications capabilities and thus
facilitate the development and deployment of modern computer



                                   - 87 -
applications. It also would have provided secure information sharing
within the FBI, and to law enforcement agencies outside of the FBI.

       In November 1998, the ISI was funded by Congress with
FY 1999 appropriations. However, expenditure of funds was
contingent on the approval of the implementation plan and a review of
it by the OMB’s IT Technology Review Board. Following the OMB’s
review of the ISI plan, the FBI made minor modifications to the
requirements document and acquisitions strategy. By January 2000,
the FBI was ready to award the ISI contract. However, the Senate
and House Appropriation Committees had not approved the
implementation plan. FBI officials told us that by 1999, Congress had
become increasingly concerned with the FBI’s ability to manage major
IT projects on time and within budget. We were told by FBI officials
that this loss of credibility was caused by previous large-scale FBI IT
projects that experienced significant cost and schedule overruns.
Particularly, those officials said that the Integrated Automated
Fingerprint Identification System and National Crime Information
Center both were completed millions of dollars over budget and years
behind schedule.

       Because of the FBI’s poor track record of managing major IT
projects within cost and schedule, Congressional committees
recommended that the FBI utilize a pilot implementation concept for
ISI, which would modernize the IT infrastructure in phases. FBI
officials said they resisted this concept because of concerns over
having two sets of infrastructures, one old and one new. As a result,
the FBI abandoned the ISI initiative.

       In the Spring of 2000, the FBI prepared a project plan called
eFBI, which was essentially a scaled back version of ISI. Because the
project was less costly, FBI officials hoped that Congress would be
more receptive to the project. The main difference between ISI and
eFBI was that eFBI did not have the secure electronic information
sharing capabilities included with ISI. However, press reports
indicated that the FBI did not receive funding for the project when DOJ
officials objected to certain proposed bidding procedures.

      Because these plans to upgrade the FBI’s IT infrastructure were
never approved, the FBI’s IT infrastructure had not received
meaningful improvements since the early 1990’s. As a result, there
was an increasing need for a Bureau-wide IT upgrade. According to
FBI documentation, by September 2000:



                                - 88 -
  •   more than 13,000 of the desktop computers utilized by the FBI
      were 4 to 8 years old and could not run modern software;

  •   the communications capability (networks) between and within
      FBI offices was up to 12 years old;

  •   most of the network components being used were no longer
      manufactured or supported;

  •   most Resident Agency offices were connected to the network at
      speeds equivalent to a 56k modem;

  •   Special Agents were unable to reliably e-mail each other on case
      specific information and often resorted to faxes; and

  •   Special Agents were unable to electronically communicate
      information to the U.S. Attorney Offices, other federal agencies,
      and state and local law enforcement agencies.

      Recognizing its credibility problems with Congress, in July of
2000, the FBI hired a new chief information officer from the private
sector to outline IT management. The new chief information officer
was tasked with submitting another major technology upgrade plan to
Congress. That plan, called the FBI Information Technology Upgrade
Plan (FITUP), was drafted and delivered to Congress in
September 2000. The FITUP was intended to achieve goals similar to
the ISI and eFBI projects. FBI officials told us that Congress appeared
more satisfied with the FBI’s new IT management team, and
consequently appropriated $379.8 million in November 2000 to fully
fund the FITUP over a three-year period.

      The objectives of the FITUP, as defined by the FBI, were to:

  •   provide the right hardware and software tools for the FBI’s law
      enforcement mission;

  •   enable the FBI’s investigative personnel to easily and rapidly
      find, present, and manipulate required information; and

  •   transport and share information quickly and efficiently across the
      Bureau.

In November 2000, the FITUP was renamed Trilogy. A brief
description of Trilogy’s three components (IPC, TNC, and UAC) follows.


                                 - 89 -
       The IPC refers to how users see and interact with information.
The IPC provides new desktop computers, servers, and commercial-
off-the-shelf office automation software, including a web-browser and
e-mail to enhance usability by the agents. The original Trilogy plan
also included the use of thin-client desktop computers. Thin-client
desktop computers, according to the FITUP, utilize application software
that is run from the server computer, and consequently permits the
desktop computer to function with fewer hardware resources such as
processors and memory. Other benefits to the thin-client strategy
included less maintenance of software in field offices and timely
technology upgrades to meet user needs. The FITUP further stated
that the FBI sized the departmental servers to handle the processing
demands imposed by the thin-client strategy.

      The TNC is the complete communications infrastructure and
support to create, run, and maintain the FBI’s networks. It is intended
to be the means by which the FBI electronically communicates,
captures, exchanges, and accesses investigative information. The TNC
includes high capacity wide-area and local-area networks,
authorization security, and encryption of data transmissions and
storage.

       The FBI combined the IPC and TNC portions for continuity when
it requested contractor support, as both encompass physical IT
infrastructure enhancements. The contractor for the IPC/TNC portions
was signed in May of 2001. The originally scheduled completion date
for these components was May 2004.

      The UAC defines software-based capabilities and functions that
Special Agents can use to access and analyze the information they
need. The UAC is intended to provide the FBI with:

  •   improved capabilities to communicate inside and outside the
      FBI;

  •   access to information from internal and external databases that
      is properly authorized using primarily commercial products;

  •   the capability to evaluate cases and patterns of crimes through
      the use of commercial and FBI-enhanced analytical and case
      management tools; and




                                - 90 -
   •   the ability to find information in FBI databases without having to
       know where it is, and to search all FBI databases with a single
       query through the use of intelligent search engines.

      The UAC is also referred to as the Virtual Case File. The Virtual
Case File is intended to replace ACS as the FBI’s primary investigative
application. The goal of the Virtual Case File is to reduce agents’
reliance on paperwork to improve efficiency. The Virtual Case File is
supposed to have multi-media capability that will allow agents to scan
documents, photos, and other electronic media into the case file. A
separate contractor was hired in June 2001 to complete the UAC
portion of Trilogy by June 2004.

(2) Accelerated Deployment of Trilogy

      Even before the terrorist attacks on September 11, the FBI was
looking for ways to accelerate the three-year Trilogy project, given the
FBI’s urgent need for improved IT infrastructure. In its Quarterly
Congressional Status Report for the period between May 14, 2001 and
July 6, 2001, FBI personnel stated that it had devised a plan to
complete the IPC/TNC deployment in June 2003, nearly one year
ahead of schedule, while the UAC deployment remained a three-year
project. However, FBI officials stated they wanted to accelerate
deployment of UAC.

      After the terrorist attacks on September 11, 2001, the urgency
of completing Trilogy increased. The FBI continued to explore options
to accelerate the deployment of all three components of Trilogy. The
FBI informed Congress in its February 2002 Quarterly Congressional
Status Report that it devised a new plan with the contractor to
complete the deployment of the IPC/TNC phases by December 31,
2002, which was nearly 18 months earlier than the originally planned
completion date. Additionally, the FBI’s February 2002 report stated
that the contractor for the UAC phase developed a plan to make ACS
web-enabled by July 2002. Web-enablement of ACS56 was designed to
put ACS in a multi-media format prior to the completion of the UAC
phase in July 2004. According to its Congressional reports, the FBI
could make these enhancements to Trilogy without any net increases
to the project costs. The FBI would only need to have a portion of the
funding earmarked for FY 2003 available by October 30, 2002.

       56
         Web-enablement of ACS would allow the current ACS system to be
upgraded from outdated “green screen” technology to a mouse, point and click
technology.



                                     - 91 -
      The FBI also informed Congress in its February 2002 report, that
with an additional $70 million funding for FY 2002, the FBI could
further accelerate the deployment of Trilogy. This acceleration would
include completion of the IPC/TNC phase by July 2002 and rapid
deployment of the most critical analytical tools included as part of the
UAC phase.

       Congress supplemented Trilogy’s FY 2002 budget with
$78 million from the Emergency Supplemental Appropriations Act of
January 2002 to expedite the deployment of all three components.
The Emergency Supplemental Appropriations Act increased the total
funding of Trilogy from $379.8 million57 to $457.8 million. According
to Trilogy documentation, the FBI obligated about $231 million as of
June 2002. Trilogy’s budget by component, as of June 2002, is
described in the following table.




       57
         Of this amount, $107.55 million was identified by FBI management as
funding offsets, or cost savings, from other operations that would be replaced by
Trilogy.


                                       - 92 -
                   Trilogy’s Budget by Component

                                             Revised Plan Including
                                                the Emergency
   Component                   Original          Supplemental
     Area             FY        Plan           Appropriation Plan
                     2001          $68.0                        $65.7
                     2002          $87.8                       $184.8
                     2003          $82.8                        $37.6
 TNC/IPC             Total       $238.6                        $288.1
                     2001          $24.7                        $28.1
                     2002          $46.6                        $63.8
                     2003          $47.9                        $47.8
 UAC                 Total       $119.2                        $139.7
 Contractor
 Computer            Total         -                                 $8.0
 Specialists
                     2001           $8.0                           $8.0
                     2002           $8.0                           $8.0
 Project             2003           $6.0                           $6.0
 Management          Total         $22.0                          $22.0
 Total                            $379.8                         $457.8

      Source: FBI budget documentation

      Congress’s willingness to provide the FBI with additional funding
after September 11 was not limited to Trilogy. The FBI saw an
increase in funding of approximately 102 percent for IT projects from
$352.8 million FY 2001 to $714 million in FY 2002.

       The IPC/TNC infrastructure enhancements are being deployed in
three phases in the accelerated plan. The first phase, called Fast
Track, is the installation of Trilogy hardware in all of the field offices
and some of the Resident Agencies. The Fast Track deployment
consists of new network printers, color scanners, local area network
upgrades, desktop workstations, and office automation software. FBI
officials reported that by the end of April 2002, all of the 56 field
offices had Fast Track completed.

      We were told by FBI officials that following the completion of
Fast Track, the next phase of deployment, referred to as Extended
Fast Track, was initiated, and was still continuing as of June 2002.
Under Extended Fast Track, the FBI: (1) installed servers and other


                                  - 93 -
network components at field office and resident agency sites, and
(2) deployed the hardware included under Fast Track to additional
resident agency sites that were not included in the first phase. Also,
the FBI intended Extended Fast Track to correct any shortfalls in the
distribution of hardware to the field offices that occurred in the original
Fast Track deployment.

      The final phase of the deployment, called Full Site Capability,
represents the complete infrastructure upgrade. This phase will
provide the wide area network connectivity together with new
encryption devices, new operating systems and servers, and new and
improved e-mail capability. According to June 2002 Congressional
Testimony, Full Site Capability is expected to be completed in
March 2003.

       The UAC portion is also going to be deployed in two phases in
the accelerated plan, release one and release two. The initial Virtual
Case File release will migrate data from the current ACS and IntelPlus
to the Virtual Case File. The Virtual Case File will replace ACS and
serve as the backbone of the FBI’s information systems, replacing the
FBI’s paper files with electronic case files that include multi-media
capabilities. The first release of Virtual Case File has a targeted
completion date of December 2003. This release is intended to allow
different types of users, such as agents, analysts, and supervisors, to
access information from their desktop computers that is specific to
their individual needs. This Virtual Case File release is also intended to
enhance the FBI’s capability to set and track case leads, index case
information, and move document drafts more quickly through the
approval process with digital signatures.

      The second release is intended to upgrade three other
investigative applications into the Virtual Case File. The second Virtual
Case File release has a targeted completion date of June 2004. It is
intended to provide agents with Audio/Video Streaming capability and
content management capability. According to FBI documentation,
content management should help agents access information from the
FBI’s data warehouse, regardless of where in the system the
information was entered, providing a single query for all of the FBI’s
systems.




                                  - 94 -
(3) Results of Our Assessment of Trilogy Against the Stage
    Two Critical Processes

       The Framework provides the organization level processes
necessary for effective IT investment management. As a result, the
Framework’s critical processes, and in particular the Stage Two critical
processes, do not necessarily ensure that individual IT projects will be
effectively managed. However, it does ensure that, at a minimum,
basic selection and management control processes are in place.

      As discussed in Section A of this finding, Stage Two builds the
foundation for successful IT investment management by establishing
basic IT selection and control processes for IT projects. Stage Two is
defined by the following five critical processes:

   •   IT Investment Board Operation - the process for creating and
       defining one or more IT investment boards within the
       organization;

   •   IT Project Oversight - the process whereby the organization
       monitors all projects relative to cost and schedule expectations;

   •   IT Project Identification - the process by which the IT inventory
       is created and maintained to provide asset tracking data to
       executive decision-makers;

   •   Business Needs Identification - the process of identifying the
       business needs and the associated users that drive each IT
       project; and

   •   Proposal Selection - the process establishing defined processes
       used by an organization to select new IT project proposals.

Our assessment of how Trilogy was managed in relation to each Stage
Two process is described in the following paragraphs.

a. IT Investment Board Operation

     According to the Framework, IT investment boards have
executive decision-making authority throughout the organization. This
organization-wide perspective is necessary to ensure that only the best




                                  - 95 -
projects are selected for development, and projects under
development are being monitored with consistent policies and controls.

      In section A of this finding, it was noted that the FBI did not
have IT investment boards operating prior to March 2002. Because
Trilogy was initiated in September 2000, it was not selected through
the operation of formal IT investment boards. Additionally, because
the FBI’s IT investment boards were not involved in overseeing IT
projects as of June 2002, Trilogy has not been subjected to board
oversight.

        FBI officials have told us that most of Trilogy’s development has
been managed in a “stovepipe.” One FBI official told us that the
organization’s focus on Trilogy has drained the FBI of a broader view
of IT. As a result, FBI personnel not involved in the management of
Trilogy had little knowledge of the project’s status and progress.
Although the Trilogy management structure has changed frequently, it
was managed out of the IRD until March 2002. However, IRD
personnel who were responsible for acquiring IT products and services
through contractors on IRD IT projects were not involved in Trilogy’s
acquisitions. Only members of the Trilogy management team
performed these activities. Further, FBI personnel told us there was
little coordination taking place with Trilogy management and contract
specialists from the Finance Division or the IRD’s unit responsible for
procurement of non-Trilogy IT needs. Because of the lack of
coordination, there is a heightened risk that resources could be spent
on potentially duplicative or non-compatible hardware, software, and
systems. FBI officials have told us that the IRD is in the process of
developing technical enterprise architecture that incorporates Trilogy
requirements to mitigate this risk.

b. Project Oversight

      The GAO Framework states that IT investment boards should
monitor all projects relative to cost, schedule, and technical baselines
to measure the progress of IT projects under development, and the
performance of projects upon deployment. When an IT project is not
performing according to expectation, the investment boards should
seek corrective actions to be taken.

      IT investment boards have not been involved in overseeing
Trilogy. In our judgment, the lack of project oversight from IT
investment review boards contributed to the FBI not having



                                 - 96 -
established schedule, cost, and technical baselines for Trilogy, as of
June 2002.58

      In terms of a cost baseline, FBI officials told us that the rapid
procurement and deployment of Trilogy has prevented the project
managers from performing earned value management,59 as promised
in the FITUP. While FBI officials were confident they know how much
money has been spent on Trilogy to date, and how much funding has
been committed, they have less assurance as to whether Trilogy is on
budget, over budget, or under budget.

       A schedule baseline for Trilogy has never been well-established.
First, FBI officials said they would complete IPC/TNC deployment in
May 2004. Then, they said it could be finished in June 2003. Next,
they said it would be finished by December 2002. After receiving
$78 million of supplemental funding, they said it would be done by
July 2002. Then, they said they could not make the July 2002
deadline and moved it to October 2002. As of June 2002, FBI officials
have said deployment will probably not be complete until March 2003.
Also as of June 2002, the FBI was still in the process of building a
comprehensive schedule of Trilogy milestones.

      In terms of a technical baseline, we previously stated that the
FBI is still developing a technical architecture framework that includes
Trilogy hardware and software. Personnel from the enterprise
architecture office initially told us at the beginning of our audit that
they were not significantly involved in ensuring that Trilogy
acquisitions were compatible with non-Trilogy hardware and software.
But, as of June 2002, the enterprise architecture office had developed
a technical reference model, although it was not finalized.

      According to the FITUP, the philosophy employed in
implementing Trilogy was “to get 80% of what is needed into the field
now rather than 97% later. Then we can proceed in an orderly fashion
to move toward 100% in the future.” Additionally, after the events of
September 11, the urgency to deploy Trilogy as quickly as possible
increased. FBI management told us that risks associated with this
rapid deployment were accepted. Further, they stated that given the

       58
          Cost baselines establish the specific cost of equipment or user-applications
delivered. Schedule baselines establish when equipment or user-applications would
be delivered. Technical baselines establish the enhancements made to systems.
       59
         Earned value management is comparing the value of products and services
received with funds that have been expended.


                                        - 97 -
accelerated schedule, and additional funding needed, the cost and
schedule baselines could not be static.

       While the events of September 11, 2001 affected the FBI’s
ability to manage cost, schedule, and technical baselines, we believe
the risks of not establishing such baselines puts the project at a high
risk of failure. Although the overall success of Trilogy will not be
determined for years to come, the FBI has already missed the
July 2002 deadline to complete the IPC/TNC phase. In our judgment,
this missed deadline is a further indication that increased oversight of
the project is needed.

      The new Trilogy project executive, hired in March 2002, has
taken a different approach to managing Trilogy. She has emphasized
the importance of having more structured oversight of the project.
She has been developing a comprehensive schedule for all three
components. Additionally, she has indicated that there are limitations
to how fast Trilogy can be deployed, without risking the security of the
system. In our judgment, while these actions since March 2002
represent positive changes to Trilogy’s project management function,
the project’s completion time, final cost, and ultimate performance
remain uncertain. Also, we concluded that for the Trilogy project
management function to be effective, it must include oversight from IT
investment review boards to provide much needed monitoring.

c. IT Project and System Identification

      According to the Framework, IT project and system identification
provides essential information to an organization as to how its IT
assets (such as personnel, systems, applications, hardware, software
licenses, etc.) are configured and relate to one another. Having a
complete inventory of the organization’s IT assets, including
documentation of the configuration and technical architecture of IT
systems, helps ensure that IT investment review boards will select
projects that comply with the existing architecture in place.
Additionally, this process can be equated with an organization having a
blueprint of what systems it utilizes, how those systems were created,
and what can be done to enhance those systems.

      As noted in section A of this finding, we found that the FBI did
not have a comprehensive inventory of all IT assets, including
complete documentation of the technical architecture of its systems.
Because the UAC portion of Trilogy is focused on making significant
changes to, or possibly complete replacements of, five of the FBI’s


                                 - 98 -
investigative systems, having documentation of the exact
configuration of these systems is critical to designing the requirements
for UAC. According to a senior FBI official, the FBI must know what it
has before it can define the right solution to fix the problem. Not
having the documentation of the configuration of these five
investigative systems has caused the FBI to engage in a process of
reverse engineering, which is trying to determine the structure and
components of the systems after deployment. Because the FBI has to
perform reverse engineering on the FBI’s five investigative systems
that will be migrated to the Virtual Case File, there are limitations as to
how rapidly UAC can be developed and deployed.

       As of June 2002, the FBI was still defining the requirements for
UAC because of the reverse engineering activities. Without knowing
the exact requirements, the FBI will have difficulty establishing cost
and schedule baselines for this component of Trilogy. As a result,
some FBI officials told us that they believe the UAC portion of Trilogy
is at significant risk of not being completed on schedule (in June 2004)
or within budget.

d. Business Needs Identification for IT Projects

       According to the Framework, an organization should have a
systematic process for identifying, classifying, and organizing its
business needs and the IT projects used to support these needs. This
process should allow for the identification and definition of the
business needs and specific users for all IT projects. This process can
be equated with knowing where the organization wants to go, based
on its mission, and the needs of its users to pursue that mission.
While we concluded that the Trilogy project’s users were identified,
since all users of the FBI’s systems will be affected by the IPC/TNC
portion of the project, we found that the specific needs of the users,
and of the FBI as a whole, were not adequately defined before Trilogy
was selected and funded.

      Specifically, we found that the requirements for the applications
of the UAC portion were still being defined as of June 2002. Since
January 2002, the FBI and the contractor were participating in a Joint
Application Development planning process to define and prioritize the
users’ operational requirements. This process brings users, designers,
and future systems operators together to develop the applications in
order to better establish operable and maintainable systems.




                                  - 99 -
       The Joint Application Development sessions represent a
thoughtful and productive approach to ensuring that the UAC portion
of Trilogy will adequately support agents’ investigative activities.
However, in our judgment, this process should have been initiated
from the beginning of the Trilogy project.

e. Proposal Selection

       According to the Framework, proposal selection activities ensure
that the right projects are selected to support the organization’s
mission. The proposal selection process relies on the project and
system identification process, as well as the business needs
identification process, so that information contained within project
proposals include sufficient documentation of the technical
requirements of the projects.

      While no investment boards existed at the time of Trilogy
selection, it has been widely recognized by the Attorney General, FBI
Director, and Congress that an investment in the upgrade of the FBI’s
information technology was essential to the FBI meeting its mission
goals. The FBI’s technology was outdated in terms of hardware,
software, user-applications, connectivity, and data sharing abilities.
There is little question of the FBI’s need to select this project.
However, successful execution and deployment of the project depends
on having the other control processes in place. Specifically, proposals
should have adequate documentation of technical requirements and
project risks.

       We were told that some aspects of Trilogy that were submitted
to Congress did not turn out to be technically feasible. For example,
FBI officials told us that the thin-client strategy was not pursued
because it was found that this type of network could not be achieved
given the technical requirements of the FBI. Another example is web-
enablement of the ACS, which was also discontinued when it was
realized that it would require more resources than anticipated. Had a
more rigorous proposal selection process been in place that required
sufficient documentation of the technical requirements and risks of the
project, the expending of time and resources on thin-client technology
and web-enablement of ACS may have been minimized.

f. Summary

      We have found that not implementing the critical processes
associated with Stage Two maturity has contributed to missed


                                - 100 -
milestones and uncertainties associated with the remaining portions of
Trilogy. However, the FBI’s new Trilogy project executive has taken
positive steps in establishing management controls and oversight to
the project.

g.   Recommendations

     We recommend that the Director of the FBI ensure:

22. The IT Investment Review Boards initiate oversight of Trilogy,
    including:

     a. the establishment of cost, schedule, technical, and
        performance baselines; and

     b. tracking significant deviations from these baselines and taking
        corrective actions as necessary.

23. The technical requirements for Trilogy are adequately defined,
    documented, and shared with other IT users.

(4) The FBI’s Internal Assessments of Trilogy

      The FBI had three internal assessments performed concerning
the management of the Trilogy project. These assessments were done
by the FBI’s Inspection Division, CJIS Division, and a contractor
performing independent verification and validation work. The
assessments found that the lack of baselines and general program
oversight pose potential risks for the Trilogy program meeting its
budget, schedule, technical, and performance goals. These
assessments recommended that the FBI designate a program manager
specifically for Trilogy, and that the program manager immediately
take steps to establish baselines and requirements for the project.

      The objective of our case study was to determine how Trilogy
was being managed within Stage Two of the Framework. These
assessments go beyond that objective and address additional areas of
potential risk within Trilogy, such as security and configuration
management. An overview of the three independent assessments
(FBI Inspection Division Trilogy Risk Assessment, November 2001;
Trilogy Independent Validation and Verification, December 2001; and
CJIS Division Trilogy Assessment, January 2002) are presented in the
following paragraphs.



                                - 101 -
a. Inspection Division Trilogy Risk Assessment

      Because of the size and importance of Trilogy to the FBI, the
Inspection Division’s MPMOU issued a risk assessment report on the
Trilogy project to the FBI Director in November 2001. This
assessment identified areas of high risk within the acquisition,
financial, requirements, and overall project management of Trilogy.
The areas found to be high risk included a lack of project requirements
and baselines, the lack of a defined program organizational structure
and program manager, and improper scheduling and cost estimates.

      The report recommended that the FBI institute a short-term
strategy to provide interim capabilities and a long-term strategy to
restructure Trilogy. The report recommended that the short-term
strategy should include a detailed plan identifying what can realistically
be accomplished within a pre-determined period. It further stated that
the short-term plan should have a clearly defined scope so that
progress can be measured and quantified.

      The MPMOU issued two follow-up letters to the Director in
December 2001 and February 2002 to assess the FBI’s progress in
mitigating these risks and taking action on their recommendations.

      In December 2001, the Inspection Division indicated that while
Trilogy management acknowledged certain project risks, Trilogy
managers were willing to accept aspects of those risks and move
forward. However, personnel from the Inspection Division noted that
FBI senior management did hire a program manager for Trilogy in
March 2002.

       In February 2002, Inspection Division personnel indicated that
there was then disagreement between them and Trilogy management
on the level of project risk for Trilogy. The Inspection Division pointed
to a CJIS review and an outside independent validation and verification
report on Trilogy establishing that significant risks to the project exist,
in the areas originally identified by the Inspection Division. The
Inspection Division then reiterated its previous recommendation that
calls for the development of a short and long-term strategy for Trilogy.
Inspection Division personnel told us that Trilogy management did not
sufficiently develop a short and long-term strategy for the project as
was recommended.




                                 - 102 -
b. Trilogy Independent Validation and Verification

      The IRD hired an outside contractor to obtain an independent
perspective on Trilogy. The objective of the assessment was to
determine the labor requirements, level of effort, and verification and
validation tasks necessary to ensure that the Trilogy acquisition meets
the requirements of FBI users into the future within the established
schedule and budget.60 The independent validation and verification
report, issued in December 2001, disclosed risks in the Program
Management of Trilogy, IPC/TNC portion, and the UAC portion of
Trilogy, including a lack of program management structure and focus,
a lack of formal requirements, schedules, and baselines, and changes
in the UAC/IPC/TNC portions without formal changes to contracts.
While we concluded that the FBI improved the Trilogy management
structure through the hiring of a new project manager in March 2002,
we believe that risks associated with lack of formal requirements,
schedules, and baselines still remained as of June 2002.

c.   CJIS Division Trilogy Assessment

       Upon reviewing the Inspection Division risk-assessment, the
Director requested the CJIS Division to perform an independent review
of Trilogy to get another perspective on the project. The CJIS Division
performed their assessment between January 3 and January 16, 2002.
This assessment covered management, quality assurance,
configuration management, IT security, administrative and technical
requirements, and technical management. It found weaknesses
similar to those identified by the Inspection Division, including a lack
of clear lines of authority, no clearly designated Program Manager, a
lack of authority and support in the areas of quality assurance,
security, configuration management, and technical requirements, and
insufficient technical reviews of Trilogy documentation. While we
concluded that the FBI improved the Trilogy management structure
through the hiring of a new project manager in March 2002, we
believe there are still weaknesses in Trilogy’s documentation of
technical requirements as of June 2002.

d.   Summary

     The three internal risk-assessments on Trilogy found significant
risks associated with the management of the project. In our

       60
         Initial Independent Verification and Validation Analyses Technical Report
was issued on December 7, 2001 by an outside contractor.


                                      - 103 -
judgment, effective IT investment management practices, including
active oversight from IT investment review boards would have
mitigated these risks.

e.   Recommendation

     We recommend that the Director of the FBI ensure:

24. The Trilogy project managers prepare an action plan to address
    the risks identified by the three internal reports on Trilogy. This
    plan should include (a) actions already taken to mitigate these
    risks, (b) planned actions, including suspense dates, and (c) an
    explanation for why some risks cannot be mitigated, if applicable.
    The IT investment review boards should then approve this plan
    and monitor it for implementation.

(5) Deployment of Trilogy to Field Offices

       In addition to assessing the Trilogy management at FBI
headquarters, we assessed the Fast Track deployment of Trilogy to
five of the largest FBI field offices: (1) New York, (2) Washington,
D.C., (3) Los Angeles, (4) Miami, and (5) Chicago. Our objectives
were to assess the Fast Track deployment in terms of timeliness,
support, and completion. Our goal was to identify current problems
and recommend corrective actions, and discuss “lessons learned” for
future system deployments.

      In her July 16, 2002 Congressional testimony before the Senate
Judiciary Committee, the FBI Project Management Executive stated
that the Fast Track deployment involved the installation of Trilogy
architecture at the FBI’s 56 field office locations. The installation also
included as many Resident Agencies as could be completed before the
second phase of the deployment (“Full Site Capability”) begins. This
architecture consists of new network printers, color scanners, local
area network upgrades, desktop workstations, and Microsoft office
applications. She also stated that by the end of April 2002,
deployment at all 56 FBI field offices was completed, and that Fast
Track is continuing to deploy this architecture to the FBI’s
Resident Agencies.

a.   Timeliness of the Fast Track Deployment

     The Fast Track deployment to the five field offices in our survey
began as early as December 2001. The FBI Project Management


                                 - 104 -
Executive stated in her testimony that “By the end of April 2002,
deployment at all 56 FBI field offices and two Information Technology
Centers was completed. Fast Track is continuing to deploy this
infrastructure to our resident agencies.” During our testing at five FBI
field offices in June 2000, we found that implementation activities were
still ongoing to correct deficiencies that occurred during the original
Fast Track deployment. The FBI Project Management Executive told
us that her testimony was limited to “Fast Track” and did not include
ongoing activities related to “Extended Fast Track.”

        Regarding the Resident Agencies, FBI employees informed us
that as of June 2002, deployment to the Chicago, Los Angeles, and
District of Columbia Resident Agencies was underway or completed.
Deployment to the Miami Resident Agencies was scheduled for
August 2002, and deployment to the New York Resident Agencies was
still in planning.

       Regarding installation of the basic Trilogy architecture by the
contractor, employees from all five field offices said the timing of the
architecture installation phase of the deployment occurred either on
schedule or ahead of schedule.61 Most employees interviewed (ten of
eleven) said they were provided ample notice for the timing of the
installation. A Telecommunications Manager in the Chicago Field Office
said it was one of the FBI’s smoothest “rollouts.” Personnel from the
Los Angeles Field Office indicated that through careful preparation they
cut the installation phase from the three weeks scheduled to just
seven days. Apparently, only the New York Filed Office experienced
significant problems with the installation phase of the deployment.
Specifically, the financial management system was left inoperable and
they had to resort to pre-Trilogy processing to pay employees. Also,
the FBI Intranet traffic was not reaching the FBI mainframe computer
because of information being routed through too many pathways.

b. Adequacy of FBI Headquarters Support for the Fast Track
   Deployment

      Regarding FBI Headquarters support, most employees we
interviewed said they were provided with adequate planning and
preparation instructions for the deployment. Employees from the

       61
        Although the timing of the installation phase occurred as scheduled, the
Extended Fast Track deployment to all five Field Offices was still ongoing as of
June 2002. As discussed later, for two of the Field Offices additional installation work
remained to be completed, and for four of the Field offices hundreds of desktops still
remained to be delivered.


                                       - 105 -
New York Field Office said FBI Headquarters did not provide
instructions but instead informed them to send a team to Miami to
learn about the deployment, and then return to New York to plan and
prepare for it. As to whether there was sufficient communication
between FBI Headquarters and the field offices, four of nine employees
who responded indicated that communication could have been better
to adequately prepare the field offices for deployment.

       Six of eleven employees who responded did not believe the FBI’s
deployment strategy appropriately considered the individual needs of
the field offices. Personnel from the Chicago Field Office indicated that
since they had little opportunity to provide input, they had to work
around the information and changing timelines received from FBI
Headquarters. A supervisory computer specialist from the Los Angeles
Field Office indicated the deployment was successful, in part, because
they did not use the timeline provided by FBI Headquarters. Personnel
from the Miami Field Office said they provided considerable
information to the contractor during the survey phase that was
subsequently lost. A supervisory computer specialist from the District
of Columbia Field Office indicated concern that because offsite
locations were not considered, there were an insufficient number of
computers to deploy.

c.       Adequacy of Contractor Support for the Fast Track
         Deployment

      Eleven of the twelve employees we interviewed told us that the
subcontractor for the actual installation work at the field offices was
very helpful. Employees generally indicated that the subcontractor
was technically competent and professional.

      Regarding support from the contractor’s service support center,
of ten employees who responded, three employees said they did not
use the service, five employees said the support provided was
inadequate, and only two said the support was helpful.

     •    The three employees who did not use the support center were all
          from the Los Angeles Field Office. They indicated that personnel
          in their field office were aware of the service, but so far had no
          need to use it.

     •    The five employees who said the service was inadequate said
          that employees who worked at the center had little technical
          background and had to assign callers “ticket numbers” and refer


                                    - 106 -
       the calls to technicians. Often, the calls were not returned.
       When the calls were returned, it was usually several days later
       and often for the wrong ticket number. New York Field Office
       personnel became so frustrated with the service that FBI
       Headquarters eventually granted approval for them to call the
       computer manufacturer directly.

      Part of the Fast Track deployment planning included the
contractor conducting surveys at the field offices and resident agencies
to identify existing equipment and installation requirements. The
surveys were conducted in the third and fourth quarters of 2001.
Regarding the accuracy of the survey work performed by the
contractor, five of the nine employees who responded to our question
said the surveys did not accurately identify the computer needs of
personnel at the field offices.

   •   The Chicago Field Office personnel answered the contractor
       survey based on their understanding that the deployment would
       be a one-for-one exchange, or one new computer to replace
       each existing computer. Field office personnel said that FBI
       Headquarters later decided every employee would receive a
       computer, which resulted in revising the deployment plans.

   •   New York Field Office personnel also answered the survey based
       on their understanding that the deployment would be a one-for-
       one exchange. As a result, they indicated that the only squad
       where everyone had a computer was the one working on the
       investigation of the September 11, 2001 terrorist attacks.

   •   Los Angeles Field Office personnel indicated that the contractor
       only considered replacement of old equipment and did not obtain
       an adequate understanding of the full scope of the deployment.
       They indicated that as a result, the deployment was not fully
       completed because of a shortage of 12,000 feet of fiber-optic
       cable.

      Of nine employees who responded to our question regarding
accessibility of the contractor for equipment maintenance support, six
indicated that the contractor was not easily accessible.

   •   Chicago employees said they had to wait as long as three weeks
       to receive replacement parts. To report a problem, they first
       had to call FBI Headquarters, who then relayed the problem to
       the contractor.


                                 - 107 -
   •   The Miami Field Office indicated it could take weeks to get a
       question answered by the contractor.

   •   New York Field Office personnel also indicated that maintenance
       support was inefficient. Maintenance calls were often not
       returned. On one occasion, a contractor employee told them
       “everything was on hold because they had too many problems.”
       Additionally, if a part needed replacing, the entire computer had
       to be shipped to the contractor, even if the problem involved a
       faulty floppy drive. Although FBI Headquarters allowed the
       New York Office to contact the manufacturer directly to resolve
       problems, they still had to call FBI Headquarters first so that
       calls could be logged.

   •   District of Columbia Field Office personnel stated that having
       maintenance performed off-site was unworkable. They also
       indicated that they had to ship computers to the contractor for
       maintenance, even if the problem involved a faulty floppy drive.
       This generally resulted in agents being without computers for
       about three weeks.

d. Adequacy of Training Support Provided to Field Office
   Personnel

      All employees interviewed stated that training in MS Office 2000
applications and MS Outlook was generally available before, during,
and after the Fast Track deployment. All interviewees said time was
made available for agents to attend this training as well as additional
computer-based training available on the FBI Intranet.

      However, six of ten interviewees indicated that problems existed
with the Learning Management System62 available via the
FBI Intranet. These six employees generally indicated that the system
has not worked well from the beginning, that the system was down
more than it was up, and that application problems existed.

   •   A telecommunications manager from the Chicago Field Office
       said that employees were unable to determine when classes
       were being held and that the system “was an embarrassment.”

       62
          The Learning Management System is a centrally-hosted, web-based
training application available via the FBI Intranet and is designed to allow all
employees to: (1) enroll in instructor-led classes, (2) access computer based
training, (3) review training transcripts, and (4) access documentation libraries.


                                       - 108 -
   •   Employees from the New York Field Office said the system was
       not used because of problems with the Trilogy training point-of-
       contact.

   •   A supervisory computer specialist from the District of Columbia
       Field Office said that although there were “major bugs” with the
       system, she was able to manually sort out the training timetable
       to ensure that all employees who desired training received it.

e. Completion of Fast Track Deployment

      Based on the interview results, we concluded that the Fast Track
deployment for all five field offices in our sample did not provide the
quantities of the desktop computers that were expected. As a result,
the FBI initiated Extended Fast Track to provide the desktop
computers that were not originally provided with the Fast Track
deployment. According to the FBI Project Management Executive,
miscommunications between FBI Headquarters and the field offices
resulted in differences between the number of desktop computers
delivered by FBI Headquarters and the number of desktop computers
expected to be received. Additionally, the FBI Project Management
Executive said shortages of fiber optic cable resulted from these
miscommunications, as some field offices budgeted for the wrong
amount of cable. We found that as of June 2002 (the month our
interviews were conducted), some field offices did not have sufficient
quantities of fiber optic cable to complete the deployment and
hundreds of desktop computers still remained to be delivered.

       We did determine, however, that each desktop computer
delivered included the complete baseline hardware and software
package specified by the fast track deployment. Additionally, we
randomly selected 30 Trilogy desktop computers received by each field
office and verified that the desktop computers were received, installed,
and operational.

       For two of the five field offices we reviewed, additional
installation work remained to complete the Fast Track deployment. At
the Los Angeles Field Office, we were informed that about 40 percent
of the Trilogy desktop computers were not connected to servers and
networked because of the shortage of fiber optic cable. Additionally,
although Los Angeles received the requisite number of Trilogy printers,
none of these printers were operational because of the shortage of
fiber optic cable. At the District of Columbia Field Office, we were


                                 - 109 -
informed that only 3 percent of the Trilogy printers received were
operational because the required fiber optic cables had not yet been
installed.

      Additionally, there appeared to be some confusion between FBI
Headquarters and some of the field offices as to the actual number of
Trilogy desktop computers to be deployed under Fast Track. As a
result, four of the field offices had not yet received their full
compliment of desktop computers as intended under the Fast Track
deployment.

  •   Chicago Field Office personnel explained that FBI Headquarters
      initially informed them Fast Track would be a one-for-one
      exchange of old desktop computers for new desktop computers.
      Accordingly, they planned for a one-for-one exchange involving
      approximately 390 Trilogy desktop computers. However, the
      March 14, 2002 Electronic Communication (EC) indicated that
      the contractor was shipping 735 Trilogy desktop computers, one
      for each employee. Chicago Field Office personnel told FBI
      Headquarters that all they could accommodate at that time was
      427 desktop computers, enough to accommodate a one-for-one
      exchange plus an additional ten percent.

  •   Miami Field Office personnel told us they received 556 desktop
      computers in January 2002. However, according to the
      March 14, 2002 Electronic Communication (EC) received
      3 months later, the Miami Field Office was scheduled to receive
      739 Trilogy desktop computers in January 2002.

  •   The March 14, 2002 EC indicated that the District of Columbia
      Field Office would receive 1,365 Trilogy desktop computers.
      However, the District of Columbia Field Office actually received
      950. They indicated that 100 desktop computers would be
      deployed during the full implementation.

  •   The March 14, 2002 EC indicated that the New York Field Office
      would receive 2,101 Trilogy desktop computers, one for each
      person. New York Field Office personnel told us they received
      1,245 desktop computers based on a one-for-one computer
      exchange and that the remaining desktop computers would be
      deployed during the full implementation.




                                - 110 -
f. Most Significant Obstacles to Fast Track Deployment

       When asked to provide what they perceived to be the most
significant obstacles to the Fast Track Deployment, personnel from the
five field offices provided the following responses:

   •   Personnel from the Chicago Field Office stated that FBI
       Headquarters did not provide sufficient information prior to the
       deployment and did not inform them of changes in deployment
       planning. They also indicated that frequent turnover of
       personnel at FBI Headquarters made planning more challenging.
       They indicated that because of changing plans, FBI Headquarters
       required them to submit four separate surveys, three of which
       were subsequently lost by FBI Headquarters.

   •   Personnel from the Los Angeles Field Office indicated the
       contractor did not obtain sufficient input during survey work to
       understand the full extent of the deployment. Also, the
       contractor was rushed in completing the deployment. To
       complete the deployment, Los Angeles personnel had to perform
       some of the work themselves.

   •   Personnel from the Miami Field Office indicated that the on-site
       time to complete the installation phase of the deployment was
       too narrow.

   •   Personnel from the New York Field Office indicated that on-site
       technical personnel were not available to answer questions
       during survey work. Also, the contractor did not have sufficient
       time to complete the on-site deployment work.

   •   Personnel from the District of Columbia Field Office stated the
       contractor was rushed, and they had to do some of the
       contractor’s work to expedite the deployment.

g. Limitations to Field Offices Fully Utilizing Trilogy Fast Track
   Capabilities

      When asked what are the current limitations to utilizing Trilogy
Fast Track capabilities, personnel from the five field offices provided
the following responses.

   •   Chicago Field Office personnel stated that a shortage of fiber
       optic cable prevented them from making connections between


                                 - 111 -
         computers and building up the network infrastructure. Without
         the network infrastructure, they are unable to operate the
         system at full utilization.

     •   The Los Angeles Field Office indicated that funds were not
         available to buy required quantities of fiber optic cable to
         complete the deployment. Also, FBI Headquarters had not yet
         developed the macros for Microsoft Word. Further, although
         Los Angeles has trouble-shooting equipment for its existing
         application systems, no such equipment has been provided so
         far for Trilogy.

     •   The New York Field Office indicated that FBI Headquarters had
         not yet developed the macros for Microsoft Word.

     •   The District of Columbia Field Office indicated that it had yet to
         install the Trilogy printers. Also, FBI Headquarters had not yet
         developed the macros for Microsoft Word. As a result, agents
         were still using WordPerfect because of its nearly 1,000 FBI
         unique macros.

h.       Summary

       Based on the results of our work at the five field offices, the
Extended Fast Track deployment was still ongoing as of June 2002.
For two of the field offices, additional installation work remained to be
completed, and for four of the field offices hundreds of desktop
computers still remained to be delivered. A lack of clear
communication between FBI Headquarters and the field offices
contributed to the confusion over the number of desktop computers to
be delivered and shortages of fiber optic cable. Additionally contractor
maintenance support for the Trilogy architecture was inefficient,
resulting in agents being without computers for weeks at a time.
Improvements in agent and support personnel training, procurement
of trouble-shooting equipment for the Trilogy architecture, and timely
customization of word processing software will enhance user utilization
of the Trilogy architecture.




                                    - 112 -
(6) Recommendations

      We recommend the Director of the FBI:

25.   For future IT deployments, ensure that processes are established
      for field offices to submit input and receive feedback from FBI
      Headquarters prior to installing equipment.

26.   Initiate action to remedy contractor deficiencies associated with
      inefficient: (a) operation of the service support center, and
      (b) maintenance support for Trilogy architecture.

27.   Initiate action to enhance employee IT training by:
      (a) remedying problems associated with the FBI’s on-line
      training system, and (b) developing a training plan specifically
      tailored to information technology specialists and electronic
      technicians.

28.   Initiate action to complete the Extended Fast Track deployment
      timely by: (a) delivering the remaining quantities of Extended
      Fast Track desktop computers, and (b) procuring sufficient
      quantities of fiber optic cables.

29.   Initiate action to: (a) procure adequate trouble-shooting
      equipment for Trilogy architecture, and (b) complete timely
      development of FBI unique macros for Microsoft Word.




                                - 113 -
2. The FBI’s IT Strategic Planning and Performance
   Measurement

      The FBI’s IT strategic planning and performance
      measurement is inadequate because: (1) the FBI's
      strategic plan does not incorporate the ITIM process, and
      (2) the FBI’s strategic plan and performance plan are not
      consistent with the DOJ’s annual performance plan. These
      conditions occurred because the FBI has not updated its
      strategic plan since 1998, and its performance plan does
      not include strategic objectives, goals, and strategies
      relating to IT that are consistent with the DOJ's annual
      performance plan. As a result, the FBI will have difficulty
      advancing its ITIM process through the Framework’s
      maturity stages. Additionally, there is a heightened risk
      that the FBI may not be appropriately allocating resources
      to meet the DOJ’s strategic priorities.

A. Background on Strategic Planning

      Strategic planning is used to determine and reach agreement on
the fundamental results the organization seeks to achieve the goals
and measures it will set to assess programs, and the resources and
strategies needed to achieve its goals. Additionally, according to the
GAO’s June 2002 testimony to the House Appropriations Committee:63

      Strategic planning helps organizations to be proactive,
      anticipate and address emerging threats, and take
      advantage of opportunities to be reactive to events and
      crises. Leading organizations, therefore, understand that
      planning is not a static or occasional event, but a
      continuous, dynamic, and inclusive process. Moreover, it
      can guide decision-making and day-to-day activities.

      The Government Performance and Results Act of 1993
(Results Act) provides for the establishment of strategic planning and
performance measurement in the federal government. It seeks to
improve the effectiveness, efficiency, and accountability of federal
programs by establishing a system for agencies to set goals for
program performance and to measure results. The Results Act
requires agencies to prepare a strategic plan, annual performance
      63
         This testimony, “FBI REORGINAZATION: Initial Steps Encouraging but
Broad Transformation Needed” (GAO-02-865T), was made by the Comptroller
General of the United States on June 21, 2002.


                                    - 114 -
plans, and annual performance reports. The strategic plan, which is
the key requirement of the Results Act, identifies agencies' long-term
goals. Federal agencies are required to update their strategic plan at
least every three years.

      While the Results Act applies to the DOJ, it does not specifically
apply to components such as the FBI. However, in our judgment, for
the DOJ to comply with the Results Act, the components must have
strategic and performance plans that are consistent with, and support,
the DOJ’s strategic and performance plans.

      Annual performance plans include measurable goals that define
what an agency will accomplish during a fiscal year. These plans
should: (1) establish performance goals to define levels of
performance to be achieved; (2) express those goals in an objective,
quantifiable, and measurable form; (3) briefly describe the operational
processes, skills, technology, human capital, information, or other
resources required to meet the goals; (4) establish performance
measures for assessing the progress toward, or achievement of, the
goals; (5) provide a basis for comparing the actual program results
with established goals; and (6) describe the means to be used to
verify and validate measured values. There are at least two iterations
of the annual performance plan. The initial annual performance plan is
submitted to the OMB and is used during its review of the agency's
budget request. The final annual performance plan is submitted to
Congress soon after the transmittal of the President's budget.

       The DOJ’s annual performance plan is comprised of two parts.
The first part is a summary performance plan that provides a
departmental overview and synthesis and is submitted as a stand-
alone document. The second part consists of the individual
performance plans of the departmental components. These
component plans are prepared pursuant to guidance provided by the
DOJ and are incorporated within the components’ budget submissions.
Component plans should support the objectives, goals, and strategies
of the DOJ's annual performance plan so that the DOJ can rely on the
data provided through the component reports. In our judgment,
components that do not incorporate the DOJ’s objectives, goals, and
strategies in their strategic and performance plans are at a heightened
risk of not allocating resources in accordance with the DOJ’s strategic
priorities.




                                - 115 -
B. Strategic Planning’s Relationship to the ITIM Process

      According to the Framework, the purpose of ITIM is to describe
and improve the IT investment management processes so that the
strategic plans and decisions that are made can and will be supported
by highly effective IT investments. Similarly, performance measures
created and used to guide the organization and its activities are a
factor in some ITIM critical processes. However, in general, activities
related to the ongoing development and implementation of
performance measures are largely outside the scope of the GAO ITIM
Framework.

      Although strategic planning is a function that is largely
independent of the ITIM process, strategic planning activities relate to
the Framework’s activities at different stages of investment maturity.
Specifically, the business needs identification critical process in Stage
Two has a key practice that requires the organization to have defined
business needs or stated mission goals. Additionally, Stage Five
maturity, leveraging IT for strategic outcomes, is highly dependent on
the comprehensiveness of the organization’s strategic plan. Stage Five
maturity also focuses on the organization’s ability to improve strategic
outcomes, change business processes to take advantage of technology
changes, and learn from others by benchmarking processes. Based on
the interdependencies between the ITIM and strategic planning
processes, in our judgment the organization’s strategic plan should
address IT investment management.

      In July 2002, the DOJ released its IT Strategic Plan that included
the following four goals:

      1. share information quickly, easily and appropriately - inside
         and outside the DOJ;

      2. secure and protect information;

      3. provide reliable, trusted, and cost-effective IT services; and

      4. use IT to improve program effectiveness and performance.

To meet these goals, the DOJ is focused on four key areas that it
considers to be the building blocks of the IT program: (1) IT
infrastructure, (2) information security, (3) common solutions, and
(4) management roles and processes. One of the strategic initiatives
that comprise management roles and processes is: “Establish and


                                - 116 -
implement improved investment management processes and
practices.” 64 Based on this focus, in our judgment the DOJ has
recognized the importance of integrating strategic planning with IT
management.

C. Results of our Assessment of the FBI’s IT Strategic Planning
   and Performance Measurement

      We found that the FBI’s IT strategic planning and performance
measurement is inadequate because: (1) the FBI’s strategic plan does
not incorporate the ITIM process, and (2) the FBI’s strategic plan and
performance plan are not consistent with the DOJ’s annual
performance plan.

        The FBI’s ITIM Model and Transition Plan states that the
Bureau’s IT strategic plan must incorporate the ITIM process in order
for it to achieve advanced IT investment maturity. However, as of the
end of June 2002, the FBI did not have a current strategic plan
dedicated to IT. Instead, individual divisions had program plans that
included the use of IT within the particular program.

      Additionally, the Bureau-wide strategic plan has not been
updated since 1998. Not only does this time period pre-date the FBI’s
ITIM process, but it also pre-dates the development of the Framework
in 2000. Officials in the Office of Strategic Planning told us that the
Office of Strategic Planning’s recent efforts have not been focused on
IT.

       The FBI acknowledged to us that it must incorporate strategic
planning with its ITIM process, including updating its strategic plan. In
our judgment, without a new strategic plan, the FBI will limit the
effectiveness of its ITIM and strategic planning processes.

       Further, we found that the FBI's strategic plan (from 1998) and
its FY 2003 performance plan did not support the DOJ's annual
performance plan relating to IT. This lack of support occurred because
the FBI’s strategic and performance plans are not consistent with the
strategic objectives, goals, and strategies relating to IT as the DOJ's
annual performance plan. The DOJ’s FY 2003 annual performance plan

       64
          Because the DOJ’s IT Strategic Plan was first published in July 2002, we did
not assess the FBI’s compliance with it during our audit fieldwork. However, because
of the recognized relationship between IT investment management and strategic
planning, we did examine the FBI’s strategic plan to determine if it incorporated the
ITIM process.


                                      - 117 -
includes the strategic objective to "make effective use of IT."
Additionally, this strategic objective is supported by the annual goal to
"expand electronic access and dissemination of information while
ensuring IT security and cost effective IT investments meet
programmatic and customer needs." However, both the strategic
objective and the annual goal are not included within the FBI strategic
plan and FY 2003 performance plan. As a result, there is a heightened
risk the FBI may not be appropriately allocating resources to meet the
DOJ’s strategic priorities.

D. Summary

      The FBI must have a Bureau-wide IT strategic plan to maximize
the use of its IT investments, rather than having the division-specific
IT focus that is currently in place. In fact, the purpose of the FBI’s
ITIM process is to move away from managing IT in division
“stovepipes” to a centralized, Bureau-wide management focus. The
FBI’s strategic planning process must evolve with the ITIM process to
ensure the success of both functions.

E. Recommendation

      We recommend that the Director of the FBI ensures:

30. The IT strategic plan and performance plans are updated to:
    (a) fully integrate these plans with the FBI’s ITIM process; and
    (b) include those performance goals and indicators included in
    the DOJ’s IT Strategic Plan.




                                 - 118 -
            STATEMENT ON COMPLIANCE WITH
                LAWS AND REGULATIONS

      We have audited the FBI’s management of IT investments. In
connection with the audit, as required by the standards, we reviewed
management processes and records to obtain reasonable assurance
about the FBI’s compliance with laws and regulations that, if not
complied with, in our judgment, could have a material effect on FBI
operations. Compliance with laws and regulations applicable to the
FBI’s management of IT investments is the responsibility of the FBI’s
management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

  •   the Government Performance and Results Act of 1993; and

  •   the Clinger-Cohen Act of 1996.

      Our audit identified areas where the FBI was not in compliance
with the laws and regulations referred to above. With respect to
transactions that were not tested, nothing came to our attention that
caused us to believe that FBI management was not in compliance with
the laws and regulations cited above.




                                - 119 -
         STATEMENT ON MANAGEMENT CONTROLS

       In planning and performing our audit of the FBI’s management
of IT investments, we considered the FBI’s management controls for
the purpose of determining our audit procedures. This evaluation was
not made for the purpose of providing assurance on the management
control structure as a whole; however, we noted certain matters that
we consider to be reportable conditions under Government Auditing
Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
management control structure that, in our judgment, could adversely
affect the FBI’s ability to manage its IT investments. During our audit,
we found the following management control deficiencies.

   •   The FBI lacked the basic selection and control processes
       necessary to build its IT investment capability.

   •   The FBI’s IT strategic planning and performance measurement
       activities did not include its IT investment management process.

       Because we are not expressing an opinion on the FBI’s
management control structure as a whole, this statement is intended
solely for the information and use of the FBI in managing its IT
investments. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                 - 120 -
                                                                  APPENDIX 1


            OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The primary objectives of the audit were to: (1) determine
whether the FBI was effectively managing its IT investments; and
(2) assess the FBI’s IT strategic planning and performance
measurement activities.65 In determining whether the FBI was
effectively managing its IT investments, we also examined the FBI’s
efforts in developing enterprise architecture and project management
functions. These two functions both complement and facilitate IT
investment management. Additionally, we performed a case study of
Trilogy, a significant IT project, to determine how the FBI’s IT
investment management practices affected the project’s progress.

Scope and Methodology

      The audit was performed in accordance with Government Auditing
Standards, and included tests and procedures necessary to accomplish
the audit objectives. We conducted work at: (1) FBI Headquarters in
Washington, D.C. (2) FBI Laboratory facilities in Quantico, Virginia, and
(3) FBI field offices in New York City, New York; Los Angeles, California;
Chicago, Illinois; Miami, Florida; and Washington, D.C.

      To perform our audit, we conducted approximately 85 interviews
with 70 officials from the FBI (including field offices), DOJ, OMB, and
GAO. The FBI officials interviewed were from the Director’s office,
Information Resources Division, Criminal Justice Information Services
Division, Laboratory Division, Inspection Division, and Finance Division.
Additionally, we reviewed over 200 documents related to IT
management policies and procedures, project management guidance,
strategic and program plans, IT project proposals and management
plans, budget documentation, organizational structures, Congressional
testimony, and prior GAO and OIG reports.

      To determine whether the FBI is effectively managing its IT
investments, we applied the GAO’s ITIM framework and the associated
assessment method. As part of the Framework’s assessment method,

       65
         During our audit fieldwork, we initiated work relating to a third objective:
to determine if the FBI has implemented prior information technology related
recommendations and improved its information technology. We will issue a separate
report on this objective.



                                      - 121 -
the FBI conducted a self-assessment of its IT investment management
activities using the Framework. The self-assessment included those
processes that the FBI had in place as of the beginning of our audit.
Additionally, the self-assessment covered those processes that the FBI
was planning to implement based on its IT Investment Management
Model and Transition Plan.66 In the self-assessment, the FBI indicated
whether it executed each of the key practices in Stages Two through
Five. The FBI asserted that it executed 27 of the 38 key practices from
Stage Two, 3 of the 53 key practices from Stage Three, and none of the
key practices from Stages Four and Five. Additionally, it stated in the
self-assessment that the IT Investment Management Model and
Transition Plan would be supplemented so that the FBI would eventually
implement the critical processes necessary to achieve Stage Four
maturity, as well as many of the key practices from Stage Five.

      Because FBI officials stated in the IT Investment Management
Model and Transition Plan that its initial goal was to advance to Stage
Two, by default, the FBI indicated that it was in Stage One maturity.
As a result, we validated the FBI’s execution of the 38 key practices
from Stage Two, and assessed the FBI’s ability to improve its IT
investment management practices through implementation of the ITIM
process defined in the IT Investment Management Model and Transition
Plan.

       The Stage Two critical processes and key practices we examined
focus primarily on the FBI’s ability to effectively select and control its IT
investments. To determine whether the FBI had implemented the
critical processes and key practices in Stage Two, we evaluated policies,
procedures, and guidance related to the FBI’s IT investment
management activities.

      We compared the evidence collected from our document reviews
and interviews to the key practices and critical processes defined in the
Framework. Because the Framework is a hierarchical model, the rating
of each critical process is dependent on the key practices below it.
Therefore, we first rated the key practices. In accordance with the
Framework’s assessment method, we rated a key practice as
“executed” when we determined that the FBI was executing the key
aspects of the practice. A key practice was rated as “not executed”
when we determined that there were significant weaknesses in the

      66
          Although the FBI’s IT Investment Management Model and Transition Plan,
issued in January 2002, states that its primary goal is to provide the conceptual
framework for Stage Two maturity, it also outlines the steps the FBI must take to
advance to Stage Four maturity in preparation to achieving Stage Five maturity.


                                     - 122 -
FBI’s execution of the key practice and the FBI offered no adequate
alternative, or when we found no evidence of a practice during the
review.

      Once the key practices were rated, we rated each of the
Stage Two critical processes we reviewed. A critical process was rated
“implemented” if all of the underlying key practices were rated as
being executed. A critical process was rated as “not yet implemented,
but substantial progress made” if over half, but not all, of its
underlying key practices were rated as being executed. A critical
process was rated as “not implemented” when there were significant
weaknesses (i.e., fewer than 50 percent of the key practices had not
been implemented) in the FBI’s implementation of the underlying key
practices and no adequate alternative was in place.

      Beginning in March 2002, the FBI pilot tested the select phase of
its new ITIM process. To measure the FBI’s progress in improving the
execution of Stage Two key practices during the course of our audit,
we documented the key practices executed: (1) before the
implementation start of the test pilot in March 2002, and (2) as of the
end of our fieldwork in June 2002.

    Our assessment of the FBI’s ability to improve its IT investment
management consisted of the following four areas:

      1. the Plan’s coverage of Stage Two key practice activities that
         were not being executed during our fieldwork;

      2. the amount of participation from ITIM users in developing the
         ITIM process;

      3. the support from the project management function; and

      4. the support from the enterprise architecture function.

        In addition, we performed a case-study of the Trilogy project to
determine how the FBI’s IT investment management practices have
affected its progress. Trilogy was selected for a case-study because it
is currently the FBI’s most expensive IT project and its implementation
is critical to the FBI’s ability to achieve its mission. Trilogy is intended
to provide the right hardware and software tools to the FBI’s agents
and analysts, enable the FBI’s investigative personnel to easily and
rapidly find, present, and manipulate required information, and
transport and share information quickly and efficiently across the


                                  - 123 -
Bureau. We performed the case-study both at FBI Headquarters where
we interviewed individuals responsible for the project, as well as at five
FBI field offices (New York, District of Columbia, Los Angeles, Miami,
and Chicago) where we interviewed individuals responsible for assisting
in the deployment of the new system, as well as agents utilizing the
system.

      To assess the FBI’s IT strategic planning and performance
measurement activities, we reviewed strategic and performance
planning documentation from the FBI, the DOJ’s Strategic Plan for
FYs 2001 to 2006, the DOJ’s FY 2001 Performance Report, the
DOJ’s FY 2002 Revised Final Performance Plan for FY 2003, and the
DOJ’s IT Strategic Plan. To supplement our document review, we also
interviewed officials responsible for creating FBI strategic and
performance plans.




                                 - 124 -
                                                                              APPENDIX 2



FLOWCHART OF FBI’S ITIM CONTROL PHASE




                        Monthly
                        Reviews
                                                       Submits Program
                                                      Package to PMOs for
                                                            Review
                      Project Teams
                     provide detailed
                   status of project per
                    SDLC milestones
                                                         PMOs assess
                                                       projects. Develop
                                                      exception information
                                                           for review.
                    Project Sponsor
                                                Yes
             No         Reviews
                                                          TRB reviews
                                                         exceptions and
                                                           formulates
                                                      recommendations to
                                                            the POC
                       Approve?



                                                         POC initiates
                                                       corrective actions,
                                                            submits
                                                      recommendations to
                                                             ERB.



                                                          ERB reviews
                                                       recommendations
                                                      and takes actions as
                                                          appropriate.




Source: FBI’s training materials for the ITIM process as of
February 2002.




                                           - 125 -
                                                                                     APPENDIX 3

FLOWCHART OF FBI’S ITIM EVALUATE PHASE




                           Monthly
                           Reviews



                                                   POC reviews and
                        Project Teams                 develops
                         complete Post           recommendations for
                        Implementation               ERB action
                       Review information




                        Project Sponsor
                       Reviews/Business
                 No    Sponsor Reviews
                                                      Active                         Yes
                                                      Group?



                           Approve?
                                                         No


                              Yes
                                                     ERB reviews
                                                                                 ERB reviews
                                                 recommendations for
                                                                             recommendations for
                                                       process
                       Submits Review                                        continued investment
                                                     improvement
                      Package to PMO for
                         Assessment




                                                               EA/PMO documents
                       PMO reviews and                          best practices and
                        summarizes the                         communicates to all
                       materials for POC.                      other program teams




Source: FBI’s training materials for the ITIM process as of
February 2002.




                                       - 126 -
                                 APPENDIX 4


JMD’S ASSESSMENT OF THE FBI’S ITIM PROCESS




                  - 127 -
- 128 -
- 129 -
- 130 -
- 131 -
- 132 -
                                                       APPENDIX 5

 GAO’S FIVE STAGES OF ENTERPRISE ARCHITECTURE
                   MATURITY




Stage One: Creating Enterprise Architecture Awareness is
characterized by either no plans to develop and use an enterprise
architecture (EA), or plans and actions that do not yet demonstrate an
awareness of the value of having and using one. While Stage One
agencies may have initiated some EA core elements, these agencies’
efforts are ad hoc and unstructured, and do not provide the
management foundation necessary for successful EA development.

Stage Two: Building the EA Management Foundation focuses on
assignment of roles and responsibilities and establishment of plans for
developing EA products. Specifically, a Stage Two agency has

                                - 133 -
designated a chief architect and established and staffed a program
office responsible for EA development. Further, a steering committee
or group that has responsibility for directing and overseeing the
development has been established and the membership of the steering
committee is comprised of business and IT representatives. At
Stage Two, the agency either has plans for developing or has begun
development of at least some of the necessary EA products. This
stage also requires the agency to have selected both a framework that
will be the basis for the nature and content of the specific products it
plans to develop, and an automated tool to help in the development.

Stage Three: Developing Architecture Products focuses on actual
development of EA products. At Stage Three, the agency has defined
the scope of its EA as encompassing the entire enterprise, whether
organization based or function-based, and it has a written and
approved policy demonstrating institutional commitment. Although
the products may not yet be complete, these products are intended to
describe the agency in business, data, applications, and technology
terms. Further, the products are to describe the current (i.e., “as is”)
and future (i.e., “to be”) states and the plan for transitioning from
current to future state (i.e., sequencing plan). Also, as the
architecture products are being developed, these products are to be
subject to configuration control.

Stage Four: Completing EA Products is characterized by complete
and approved EA products that the agency can use to help select and
control its portfolio of IT investments. The complete products describe
the agency in business, data, applications, and technology terms.
Also, the products are complete in that the products describe the
agency’s current and future states and the transition plan for
sequencing from the current state to the future state. Further, the
agency’s Chief Information Officer has approved the EA and the
agency has a written policy requiring that IT investments comply with
the EA.

Stage Five: Leveraging the EA for Managing Change entails
evolving the products according to a written and approved policy for
EA maintenance. Also at this stage, either the steering committee,
investment review board, or agency head approves the EA. Finally,
the agency has incorporated the EA into its corporate decision-making
and has established and is using metrics to measure the effectiveness
of its EA.

      Source: GAO Report, “INFORMATION TECHNOLOGY: Enterprise Architecture
      Use across the Federal Government Can Be Improved” (GAO-02-6).

                                 - 134 -
                                                             APPENDIX 6

FBI’S ENTERPRISE ARCHITECTURE MATURITY SURVEY




   Source: GAO Report, “INFORMATION TECHNOLOGY: Enterprise Architecture
   Use   across the Federal Government Can Be Improved” (GAO-02-6).




                              - 135 -
          APPENDIX 7




- 136 -
- 137 -
- 138 -
- 139 -
- 140 -
- 141 -
- 142 -
- 143 -
- 144 -
- 145 -
- 146 -
- 147 -
- 148 -
- 149 -
- 150 -
- 151 -
- 152 -
                                                                APPENDIX 8

     OIG, AUDIT DIVISION ANALYSES AND SUMMARY
      OF ACTIONS NECESSARY TO CLOSE REPORT

      In its response to the draft report, the FBI requested that this report
be classified For Official Use Only or Limited Official Use. However, in a
sensitivity review conducted prior to issuance of the final report, the FBI did
not request classification of the report or limitation of its distribution.
Consequently, this report is unclassified and not restricted in its distribution.

Recommendation Number:

1.    Resolved. This recommendation is resolved based on the FBI’s
      agreement to plan for and take more timely action to allow board
      members and other ITIM users to execute assigned responsibilities
      competently. This recommendation can be closed when we receive
      documentation demonstrating that: (a) the ITIM Program Office has
      established regularly scheduled meetings for the investment boards
      with standing agendas of items to be discussed, and (b) the ITIM
      Program Office maintains an up-to-date list of items requiring board
      member action and the status of those items.

2.    Resolved. This recommendation is resolved based on the FBI’s
      agreement to ensure that all members of the IT investment boards
      receive sufficient education and training to execute assigned
      responsibilities effectively. The FBI’s response states that additional
      training will be held in the second and third quarters of
      FY 2003; however, it does not explicitly state that education and
      training plans will be developed. This recommendation can be closed
      when we receive: (a) the ratified Roles and Responsibilities
      documents dated June 2002 that specifically identify the roles and
      responsibilities for each investment board member, and (b) education
      and training plans to ensure board members acquire the required core
      competencies.

3.    Resolved. This recommendation is resolved based on the FBI’s
      agreement to ensure FBI IT project mangers consistently follow official
      project management guidance. However, the FBI’s response does not
      indicate a date when such a process will be established. We request
      that in its next corrective action correspondence the FBI provide a

                                     - 153 -
       timeframe for implementation of this recommendation. This
       recommendation can be closed when we receive documentation that
       official project management guidance has been implemented and
       consistently followed.

4.     Resolved. This recommendation is resolved based on the FBI’s
       agreement to develop written policies and procedures for management
       oversight of IT projects for use by the investment review boards. The
       FBI’s response indicates that detailed written policies will be completed
       in the third quarter of FY 2003. This recommendation can be closed
       when we receive a copy of the written policies and procedures.

5.     Resolved. This recommendation is resolved based on the FBI’s
       agreement to support the IT investment review boards with a
       centralized project management office that operates in accordance
       with ITIM policies and procedures. The FBI’s response indicates that a
       centralized project management office has been established and will
       be supporting the investment review boards during the Control phase
       of the ITIM pilot test.67 This recommendation can be closed when we
       receive documentation such as organization charts, charters, and
       policy guidance demonstrating that the centralized project
       management office has been established and operates in accordance
       with ITIM policies and procedures.

6.     Resolved. This recommendation is resolved based on the FBI’s
       agreement to develop a project management plan for each IT project,
       approved by the Project Oversight Committee, that includes cost and
       schedule controls. While the FBI’s response indicates that the
       centralized project management office will develop project
       management plans, it is not clear when these actions will be initiated.
       We request that in its next corrective action correspondence the FBI
       provide a timeframe for implementation of this recommendation. This
       recommendation can be closed when we receive documentation
       demonstrating that each IT project has a project management plan
       approved by the Program Oversight Committee.

7.     Resolved. This recommendation is resolved based on the FBI’s
       agreement to ensure that information in the IT asset inventory is

       67
        The FBI’s response states that the roll-out of the Control phase is expected to be
completed by the fourth quarter of FY 2003.
                                         - 154 -
     made available to, and used by, the boards. The FBI’s response
     indicates that an assessment of the IT asset inventory will initially be
     shared with the boards in the third quarter of FY 2003. This
     recommendation can be closed when we receive documentation
     demonstrating that the IT asset inventory is used by the boards as an
     investment decision-making tool.

8.   Resolved. This recommendation is resolved based on the FBI’s
     agreement to execute, by the fourth quarter of FY 2003, the key
     practice activities necessary for the investment review boards to
     maintain effective oversight of IT projects. These key practices are:

     •   providing each project’s up-to-date cost and schedule data to the
         appropriate IT investment board;

     •   establishing criteria for the boards to review each IT project’s
         performance by comparing actual cost and schedule data to
         expectations;

     •   performing special reviews of projects that have not met
         predetermined performance standards;

     •   defining, documenting, and agreeing to corrective actions for each
         under-performing project by the appropriate IT investment board
         and project manager; and

     •   tracking and implementing corrective actions until the desired
         outcome is achieved.

     This recommendation can be closed when we receive documentation
     demonstrating that the five key practice activities listed above have
     been executed.

9.   Resolved. This recommendation is resolved based on the FBI’s
     agreement to ensure progress toward completing the IT asset
     inventory is monitored. The FBI’s response states that the established
     deadline for completing and validating the IT inventory is end of the
     second quarter of FY 2003. This recommendation can be closed when
     we receive documentation demonstrating that progress toward
     completion is evaluated.

                                    - 155 -
10.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to implement processes that ensure: (a) subsequent
      changes to IT projects and systems are identified and documented in
      the inventory, (b) information from the inventory is available on
      demand to decision-makers and other affected parties, and (c) the IT
      project and system inventory and its information records are
      maintained to contribute to future investment selections and
      assessments. This recommendation can be closed when we receive
      documentation demonstrating that the processes have been
      implemented. The FBI’s response indicates that periodic updates to
      the IT inventory are planned for the fourth quarter of FY 2003.

11.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to develop written policies and procedures for identifying
      the business needs (and the associated users) for each IT project. The
      FBI’s response states that since March 2002, the Concept Paper and
      Exhibit 300 have been used to standardize the documentation of the
      business case. While we agree that these forms can be used to
      document the business needs and users of IT projects, we do not
      agree that these forms are sufficient evidence that a policy or
      procedure exists. This recommendation can be closed when we
      receive a copy of the written policies and procedures for identifying the
      business needs and users of IT projects.

12.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to train ITIM users in identifying business needs and
      associated users. While the FBI’s response states that training for the
      Select phase was completed in March 2002, and that additional
      training will be held when the Control and Evaluate phases are rolled
      out (second and third quarters of FY 2003, respectively), it does not
      specify that the training encompasses business needs identification.
      This recommendation can be closed we receive documentation
      demonstrating that such training is taking place.

13.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to ensure identified users participate in project
      management throughout a project’s life-cycle. The FBI’s response
      states that the project management office will institute procedures to
      ensure user involvement throughout a project’s life-cycle, but does not
      specify when these procedures will be instituted. We request that in
      its next corrective action correspondence the FBI provide a timeframe
                                   - 156 -
      for implementation of this recommendation. This recommendation can
      be closed when we receive documentation demonstrating that the FBI
      instituted procedures requiring participation of end users throughout
      the project’s life-cycle.

14.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to ensure the ITIM process applies to all proposals,
      including those funded through the FBI’s base funding. The FBI’s
      response states that base funding requests are planned to be included
      in the FY 2003 Select phase. This recommendation can be closed
      when we receive documentation demonstrating that the ITIM process
      has been applied to all proposals.

15.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to provide sufficient staffing to the ITIM Program Office, as
      recommended in the Post-Implementation Review. Although the FBI’s
      response states that six additional full-time staff have been requested
      for the ITIM Program Office, it did not specify when such positions are
      expected to be filled. We request that in its next corrective action
      correspondence the FBI provide a timeframe for implementation of this
      recommendation. This recommendation can be closed when we
      receive documentation demonstrating that the staffing requests have
      been fulfilled.

16.   Resolved. This recommendation is resolved based on the FBI’s
      response stating that all recommendations set forth in the Post-
      Implementation Review relating to expanding policies and procedures
      were implemented by September 2002. This recommendation can be
      closed when we receive documentation demonstrating that the policies
      and procedures have been implemented.

17.   Resolved. This recommendation is resolved based on the FBI’s
      response that input from various ITIM users was incorporated into the
      design of the Control and Evaluate phases through interviews and
      working group sessions completed in September 2002. This
      recommendation can be closed when we receive documentation
      demonstrating that such working group sessions were conducted and
      that input was incorporated.

18.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to modify the ITIM process so that the Technical Review
                                   - 157 -
      Board and Enterprise Architecture Technical Committee perform a
      business architecture compliance review of IT proposals to ensure
      these proposals support the missions of the FBI. The FBI’s response
      states that this modification will be completed by the third quarter of
      FY 2003. This recommendation can be closed when we receive a copy
      of the modified ITIM process.

19.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to prepare a plan that specifically details how the project
      management office will support the ITIM process. However, the FBI’s
      response did not specify when this plan will be completed. We request
      that in its next corrective action correspondence the FBI provide a
      timeframe for implementation of this recommendation. This
      recommendation can be closed when we receive a copy of the
      completed plan.

20.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to develop and implement a plan detailing how and when it
      will integrate the ITIM process with a system development life-cycle
      methodology. Although the FBI’s response indicates that the project
      management office will integrate the ITIM process with a system
      development life-cycle methodology, it does not specify when this will
      be accomplished. We request that in its next corrective action
      correspondence the FBI provide a timeframe for implementation of this
      recommendation. This recommendation can be closed when we
      receive documentation demonstrating that this integration has been
      completed.

21.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to continue its efforts to establish a comprehensive
      enterprise architecture. The FBI’s response states that it has a target
      to implement the first phase of a world-class enterprise architecture
      framework by April 2003. This recommendation can be closed when
      we receive a documentation demonstrating that the first phase of the
      enterprise architecture has been developed and a maturation plan is in
      place.

22.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to establish cost, schedule, technical, and performance
      baselines for Trilogy and track significant deviations from these
      baselines. The FBI’s response states that baselines will be established
                                   - 158 -
      once the current Engineering Change Proposals are negotiated,
      although no target dates were provided. We request that in its next
      corrective action correspondence the FBI provide a timeframe for
      implementation of this recommendation. This recommendation can be
      closed when we receive documentation demonstrating that the
      baselines have been established and are being monitored.

23.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to adequately define, document, and share technical
      requirements for Trilogy. The FBI’s response states that functional
      requirements have been defined for Trilogy’s User Application
      Component. This recommendation can be closed when we receive
      documentation demonstrating that the technical requirements for the
      User Application Component have been adequately defined,
      documented, and shared with appropriate users.

24.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to prepare an action plan to address the risks identified by
      the three internal reports on Trilogy by December 31, 2002. This
      recommendation can be closed when we receive a copy of the
      approved action plans and documentation demonstrating that the
      plans are being monitored for implementation.

25.   Resolved. This recommendation is resolved based on the FBI’s
      agreement with our recommendation. The FBI’s response states that
      a successful process was used for the site installation schedule for the
      Trilogy project. However, we do not believe that the initial site survey
      utilized in the Trilogy deployment is an adequate process to submit
      input and receive feedback from FBI field offices. Our position is that
      a more comprehensive process could have mitigated the lack of clear
      communication between FBI Headquarters and field offices that caused
      confusion over the number of desktop computers to be delivered and
      shortages of fiber optic cable. This recommendation can be closed
      when we receive documentation demonstrating that such a process
      has been established for future IT deployments.

26.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to remedy contractor deficiencies associated with
      (a) operation of the service support center, and (b) maintenance
      support for Trilogy architecture. This recommendation can be closed

                                   - 159 -
      when we receive documentation regarding the new maintenance
      contract and reductions in outstanding trouble tickets.

27.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to enhance employee training by: (a) remedying problems
      associated with the FBI’s on-line training system, and
      (b) developing a training plan specifically tailored to information
      technology specialists and electronic technicians. This
      recommendation can be closed when we receive: (a) documentation
      demonstrating that the outstanding issues with the on-line training
      system have been resolved, and (b) documentation of the Trilogy
      training received by the information technology specialists and
      electronic technicians regarding Trilogy software and hardware.

28.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to: (a) deliver the remaining Extended Fast Track desktop
      computers to all sites except New York City by December 31, 2002,
      and New York City by February 2002, and (b) obtain sufficient fiber
      optic cable from other FBI funding. This recommendation can be
      closed when we receive documentation demonstrating that: (a) the
      remaining Extended Fast Track desktop computers have been
      deployed, and (b) sufficient fiber optic cable has been obtained.

29.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to: (a) procure adequate trouble-shooting equipment for
      Trilogy architecture when the Enterprise Operations Center is
      operational, and (b) choose a web-based approach for submissions
      previously supported by Word Perfect macros. While the FBI
      disagreed with the original part (b) of this recommendation (that it
      “complete timely development of FBI unique macros for Microsoft
      Word”), it offered the acceptable alternative action of web-based
      submissions. However, the FBI did not provide estimated completion
      dates for these planned actions. We request that in its next corrective
      action correspondence the FBI provide a timeframe for implementation
      of this recommendation. This recommendation can be closed when we
      receive documentation demonstrating that: (a) adequate trouble-
      shooting equipment for Trilogy equipment has been procured, and
      (b) a web-based approach has been established to replace Word
      Perfect macros.


                                   - 160 -
30.   Resolved. This recommendation is resolved based on the FBI’s
      agreement to update the IT strategic and performance plans so that
      the plans: (a) are fully integrated with the FBI’s ITIM process, and
      (b) include those performance goals and indicators included in the
      DOJ’s IT Strategic Plan. The FBI’s response states that its IT Strategic
      Planning process will be updated and integrated with the ITIM
      framework by the fourth quarter of FY 2003. However, the response
      does not state that the FBI’s IT Strategic Planning process will
      incorporate performance goals and indicators included in the DOJ’s IT
      Strategic Plan. This recommendation can be closed we receive a copy
      of the updated Strategic Planning process that includes the above
      requirements.




                                   - 161 -
